<html>
<title> - SUSTAINABLE WATER SUPPLIES FOR THE WEST: PART 1</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
    SUSTAINABLE WATER SUPPLIES FOR THE WEST: PART 1 -- PROTECTING 
                         GROUNDWATER RESOURCES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             Tuesday, April 10, 2007, in Pomona, California

                               __________

                           Serial No. 110-11

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                     U.S. GOVERNMENT PRINTING OFFICE

34-613 PDF                 WASHINGTON DC:  2006
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001






                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth, South Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
     CATHY McMORRIS RODGERS, Washington, Ranking Republican Member

Jim Costa, California                Ken Calvert, California
George Miller, California            Dean Heller, Nevada
Mark Udall, Colorado                 Doug Lamborn, Colorado
Joe Baca, California                 Don Young, Alaska, ex officio
Hilda L. Solis, California
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                







                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 10, 2007..........................     1

Statement of Members:
    Baca, Hon. Joe, Sr., a Representative in Congress from the 
      State of California........................................     7
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement of....................................     3
    Solis, Hon. Hilda, a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Araiza, Anthony W., General Manager, West Valley Water 
      District, Rialto, California...............................    45
        Prepared statement of....................................    46
    Baca, Hon. Joe, Jr., Councilman, City of Rialto, California..     8
        Prepared statement of....................................    10
    Cantu, Celeste, Executive Director, Santa Ana Watershed 
      Project Authority, Riverside, California...................    11
        Prepared statement of....................................    13
    Coffey, Brad, Water Treatment Section Manager, Metropolitan 
      Water District of Southern California, Los Angeles, 
      California.................................................    40
        Prepared statement of....................................    42
    DeLoach, Robert A., General Manager/Chief Executive Officer, 
      Cucamonga Valley Water District, Rancho Cucamonga, 
      California.................................................    14
        Prepared statement of....................................    16
    Martin, Robert E., General Manager, East Valley Water 
      District, Highland, California.............................    49
        Prepared statement of....................................    51
    Newman, Penny J., Executive Director, Center for Community 
      Action and Environmental Justice, Riverside, California....    20
        Prepared statement of....................................    21
    Whitehead, Michael L., Director, San Gabriel Basin Water 
      Quality Authority, West Covina, California.................    52
        Prepared statement of....................................    53
    Wyels, Phil, Assistant Chief Counsel, California State Water 
      Resources Control Board, Sacramento, California............    24
        Prepared statement of....................................    26

Additional materials supplied:
    Vargas, Hon. Grace, Mayor, City of Rialto, California, Letter 
      submitted for the record...................................    68

 
OVERSIGHT FIELD HEARING ON ``SUSTAIN-ABLE WATER SUPPLIES FOR THE WEST: 
              PART 1 -- PROTECTING GROUNDWATER RESOURCES''

                              ----------                              


                        Tuesday, April 10, 2007

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                     Committee on Natural Resources

                           Pomona, California

                              ----------                              

    The Subcommittee met, pursuant to notice, at 9:00 a.m., at 
California State Polytechnic University, 3801 West Temple 
Avenue, Kellogg West Conference Center, Pomona, California, 
Hon. Grace F. Napolitano [Chairwoman of the Subcommittee] 
presiding.
    Present: Representatives Napolitano and Baca.
    Also Present: Representative Solis.
    Mrs. Napolitano. Good morning, ladies and gentlemen. Would 
you kindly take your seats? Can you hear me in the back? Thank 
you.
    Good morning, everybody. This is a meeting of the 
Subcommittee on Water and Power, and it will come to order, so 
there.
    The purpose of the meeting of the Subcommittee is to hold 
the first of what will be a series of field hearings on 
sustainable water supplies for the west. That means the 17 
western states served by the Bureau of Reclamation are under 
this committee's jurisdiction. Today's hearing will be focused 
on perchlorate contamination of our groundwater resources.
    And I will begin with a brief statement, and I will 
recognize other members of the Subcommittee for any statement 
they may have. Additional material may be submitted by anybody 
from this group in the audience for the record. We will leave 
it open for 30 days--yes, 30 days to give you ample time to get 
material into the record.
    I was going to be brief but I'm a little bit long. When I 
get to the panels, I'll tell you about that little colorful 
thing that I've got in front of me. I want to, of course, 
welcome our witnesses and thank them for being here, same for 
our guests. And I do want to take a moment to thank Cal Poly 
Pomona, President Mike Ortiz, his administration, and Doug 
Glaeser--where are you?--who has been exceedingly helpful to 
our needs in holding open rooms on this campus for meetings 
that we need to have. And of course, the staff of Cal Poly. 
This is being recorded and will be made available to anybody 
who would like to avail themselves of it.
    You have provided a perfect facility for a hearing, and on 
behalf of myself, Chairman Nick Rahall, Chair of the House 
Committee on Natural Resources, and my Ranking Member, Cathy 
McMorris-Rodgers, who cannot be here because she is expecting 
her baby. I thank you for your hospitality.

  STATEMENT OF THE HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Last Thursday, Science Magazine published 
results of a significant new study about water in Southwestern 
United States. The study, which was reported in the 
``Washington Post'', is directly relevant to our hearing this 
morning, but this new study is not about perchlorate, it's not 
about VOCs, nor chromium, nor other contaminates. Instead, the 
new study is about climate change. It's about global warming 
and how climate change may already be playing a role in the 
current drought in the Colorado basin. Don't forget, the 
Colorado affects seven states. It's about how rainfall in this 
part of the country may further decline by another ten to 20 
percent annually, placing further stress on our already 
stressed water supply. According to one of our authors of the 
study, government needs to plan for this right now, coming up 
with new well-informed and fair deals for allocation of the 
declining water resources.
    Today's hearing is about water quality and contamination, 
but what we have to remember is that water quality is a 
critical part of our water supply. The quality of water we pump 
from our wells is every bit as important as the quantity we 
pump. If we lose hundreds of wells in California, which we 
have, because of chemical contamination that can never be 
cleaned up, there's really no difference than if we lost ten or 
20 percent of our water supply to drought brought on by climate 
change. Water quality and water quantity are both critical to 
future sustainability of water supplies.
    According to the California Department of Health Services 
as of last month, perchlorate has been detected at or above the 
reporting level of four parts per billion in 456 sources of 
drinking water of more than 7,000 sources tested in California 
since 1997. Roughly 100 water systems are affected. Los Angeles 
County reported 177 sources of drinking water contaminated with 
perchlorate with a peak level of 159 parts per billion. That's 
very, very dangerous. San Bernardino County reported 95 sources 
with a peak level of 820 parts per billion; Riverside County 
reported 84 contaminated sources with a peak level of 73 parts 
per billion; Orange County found 37 with peak levels of 11 
parts per billion.
    Several of the Regional Water Quality Control boards have 
informed the state of additional locations of perchlorate in 
groundwater that are not currently associated with 
contamination of public drinking water. That is, they're not 
being investigated, they're just letting them sit. Some of 
these sites have very high levels of perchlorate and they 
present a threat to existing and future water supply to 
Californians. California pumps roughly 30 percent of its 
drinking water from groundwater sources, and by any measure, 
further groundwater contamination could significantly degrade 
water quality and worsen scarcity problems in our region.
    Our witnesses this morning include officials from many of 
the major water supplies in Southern California, and I will be 
asking not only this panel but the other panel, ``Do you 
believe your agency is prepared for any further loss of water 
supply, whether it is from chemical contamination or from 
climate change or drought?'' And the second question, ``Would 
you consider the current water supply for your service area to 
be sustainable?''
    All of our local governments, the Federal Government, all 
our state governments, and all our water districts must work in 
tandem in coalitions with those areas most in need due to 
circumstances beyond their control. And I just made a statement 
a little bit ago that we need the PRP's here too, potential 
responsible parties. To do this, we need to bring out 
information relevant to the reality of each area and work 
together and prepare for any eventuality, such as a drought 
brought on by global warning, et cetera.
    Again, thank you for being here, and now I will move to 
recognize my other members of the Subcommittee on Water and 
Power. And I will start with the Congresswoman Hilda Solis, the 
ranking by seniority. Ms. Solis.
    [The prepared statement of Hon. Grace F. Napolitano 
follows:]

      Statement of The Honorable Grace F. Napolitano, Chairwoman, 
                    Subcommittee on Water and Power

    Good Morning. I want to welcome our witnesses and guests this 
morning. I want to take just a moment to thank our very gracious 
hosts--the Administration and staff of Cal Poly Pomona. You have 
provided a perfect facility for our hearing this morning. On behalf of 
myself and Congressman Nick Rahall, who is the Chairman of the House 
Committee on Natural Resources, I thank you for your hospitality.
    Last Thursday, Science Magazine published results of a significant 
new study about water in the Southwestern United States. The study, 
which was reported in The Washington Post, is directly relevant to our 
hearing this morning. But this new study is not about perchlorate. It's 
not about VOCs, or chromium, or other contaminants.
    Instead, the new study is about climate change. It's about global 
warming. It's about how climate change may already be playing a role in 
the current drought in the Colorado River Basin. And it's about how 
rainfall in this part of the country may further decline by another 10 
to 20 percent annually, placing further stress on our water supply. 
According to one of the authors of the study, governments ``need to 
plan for this right now, coming up with new, well-informed and fair 
deals for allocation of declining water resources.''
    Today's hearing is about water quality and contamination, but what 
we have to remember is that water quality is a critical part of our 
water supply. The quality of the water we pump from our wells is every 
bit as important as the quantity that we pump.
    If we lose hundreds of wells in California because of chemical 
contamination that can never be cleaned up, that's really no different 
than if we lost 10 or 20 percent of our water supply to a drought 
brought on by climate change. Water quality and water quantity are both 
critical to the future sustainability of the water supplies.
    According to the California Department of Health Services, as of 
last month, perchlorate had been detected at or above the reporting 
level of 4 parts per billion in 456 sources of drinking water, out of 
more than 7,000 sources tested in California since 1997. Roughly 100 
water systems have been affected.
    <bullet>  Los Angeles county reported 177 sources of drinking water 
contaminated with perchlorate, with a peak level of 159 parts per 
billion.
    <bullet>  San Bernardino County reported 95 sources with a peak 
level of 820 parts per billion.
    <bullet>  Riverside County reported 84 contaminated sources with a 
peak level of 73 parts per billion, and
    <bullet>  Orange County found 37 sources with a peak level of 11 
parts per billion.
    Several of the Regional Water Quality Control Boards have informed 
the state of additional locations of perchlorate in groundwater that 
are not currently associated with contamination of public drinking 
water supplies. Some of these sites have very high levels of 
perchlorate and may present a threat to existing and future water 
supplies.
    California pumps roughly 30% of its drinking water from groundwater 
sources, and by any measure, further groundwater contamination could 
significantly degrade water quality and worsen scarcity problems in the 
region.
    Our witnesses this morning include officials from many of the major 
water supply agencies in Southern California. I will be asking each of 
you:
    <bullet>  Do you believe your agency is prepared for any further 
loss of water supply, whether it is from chemical contamination or from 
climate change and drought?
    <bullet>  Do your consider the current water supply for your 
service area to be sustainable?
                                 ______
                                 

STATEMENT OF THE HON. HILDA SOLIS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Solis. Thank you. Good morning, and thank you, Madam 
Chair, for hosting this hearing. I want to thank the witnesses 
for being here as well today.
    Considering what's going on, not even a week ago the New 
York Times wrote about the importance in growth of western 
water projects. The article titled, ``An Arid West no Longer 
Waits For Rain,'' highlighted the pressures on our water 
supplies by the realities of population growth, politics, and 
the decrease in water availability from the Colorado River. The 
article noted long-term projections that mountain snows, which 
feed the Colorado River, will melt faster and evaporate in 
greater amounts as global temperatures rise.
    As evidence of this, the spring run-off for this year is 
expected to be about half of its long-term average. The run-off 
has only been above average in one of the last seven years. And 
just this past Friday the international panel on climate change 
released its second in a series of reports which looks at 
global and regional impacts of global warming. The report found 
that water resources in the western part of Northern America 
will decrease as there will be less snow pack in the mountains 
and summer river flows will decline. And a report published 
last Thursday in the Journal of Science predicted that the 
driest periods of the last century, the dust bowl, may become 
the norm in the southwest within decades because of global 
warming.
    Concerns about the impact of global warming on our water 
supply compounds the problem we're discussing today, 
contamination also existing in groundwater supplies. And I'm 
proud, through my position on the select committee on energy 
and dependance and global warming, that we'll be able to focus 
on sustainability of water as well. And for many of our 
communities, the limited amount of available groundwater is 
further complicated by contamination from perchlorate, mining 
operations, volatile, organic compounds and other various 
contaminates that we find in our groundwater.
    The district that I represent is home to the first 
perchlorate treatment facility located or known as the Baldwin 
Park Operable Unit. And while the hearing today is not about 
the source of contamination, it is known that 90 percent of 
perchlorate is produced by Department of Defense and NASA. 
There are at least 1,090 contaminated military sites in 
California alone that need to be cleaned up. The California 
Department of Health Services has estimated that perchlorate 
has contaminated well over 276 drinking wells, 77 drinking 
water systems in California alone. The ultimate price for our 
communities is a price of taking these wells off line.
    This is why I've introduced H.R. 1747, the ``Safe Drinking 
Water For Healthy Communities Act of 2007''. This bipartisan 
bill requires that the EPA establish a national primary 
drinking water standard for perchlorate. I strongly believe 
that without Congressional action, the EPA will continue to 
delay to set a standard, largely because of the role they play 
as a primary polluter. That includes the Department of Defense. 
And by establishing a standard, we create security for our 
water providers at a rate that is more reasonable as a viable 
enforcement mechanism and knowledge that the task is safe. The 
enforcement and remediation mechanism will help protect 
groundwater supplies for future generations. No longer will 
identifiable polluters such as the Department of Defense be 
able to refuse to clean up contamination on installations which 
pollute our aquifers.
    I also believe that we must work with our water providers 
to ensure that drinking water infrastructures are sustainable; 
and the Federal investment is also inadequate. And I'm proud 
that the Environment and Hazardous Materials Subcommittee, 
which I sit on as Vice Chair, will be holding a hearing on 
perchlorate in Washington, D.C. specifically regarding this 
legislation later on in this month.
    In addition to focusing on sustainability, we must ensure 
that our most vulnerable communities, including minorities, 
communities of color, and underserved and low income, have the 
greatest threats removed from them. Environmental justice 
communities are more likely to struggle to get action taken 
when a problem with their water supply exists and less likely 
to receive assurances that there will be a long-term solution. 
Legislation I recently introduced also, H.R. 1103, the 
``Environmental Justice Act of 2007'', will also help us 
address this important issue. By codifying President Clinton's 
executive order on environmental justice, we're ensuring that 
communities without a voice will be heard. And as one of our 
speakers here today, Penny Newman, I want to thank you for 
being here and hope to hear more of your testimony today.
    With that, I yield back to Madam Chair.
    [The prepared statement of Hon. Hilda Solis follows:]

Statement of The Honorable Hilda L. Solis, a Representative in Congress 
                      from the State of California

    Good morning.
    Thank you to our witnesses for joining us today.
    Today is the beginning of a very important discussion about tile 
sustainability of western water supplies.
    Not even a week ago the New York Times wrote about the importance 
and growth of western water projects.
    The article, titled ``An Arid West No Longer Waits for Rain,'' 
highlighted the pressures on our water supplies by the realities of 
population growth, politics and the decrease in water available from 
the Colorado River.
    The article also noted long-term projections that mountain snows 
which feed the Colorado will melt faster and evaporate in greater 
amounts as global temperatures rise.
    As evidence of this, the spring runoff for this year is expected to 
be about half its long-term average. The runoff has only been above 
average in 1 of the last 7 years.
    Just this past Friday the International Panel on Climate Change 
(IPCC) released its second in a series of reports which looks at global 
and regional impacts of global warming.
    This report found that water resources in the western part of North 
American will decrease as there will be less snowpack in 3 the 
mountains and summer river flows will decline.
    And a report published last Thursday in the journal Science 
predicted that the driest periods of the last century--the Dust Bowl--
may become the norm in the Southwest within decades because of global 
warming.
    Concerns about the impacts of global warming on our water supply 
compound the problem we are discussing today contamination of existing 
groundwater supplies.
    I am proud that through my position on the/ Select Committee on 
Energy Independence lb and Global Warming we will be able to focus on 
sustainability of water.
    For many of our communities, the limited amount of available 
groundwater is further complicated by contamination from perchlorate, 
mining operations, volatile organic compounds, and other contaminants.
    Tile district I represent is home to tile first perchlorate 
treatment facility, located/at the Baldwin Park operable units.
    While the hearing today is not about the source of the 
contamination, it is known that 90% of perchlorate is produced for use 
by the Defense Department and NASA.
    There are at least 1,090 contaminated military sites in California 
alone that need to be cleaned up.
    The California Department of Health Services has estimated that 
perchlorate has contaminated 276 drinking water sources and 77 drinking 
water systems in California alone.
    The ultimate price for communities to pay is the ``price'' of 
taking wells offline.
    We must work together to ensure that our communities have access to 
clean groundwater and safe drinking water. This is why I introduced 
H.R. 1747, the Safe Drinking Water for Healthy Communities Act of 2007.
    This bipartisan bill requires the EPA to establish a national 
primary drinking water standard for perchlorate.
    I strongly believe that without Congressional action the EPA will 
continue to delay movement to set a standard, largely because of the 
role of the primary polluter--the Department of Defense.
    By establishing a standard, we create security for our water 
providers and rate payers, a viable enforcement mechanism, and the 
knowledge that the tap is safe.
    This enforcement and remediation mechanism will also help protect 
groundwater supplies.
    No longer will identifiable polluters, such as the Department of 
Defense, be able to refuse to clean up contamination on an installation 
which pollutes our aquifers.
    I also believe that we must work with our water providers to ensure 
that drinking water infrastructure is sustainable and the federal 
investment is adequate.
    I am proud that the Environment and Hazardous Materials 
Subcommittee, which I am Vice Chair of, will be holding a hearing on 
perchlorate, specifically my legislation, when we return to Washington 
at the end of April.
    In addition to focusing on its sustainability, we must also ensure 
that our most vulnerable communities, including minorities and low-
income, have access to safe water.
    These communities and others like them, face even greater threats.
    Environmental justice communities are more likely to struggle to 
get action taken when a problem with their water supply exists and less 
likely to receive assurance that there will be a long-term solution.
    Legislation I introduced, H.R. 1103--the Environmental Justice Act 
of 2007, will help address this issue.
    By codifying the Executive Order on Environmental Justice, we are 
ensuring that communities without a voice are heard.
    As Penny Newman will testify today, access to safe and clean water 
is an environmental justice issue.
    For the sake of our communities, for their health and their 
security, we must focus our attention on the sustainability of our 
water supplies.
    I look forward to working with my colleagues on this Subcommittee, 
the Energy and Commerce Committee, and the Select Committee to bring a 
renewed attention to sustainable water supplies and move forward in the 
search for a solution which will benefit all.
    Thank you and I yield back the balance of my time.
                                 ______
                                 
    Mrs. Napolitano. Good, because you're over. Thank you so 
very much. I would like to take your statement and put it into 
the record, if you don't mind.
    Congressman Joe Baca.

   STATEMENT OF THE HON. JOE BACA, SR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Baca of California. Thank you very much, Madam Chair. 
First of all, I want to thank you for your leadership and 
concerted effort and for having the field hearing here on the 
sustainable water supply for the west and protecting the 
groundwater resources. We feel it's very important to our 
region and the State of California. Not only is it important to 
the State of California, but we've addressed this for some 
particular time, but your leadership is so important to a lot 
of us. I want to thank my colleague Hilda Solis for also being 
here. And here today I want to thank the witnesses for joining 
us here today as well.
    I understand the panel is associated with perchlorate 
contamination in groundwater. I live with my family in the very 
city, Rialto, that has one of the highest levels of 
contamination. And the Inland Empire and Southern California 
has suffered tremendously due to perchlorate. And we're not 
here to say, you know, what's caused it or who has caused it. 
We know that we're looking for a study that has been conducted 
and hopefully that the study will come out and determine who 
actually has caused the problem and look toward solutions. We 
need to make sure the water supply is safe and secure and at 
affordable costs because we owe it to our residents to make 
sure we provide quality water.
    Perchlorate has jeopardized the water supply of nearly 
500,000 residents. The health dangers associated with 
contaminated waters are enough reasons to fix the problem. 
There has been traces of perchlorate in milk and in breast 
milk. Newborn infants are put at dangers and at risks. And I'm 
very fortunate because my kids, two of my children were born in 
Rialto, and very fortunate that they didn't have any of the 
risks associated with thyroid glands or the fetus, my wife 
during that period of time. But who knows? It could have 
affected my children and others who live in the area.
    We need a solution. Cities, counties, private water 
providers have no choice but to provide customers with clean 
water to drink. There is a legal and moral obligation to 
provide safe and healthy water. To date, these obligations are 
in jeopardy. There is a greater cost. Perchlorate clean-up is 
tremendously expensive, costing over 450,000 per acre per foot 
of water. The economic cost of this area is almost as much of a 
concern as availability of clean water. The City of Rialto has 
a population of over 95,000 people in the area of 26,000 square 
footage with a potential of ten to 20,000 more people over the 
next five to ten years. So if you can look at it, even my city 
with the possibility of growing in the need there--It is in the 
heart of one of the fastest growing areas in the country.
    Seventy-six percent of the population in this area are 
minorities and have an average income of $43,600. This means 
that increasing the consumer rate is not a practical option for 
water agencies of the Inland Empire. The hard working families 
in the area are not at fault, and I say they're not at fault, 
and should not have to pay for a Federally created problem. I 
state a Federally created problem, or a problem that no one 
takes the responsibility for. And someone has to take the 
responsibility for it.
    For most of the accounts, 90 percent of perchlorate in 
water comes from a Federal source. This includes the DOD, NASA, 
and other Federal agencies. They have to live up to it. This 
has been a huge problem and will require a huge solution. I am 
grateful that Chairwoman Grace F. Napolitano is conducting this 
field hearing, and I look forward to working toward a viable 
solution for a viable problem, and I'm grateful that the 
Chairwoman is taking positive steps toward a solution. I look 
forward to working with her.
    I yield back to you.
    Mrs. Napolitano. Thank you. We try to stay to the five 
minutes simply because we have so much testimony coming before 
us. And Congressman Baca really stresses the fact that the 
Federal, defense and others have created a lot of the problems. 
The problem now is that they don't want to pay for it, simply. 
Because we have been battling for over 15 years to get them to 
clean it up, and this is not perchlorate, this is VOC's.
    So understand that it's going to be a long haul, but we 
need everybody's participation and input to make sure that 
everyone understands the responsibility to the electorate, to 
the citizens of being able to clean up the mess they made, 
especially the PRP's, in conjunction with the PRP's, potential 
responsible parties. Thank you so much. I want to state that 
H.R. 1747, Ms. Solis's bill, there should be some copies in the 
back. We'll try to give you some websites so you can pick up 
any additional information that we're talking about today and 
be able to access that.
    To the witnesses in panel one, your statements will be 
entered into the record, and all witnesses are asked to 
summarize the high points of your testimony and limit your 
remarks to five minutes. That way you can--it will go into the 
record and you can then summarize and add to points that you 
may have wanted to ensure that we make statements. The reminder 
is right here. It's--you have your own, right? The red is stop; 
the yellow is wrap it up; and the red--I mean the green, start 
up. So with that, I want to thank you for being here, and we 
will proceed to start with Mr. Joe Baca, Jr., and have him, the 
councilman from City of Rialto, start off the panel.

             STATEMENT OF THE HON. JOE BACA, JR., 
             COUNCILMAN, CITY OF RIALTO, CALIFORNIA

    Mr. Baca. Thank you, Madam Chair and members for holding 
this hearing. I'm here as councilman but I'm also here as a 
resident for the City of Rialto. I'm a lifelong resident of 
Rialto who is concerned about the groundwater contamination, 
how it impacts our local residents both financial and personal 
well-being. Since I grew up and live in Rialto, I have a 
personal connection to this issue.
    The perchlorate contamination case in Rialto is not the 
first of its kind. There was a previous case in the San Gabriel 
Valley that provided a model for the Inland Empire. In 1992 a 
coalition of cities and water agencies came together as a 
coalition to push for Senate Bill 1679. This legislation 
developed the San Gabriel Basin Water Quality authority. It was 
an important step in cleaning up hazardous substances found in 
their groundwater. What was the key issue about the 
legislation? That a collaborative solution came about to their 
partnership. It was not about different agencies searching for 
their own solution; rather it was about what was best for the 
region and best for the residents.
    That is the hope that I have for the Rialto and Inland 
regions. It is my hope that our cities and agencies follow 
their lead in addressing the perchlorate plume in the 
groundwater.
    As a former chair of the State Assembly Select Committee on 
perchlorate contamination, my focus has always been on tackling 
the complex issues with perchlorate contamination of our 
groundwater. I proposed developing standards to safely handle 
the disposal of products containing perchlorate, charging a fee 
to those companies who develop products with perchlorate in 
order to fund perchlorate cleanup; and to use the state general 
fund to assist with perchlorate contamination cleanup. This 
legislation was a direct result of collaboration among cities, 
water agencies, and grassroots organizations like Center for 
Community Action and Environmental Justice and Libreria del 
Pueblo.
    However, my advocacy did not stop at legislation. After 
researching perchlorate contamination, I was surprised to learn 
that perchlorate products were being sold through E-Bay. I 
became concerned that the public had free access to perchlorate 
without knowing how it was properly being disposed. In a letter 
to E-Bay North American President William Cobb, I asked the 
cyber-giant to stop selling perchlorate on its online market. 
After a few months, perchlorate was removed.
    My efforts were preceded by Senator Nell Soto who also put 
much of her focus on perchlorate contamination. In 2003, 
Senator Nell Soto, the Chair of the Senate Select Committee on 
Perchlorate Contamination authored Senate Bill 922. The 
legislation forced water quality control boards to enforce 
cleanup and abatement if there are findings of drinking water 
contamination. It was not until recently that we learned about 
the effects of human consumption of perchlorate. Recent studies 
have shown that perchlorate interferes with absorption of 
iodine. The thyroid gland needs iodine to make hormones such as 
thyroxine that controls the metabolism in people and guide 
nerve and brain development in fetuses and babies.
    That is why the City of Rialto has taken a zero tolerance 
policy on perchlorate contamination and have assessed a 
perchlorate fee through the monthly water bill to assure that 
drinking water does not have any detectable levels of 
perchlorate, which, according to our current technology, is 
less than four parts per billion. They also have done so with 
the promise that residents will be reimbursed in the future.
    While Rialto residents are enjoying safe drinking water, 
they are doing so because they have personally financed the 
cleanup of our contaminated wells. We need to find solutions 
that allow cleanup of groundwater contamination in a timely 
manner. The monthly $6.85 perchlorate fee, in addition to the 
formula for big water users, is an added financial burden to 
Rialto residents. Rialto residents are largely low income with 
a median family income in the City of Rialto being $42,638. 
They are barely making it through these difficult financial 
times. They are struggling to meet the high cost of living that 
has already been brought on by housing, utilities, and fuel.
    Our residents depend on doing the right thing. We have to 
draw a table of similar objectives with other agencies and 
cities in order to obtain our ultimate goal. We cannot lose 
sight of our main objective to offer quality drinking water to 
our residents.
    We must also look toward the future to assure our water 
supply is not threatened. There's a lot of work ahead of us, 
and as residents, we look forward to working with the Federal 
Government and elected officials to make sure we have the 
assistance we need. Thank you.
    [The prepared statement of Joe Baca, Jr. follows:]

                Statement of Joe Baca, Jr., Councilman, 
                       City of Rialto, California

    I am a lifelong resident of Rialto who is concerned about the 
groundwater contamination and how it impacts our local residents both 
financially and their personal well being. Since I grew up and live in 
Rialto, I have a personal connection to this issue.
    The perchlorate contamination case in Rialto is not the first of 
its kind. There was a previous case in the San Gabriel Valley that 
provided a model for the Inland Empire. In 1992, a coalition of cities 
and water agencies came together as a coalition to push for Senate Bill 
1679. This legislation developed the San Gabriel Basin Water Quality 
Authority. It was an important step in cleaning up the hazardous 
substances found in their groundwater. What was key about the 
legislation is that a collaborative solution came out of their 
partnership. It was not about different agencies searching their own 
solution; rather, it was about what was best for the region and its 
residents.
    That is the hope that I have for Rialto and the Inland region. It 
is my hope that our cities and agencies follow their lead in addressing 
the perchlorate plume in our groundwater.
    As the former chair of the State Assembly Select Committee on 
Perchlorate Contamination, my focus has always been on tackling the 
complex issues with perchlorate contamination of our groundwater. I 
proposed developing standards to safely handle the disposal of products 
containing perchlorate; charging a fee to those companies who develop 
products with perchlorate in order to fund perchlorate cleanup; and to 
use the State General Fund to assist with the Perchlorate contamination 
cleanup. This legislation was a direct result of collaboration among 
cities, water agencies, and grassroots organizations, like the Center 
for Community Action and Environmental Justice and Libreria del Pueblo.
    However, my advocacy did not stop at legislation. After researching 
perchlorate contamination, I was surprised to learn that perchlorate 
products were being sold through E-Bay. I became concerned that the 
public had free access to perchlorate without knowing how to properly 
dispose of it. In a letter to eBay North America President William 
Cobb, I asked the cyber giant to stop selling perchlorate on its online 
market. After a few months, perchlorate was removed.
    My efforts were preceded by Senator Nell Soto who also put much of 
her focus on perchlorate contamination. In 2003, Senator Nell Soto, the 
chair of the Senate Select Committee on Perchlorate Contamination, 
authored Senate Bill 922. The legislation forced water quality control 
boards to enforce clean up and abatement if there are findings of 
drinking water contamination.
    It was not until recently that we learned about the affects of 
human consumption of perchlorate. Recent studies have shown that 
perchlorate interferes with absorption of iodine. The thyroid gland 
needs iodine to make hormones such as thyroxine that controls 
metabolism in all people and guide nerve and brain development in 
fetuses and babies.
    That is why the City of Rialto has taken a ``zero tolerance'' 
policy on perchlorate contamination and have a assessed a perchlorate 
fee through the monthly water bill to assure drinking water does not 
have any detectable levels of perchlorate, which, according to our 
current technology, is less than 4 ppb. They have done so with the 
promise that we will be reimbursed in the future.
    While Rialto residents are enjoying safe drinking water, they are 
doing so because they have personally financed the clean up of our 
contaminated wells. We need to find solutions that will allow us to 
cleanup our groundwater contamination in a timely manner. The monthly 
$6.85 perchlorate flat fee, in addition to the formula for big water 
users, is an added financial burden for Rialto residents. Rialto 
residents are largely low-income with the median family income in the 
City of Rialto being $42,638. They are barely making it through these 
difficult financial times. They are struggling to meet the high cost of 
living that has already been brought on by the housing, utilities, and 
fuel.
    Our residents depend on us to doing the right thing. We have to be 
able to draw upon similar objectives with other agencies and cities in 
order to obtain our ultimate goal. We cannot lose sight of our main 
objective to offer quality drinking water to our residents. We must 
also look towards the future to assure our water supply is not 
threatened.
    There is a lot of work ahead of us. As residents, we look to our 
federal government and its elected officials for assistance.
                                 ______
                                 
    Mrs. Napolitano. Thank you so very much. We appreciate 
that. It goes into the record.
    Next we have Celeste Cantu, Associate Director, Santa Ana 
Water Project Authority, Riverside. Thank you very much, Ma'am.

STATEMENT OF CELESTE CANTU, ASSOCIATE DIRECTOR, SANTA ANA WATER 
            PROJECT AUTHORITY, RIVERSIDE, CALIFORNIA

    Ms. Cantu. Good morning, Chairwoman Napolitano and members 
of the Subcommittee. I appreciate the opportunity to appear 
before you today and discuss the effects of perchlorate 
contamination on groundwater supply in the Inland Empire.
    Before I start with my prepared remarks, I would like to 
underscore, each of you mentioned significant threats to water 
quality in California and Western United States. We call them 
the four horsemen of the Apocalypse, and they are drought of 
the Colorado River; vulnerability on the Delta, the San Joaquin 
Delta, inability to deliver imported water to this area; 
climate change; and our own growth. And the question isn't that 
we grow--we will grow, but the question is how we grow. Are we 
going to grow in a way that interrupts the hydrology on our 
land where we rely on groundwater so significantly, or are we 
going to pave over paradise and render a situation where we 
don't want our children to even want to live in this area? We 
can change with good decisions today.
    In preparation of the four horsemen of the Apocalypse--who 
are coming. The clippety-clops, we hear them daily. They will 
arrive. The question is will we be prepared for them? SAWPA has 
convened approximately 250 people, all passionate experts in 
all aspects of water throughout this entire watershed, to start 
planning to make sure we're ready with their eventual arrival. 
We see them and we can hear them and we can see them coming at 
this point.
    In the semi-arid environment of the Santa Ana watershed, 
groundwater is a major source of the public's drinking water 
supply. This is especially true in the Inland Empire, Riverside 
and San Bernardino counties. Thus, any contamination of this 
limited and precious resource is cause for concern. Perchlorate 
has emerged in this watershed as a significant issue.
    Perchlorate salts are highly soluble and, when applied to 
soil, such as the application of fertilizer or waste material 
left from the use of manufactured chemicals, will readily 
dissolve and move through the soil to the groundwater. Prior to 
1997, perchlorate had not been detected in low concentrations 
in groundwater anywhere in the United States. This is because 
the analytical method did not exist to detect perchlorate at 
extremely low concentration. And it was not even known to be a 
common contaminant. However, in 1997, laboratory analytical 
methods were developed to allow detection at concentrations as 
low as 4 micrograms per liter in water. In 2004, the California 
Office of Environmental Health Hazard Assessment established a 
public health goal of 6 micrograms per liter of perchlorate in 
drinking water.
    The most common practice for removing contaminants from 
groundwater involves removal of the groundwater by pumping 
wells and treating the water at the well head. In 1997 when 
perchlorate was first determined to be present in groundwater, 
a viable treatment method for removing low concentrations in 
groundwater did not exist. Since that time, specialized polymer 
resins have been developed for the removal of low 
concentrations by a process called ion exchange. However, the 
capital and operation and maintenance costs of these ion 
exchange systems are very expensive.
    Perchlorate has been detected in about 175 municipal 
drinking wells in San Bernardino, Riverside, and Orange 
Counties. About 145 of these wells are in the Inland Empire and 
the remainder are in Orange County. About 50 percent of the 
municipal wells in the entire state that have detected 
perchlorate are in these three counties. Most of the detections 
throughout the state are very low concentrations, but over 80 
percent of the wells in the Inland Empire and Orange County 
with detectable levels of perchlorate are below 9 micrograms 
per liter, and most of those are below 6.
    All the wells are located in historic citrus areas; 
therefore, it is likely that most of these wells contain 
perchlorate from historic use of Chilean nitrate and also 
industrial users. However, in the Redlands and Rialto areas, 
where the highest concentration of perchlorate has been 
detected, industrial operations have been identified as the 
source. The California Regional Water Quality Control Board 
Santa Ana Region has been the lead agency in addressing 
perchlorate problems in these areas.
    In 2002, four water purveyors in the Rialto area shut down 
waters containing perchlorate, ultimately ceasing or limiting 
the use of 22 wells. This created a potential water supply 
shortage situation. The Regional Water Board pursued various 
mechanisms to attain money to assist the four water purveyors 
with funding for well head treatment. Approximately $10 million 
has been provided to the water purveyors. Currently, ten of the 
22 impacted wells have well head treatment. These efforts, 
while significant, are far less than what is needed to address 
the overall anticipated need for cleanup of perchlorate in the 
Rialto area.
    It is evident that there are two perchlorate groundwater 
plumes in the Rialto area. Multi-port groundwater monitoring 
wells have been installed, and extensive soil evaluations have 
been conducted, five deep multi-level groundwater monitoring 
wells up to 3 miles downgradient from the site. What we know is 
of all the water consumed in this area, 66 percent of it is 
from groundwater, and that is the groundwater that is being 
contaminated.
    We currently have a strategy of well head treatment, and it 
is being addressed and is being treated. And at the current 
level of 6 micrograms per liter, that well water can be treated 
and blended and safely delivered for potable use. Groundwater 
supplies, along with the current level of surface water 
imports, provide the quality and quantity needed to meet 
current water demands. But should any of the major water 
sources be significantly reduced, such as the arrival of the 
four horseman of the Apocalypse, be it imported water or 
groundwater, or should a level of acceptable concentrations be 
reduced, costs of treatment would be increased, making water 
expensive, and supplies would be curtailed.
    Mrs. Napolitano. You need to wrap up, ma'am.
    Ms. Cantu. The legacy for perchlorate contamination is for 
those that do not have any responsible parties. Where we do 
have responsible parties, we need to pursue them aggressively. 
Where we don't have responsible parties in terms of groundwater 
contamination because of fertilizer, we need to look at 
alternative sources for remediation.
    Thank you.
    [The prepared statement of Celeste Cantu follows:]

             Statement of Celeste Cantu, General Manager, 
                 Santa Ana Watershed Project Authority

    Chairwoman Napolitano and members of the Subcommittee, I appreciate 
the opportunity to appear before you today to discuss the affects of 
perchlorate contamination on groundwater supply in the Inland Empire.
    In the semi-arid environment of the Santa Ana Watershed, 
groundwater is a major source of the public's drinking water supply. 
This is especially true in the Inland Empire area of Riverside and San 
Bernardino Counties. Thus, any contamination of this limited and 
precious resource is cause for concern. Perchlorate has emerged in this 
watershed as a significant issue.
    Perchlorate salts are highly soluble and, when applied to soil 
(such as the application of fertilizer and waste material left over 
from the use of manufactured chemicals), will readily dissolve and move 
through the soil to the groundwater. Prior to 1997, perchlorate had not 
been detected in low concentrations in groundwater anywhere in the 
United States. This is because an analytical method did not exist to 
detect perchlorate at extremely low concentrations, and it was not 
known to be a common contaminant. However, in 1997, laboratory 
analytical methods were developed to allow detection of perchlorate at 
concentrations as low as 4 micrograms per liter (mg/l, or parts per 
billion) in water. In 2004, the California Office of Environmental 
Health Hazard Assessment established a public health goal of 6 ``g/l 
for perchlorate in drinking water. As a result, the California 
Department of Health Services is now proposing a drinking water Maximum 
Contaminant Level (an enforceable regulatory standard) of 6 ``g/l for 
perchlorate.
    The most common practice for removing contaminants from groundwater 
involves the removal of the groundwater by pumping wells, and treating 
the water at the wellhead. However, in 1997, when perchlorate was first 
determined to be present at low concentrations in groundwater, a viable 
treatment method for removing low concentrations of perchlorate in 
groundwater did not exist. Since that time, specialized polymer resins 
have been developed for the removal of low concentrations of 
perchlorate by a process called ion exchange. However, the capital and 
operation and maintenance costs for these ion exchange systems are very 
expensive.
Occurrence in groundwater
    Since 1997, perchlorate has been detected in about 175 municipal 
drinking water wells in San Bernardino, Riverside and Orange Counties. 
About 145 of these wells are in the Inland Empire, and the remainder is 
in Orange County. About 50% of the municipal wells in the entire State 
that have detected perchlorate are in these three counties. Most of the 
detections throughout the State are in very low concentrations. Over 
80% of the wells in the Inland Empire and Orange County with detectable 
levels of perchlorate are below 9 ``g/l, and most of those are below 6 
``g/l. All the wells are located in historical citrus areas. Therefore, 
it is likely that most of these wells contain perchlorate from the 
historical use of Chilean nitrate. However, in the Redlands and Rialto 
areas, where the highest concentrations of perchlorate have been 
detected, industrial operations have been identified as the source. The 
California Regional Water Quality Control Board, Santa Ana Region, has 
been the lead agency addressing perchlorate problems in these two areas
Rialto
    In 2002, four water purveyors in the Rialto area shut down wells 
containing perchlorate, ultimately ceasing or limiting the use of 22 
wells. This created a potential water supply shortage situation. The 
Regional Water Board pursued various mechanisms to obtain money to 
assist the four water purveyors with funding for wellhead treatment. 
Approximately $10,135,000 has been provided to the water purveyors. 
Currently, 10 of the 22 impacted wells have wellhead treatment. These 
efforts, while significant, are far less than what will be needed to 
address the overall anticipated needs for cleanup of perchlorate in the 
Rialto area.
    It is evident that there are two perchlorate groundwater plumes in 
the Rialto area. Multi-port groundwater monitoring wells have been 
installed, and extensive soil investigations have been conducted. Five 
deep multi-level groundwater monitoring wells up to three miles 
downgradient from the site
Conclusion
    While currently the contamination is costly, it is being addressed, 
and treated. At the current levels of 6 micrograms per liter, well 
water can be blended and safely delivered for potable use. Groundwater 
supplies along with current level of surface water imports provide the 
quantity and quality needed to meet water demands at the current and 
anticipated population levels. But should anyone of the major water 
sources be significantly reduced, be it imported water or groundwater 
or should be level of acceptable concentrations be reduced, costs of 
treatment would be increased, making water expensive and supplies could 
be curtailed.
    Chairwoman Napolitano and members of the Subcommittee, I appreciate 
your interest in the long term sustainability of the water supply in 
this rapidly growing and developing watershed.
    Thank you
    [NOTE: A map attached to Ms. Cantu's statement has been retained in 
the Committee's official files.]
                                 ______
                                 
    Mrs. Napolitano. Thank you, ma'am. Try to stay within the 
five minutes, please, because we want to be sure everybody has 
an opportunity to make their presentation.
    Mr. Robert DeLoach, General Manager, Chief Executive Office 
of Cucamonga Water District in Rancho Cucamonga. Welcome, sir.

 STATEMENT OF ROBERT DeLOACH, GENERAL MANAGER, CHIEF EXECUTIVE 
  OFFICER, CUCAMONGA VALLEY WATER DISTRICT, RANCHO CUCAMONGA, 
                           CALIFORNIA

    Mr. Deloach. Thank you, Madam Chair and members of the 
Subcommittee. In addition to representing the Cucamonga Valley 
Water District, I'm also here on behalf of the Chino Basin 
Watermaster in the capacity as Chairman of the Water Quality 
Committee. In that capacity as well as my agency, we rely on 
groundwater to meet our essential drinking water needs. The 
Chino basin alone is one of the largest and most critical 
groundwater aquifers in the Santa Ana watershed, if not the 
entire state.
    Throughout all of Southern California, there is tremendous 
pressure on local groundwater producers to maximize the use of 
groundwater supplies which, in virtually every case, is the 
cost effective alternative to costly imported water deliveries. 
To give you the sense of the magnitude of the demand within the 
Chino basin, this past year alone, basin producers for 
municipal drinking water purposes produced over 124,000 acre 
feet. Agriculture and industrial use consumed in excess of 
35,000 acre feet as well. However, as groundwater producers, 
we're beginning to feel like we're being squeezed on three 
sides by the Federal Government.
    First, most of our groundwater supply is being threatened 
by perchlorate and other VOC contamination, much of which is 
the direct result of some Federal action or policy. Second, our 
imported water supplies are being reduced as a result of 
different actions either resulting from restrictions on the 
Colorado River or through the State Water Project in CalFed. 
And last, as this committee is all too familiar with, 
particularly Chairwoman Napolitano, the U.S. Department of 
Interior is severely limiting funding through Title 16 programs 
for our recycled water projects. Recycled water is a critical 
component of supplementing or augmenting our local groundwater 
supplies. Over the past five years, local water producers in 
the Chino basin have invested over $95 million to develop 
recycled water infrastructure which can now treat and 
distribute over 8,000 acre feet of recycled water and 
throughout the basin.
    With all that being said, reductions in recycled water 
funding, the cost effectiveness and availability of imported 
water supplies, the focus of your subcommittee hearing today, 
that I'm sure the effects of perchlorate in DOC contamination 
in local groundwater supplies, the extent of the perchlorate 
problem contaminating much of our groundwater supplies, then 
the watershed is staggering with almost 500,000 acre feet of 
water contaminated or impacted. In the Chino basin alone, 39 
out of 115 groundwater production wells have detectable limits 
of perchlorate with more than one in three exceeding the 
California--State of California's action level.
    There are several agencies within the Chino basin region as 
well as others throughout the entire watershed that do not have 
access to alternate sources of water such as imported water 
supplies due to either the physical characteristics of their 
system or because of the extreme costs associated with doing 
that. In the case of the City of Rialto, I think it's already 
been mentioned, they've lost up to 9,000 gallons a minute per 
day of groundwater production and they have no alternate source 
such as imported water.
    The committee will undoubtedly hear from others today 
describing the options available for treatment, the costs 
associated with that, all of which are extremely costly and in 
some cases cost prohibitive, and cannot be borne on the backs 
of local rate payers. In a report produced by SAWPA a couple of 
years ago that indicated the treatment cost within the 
watershed associated with perchlorate and other VOC 
contamination ranged from $300 million to $1 billion.
    At this point, I believe it's important to make a 
distinction of the type of perchlorate we found within the 
Chino basin. Until recently, we pointed our collective fingers 
almost exclusively at the Department of Defense and other 
aerospace-related industries as the culprit. And to be sure, it 
appears that the lion's share of the perchlorate and the VOC 
contamination throughout the watershed is, in fact, related to 
some DOD legacy. However, in the past several years in the 
Chino basin, we've been able to use isotope testing technology 
that conducts, if you will, DNA mapping of perchlorate. And by 
doing so, we've identified another source than just the Chilean 
fertilizer which is imported literally by the boatloads for 
cheap nitrate fertilizer for the citrus crops of our region.
    Irrespective of the source, the treatment and methodology 
and the costs associated with treatment, the cleanup remains 
the same; very costly. Madam Chair, convening this hearing is 
another step encouraging awareness of the magnitude of the 
problem facing groundwater producers, and the assistance we 
need to assure that our groundwater resources are maintained 
and secure for future generations. In the past, our agency, as 
well as members of these two committees convening here today, 
have supported this subcommittee on a variety of bills related 
to perchlorate cleanup such as Congressman Baca's H.R. 4606 
just a couple of years ago. We're encouraged that you have 
chosen to tackle this difficult important issue, and we applaud 
you for doing so.
    Thank you for allowing me to speak before you today.
    [The prepared statement of Robert DeLoach follows:]

            Statement of Robert A. DeLoach, General Manager/
        Chief Executive Officer, Cucamonga Valley Water District

Introduction
    Chairman Napolitano, Representative Baca and Representative Solis. 
My name is Robert DeLoach. I am the General Manager/CEO of the 
Cucamonga Valley Water District, (CVWD). Our District is retail water 
and sewer agency located in Rancho Cucamonga, California, serving a 
population of approximately 175,000 people in the western portion of 
San Bernardino County within the Santa Ana Watershed.
    Our agency receives approximately 50% of its water supply from the 
State Water Project through the Inland Empire Utilities Agency a member 
agency of the Metropolitan Water District of Southern California (MWD). 
Approximately 40% of our locally developed water supply comes from two 
local groundwater basins and the remaining 10% comes from local 
mountain sources as surface water. Our primary source of groundwater is 
the Chino groundwater basin one of the largest groundwater basins in 
the state covering over 240 square miles. In addition to our agency the 
Chino Basin provides groundwater supplies to the City of Ontario, City 
of Chino, City of Chino Hills, City of Pomona, City of Fontana, City of 
Upland, the Monte Vista water District and the West Valley Water 
District, as well as a variety of industrial and agricultural uses.
    CVWD is the majority shareholder of the Fontana Union Water Company 
and in that capacity we manage an extensive array of groundwater rights 
within the Rialto and Colton Basins as well as the Chino Basin. We also 
have extensive surface water rights within the Lytle Creek region in 
the northern portion of the Santa Ana Watershed.
    Today, I appear before this committee on behalf of the Cucamonga 
Valley Water District, and the Chino Basin Watermaster and on behalf of 
Fontana Union Water Company.
Perchlorate and VOC's and Groundwater Production within the Chino Basin 
        Region
    Throughout the Santa Ana Watershed, which consists of 41 individual 
groundwater basins, 16 have perchlorate or other volatile organic 
compound (VOC) contamination and approximately 30 wells have been shut 
down due to the contamination. Overall it is estimated that some 170 
wells in the watershed are at risk due to perchlorate contamination 
within the various groundwater basins due to Federal activities. 
Approximately 550,000 acre feet may be impacted in the watershed. In 
the Chino Basin alone, where in 2006 groundwater production exceeded 
120,000 acre feet, 39 of the 115 wells, have detectable levels of 
perchlorate. More that one in three exceeds the current State of 
California ``action level'' for perchlorate.
    The incidence of perchlorate in the region and in particular the 
Chino Basin and the Rialto/Colton basins has two primary sources of 
introduction. In most cases we associate the incidence of perchlorate 
in groundwater as emanating from the defense and aerospace related 
industry. The use of perchlorate either as ammonium or potassium 
perchlorate is used in the manufacture of propellant for rockets and 
missiles, and in the manufacture of fireworks or related type uses. 
Nationwide more than 90 percent of all perchlorate manufactured, or 
roughly 20 million pounds per year is purchased by defense and 
aerospace industries. The defense and aerospace industries have 
disposed of perchlorate in various states across the countries since 
the 1950's with many of these states reporting perchlorate 
contamination in their groundwater.
    It is important to note that the primary industry in the Chino 
Basin region dating back to the early 1900's was and remains although 
to a lesser degree, agriculture. With advancements in science and 
technology recent studies indicate that perchlorate may originate from 
natural resources and some types of commonly applied fertilizers that 
contain Chilean Nitrates. The Chino Basin Watermaster has conducted 
isotope testing to determine the ``place of origin'' of the perchlorate 
contamination within the entire groundwater basin. These tests are 
ongoing but sufficient evidence exists that indicates that that both 
synthetic based and fertilizer based perchlorate exists with the basin.
    The existence of perchlorate represents major concerns for local 
water providers in terms of both water supply and cost. Estimates for 
remediation, with the typical ``pump and treat'' technology using Ion 
Exchange range from $1.0-$3.0 million per production well as the 
initial capital investment. The initial capital expenditure while 
staggering does not reflect the operation and maintenance costs which 
can exceed $500,000 per well on an annual basis. It is estimated that 
across the entire Santa Ana Watershed the costs to maintain existing 
well production could range from $300 million to $1.0 billion. It is 
important to note that such an investment would not produce a single 
drop of new water. This is water supply already in production.
    Treatment of perchlorate as already has been noted represents 
tremendous financial impacts to local water providers many of which 
provide water to economical depressed areas. Attempting to recover or 
underwrite these costs on the backs of our local ratepayers is at best 
unreasonable and at worst unacceptable. Even in those instances where 
the perchlorate levels are low enough to be able to treat by blending 
contaminated water with higher quality water the availability and cost 
of the ``blend'' water may be prohibitive. In many instances this 
``blend water'' supply is imported water from the State Water Project 
which has already been treated to drinking water standards approved by 
the California Department of Health which is in most cases the most 
costly supply of available water to local water producers. In the long-
term this practice of using imported water to blend down the 
contamination levels to drinking water standards is problematic as will 
be described below in greater detail.
Federal Policies, Federal Actions Impacting the Region's Groundwater 
        Resource
    At present, imported water supply to the Chino Basin region exceeds 
57,000 acre feet annually. This Santa Ana Watershed region and 
specifically the Chino Basin is one of the fastest growing areas of the 
nation. Today imported water deliveries to all of southern California 
are being reduced through actions of the Federal Government.
    Statewide, annual allocations from the Colorado River have been 
reduced by 800,000 acre feet which heavily impact the Metropolitan 
Water District. Although CVWD does not directly take deliveries of 
Colorado River water, this action by the Federal government places 
added pressure on the Metropolitan Water District and any retail water 
provider who depend on MWD to meet their water supply requirements At 
the same time water supplies from the California State Water Project 
are being reduced or restricted as well due in part through the Federal 
actions and policies associate with the CALFED program.
    The reduction of imported water supplies has placed an added burden 
and reliance on our local groundwater supplies. Agencies throughout the 
Santa Ana Watershed including the Chino Basin are attempting to deal 
with this new reality by developing alternative sources of water supply 
such as recycled water. With an investment of over $95.0 million over 
the past six years agencies within the Chino Basin have developed over 
8,000 acre feet of a new drought proof and reliable source of water. 
This quality is expected to double this next year.
    Despite the obvious economical and water supply benefits of 
recycled water to augment our groundwater supplies we are faced with 
two new realities: first, the U.S. Department of the Interior proposes 
to ``devolve'', or to eliminate the Title XVI water recycling program 
which should be the financial backbone for funding recycled water 
projects. Secondly, much of our groundwater is contaminated through the 
actions of the Federal Government. As already has been stated, over 90% 
of the perchlorate as well as volatile organic compounds (VOC's) in 
groundwater comes from DOD related activities. These actions equate to 
what we describe as the ``Federal squeeze-play''. Imported water is 
being reduced while our groundwater supplies are contaminated.
    In addition to the limitations noted previously on delivery of 
imported water to the region, the ability for retail water providers to 
actually increase their imported water supplies is in many instances 
limited by the physical characteristics of their respective delivery 
systems. In the case of the City of Rialto, five of the City's wells 
are contaminated with perchlorate affecting approximately 9,000 gallons 
per minute (GPM) of flow, and are without an alternative source of 
supply because they do not have a physical connection for imported 
water. Funding a new connection to the imported water system and then 
constructing a treatment plant to treat the water is also cost 
prohibitive for this community. Fontana Water Company which is adjacent 
to the City of Rialto recently constructed a 25 million gallon per day 
treatment plant at a cost exceeding $35.0 million.
The Chino Basin Watermaster and Agency Coalitions Addressing 
        Perchlorate
    The Chino Basin Watermaster manages the groundwater basin pursuant 
to a court ordered judgment for the benefit of groundwater producers 
within the Chino Basin. As previously mentioned the producers consist 
of a three user groups the largest being local municipal producers that 
depend on the Watermaster and the basin to meet the bulk of their 
drinking water requirements. The second largest group is the 
agriculture community which has transitioned from citrus and vineyard 
production and other food product crops to Confined Animal Feeding 
Operations (CAFO's), or dairy cattle. The smallest group consists of 
industrial users who rely on locally produced groundwater for various 
manufacturing and process water requirements.
    Each of these producer groups make up the management structure of 
the Watermaster. Their objective is to ensure that each producer is 
able to produce both the quantity and quality of water to meet the 
water supply needs to the greatest extent possible from the basin. In 
so doing the Watermaster produced a management plan entitled the 
Optimum Basin Management Plan or OBMP.
    The OBMP contains several program elements the first being the 
requirement to develop a comprehensive monitoring plan for the basin 
including monitoring of groundwater quality. That effort produced 
mapping of perchlorate and other VOC's which has been used in 
coordination with the producers and the Regional Water Quality Control 
Board to develop a comprehensive strategy to deal with the 
contamination. Included as Exhibit A is a sample of the type of 
monitoring work and mapping conducted by the Watermaster to identify 
the scope of the contaminate problem including isotope mapping. 
Watermaster also formed a Water Quality Committee, of which I serve as 
Chairman, which consisted of local producers, MWD and the Regional 
Board. The Committee has worked with our team of consultants and 
produced the following efforts:
    <bullet>  Continued groundwater monitoring of perchlorate and other 
water quality parameters including water levels to determine the effect 
of pumping on known and defined plumes,
    <bullet>  Identified treatment technologies and their effectiveness 
at the wellhead,
    <bullet>  Utilizing the isotope technology conduct analysis of 
existing perchlorate plumes to identify the source of the contaminate,
    <bullet>  Analyzed cost impacts for well head treatment, 
replacement water and related capital improvements related to 
remediation or dilution of perchlorate to drinking water standards,
    <bullet>  Identifying appropriate technical actions necessary to 
address the perchlorate problem including providing technical and 
administrative support to the Regional Board and with groundwater 
management groups from outside the Chino Basin, and
    <bullet>  Identification of potential responsible parties or 
industries including agriculture that may have contributed to the 
perchlorate contamination.
    In addition to the efforts of Watermaster to manage the water 
quality issues related to perchlorate and VOC contamination in the 
Basin, several other groups have been formed within the Santa Ana 
Watershed to investigate perchlorate related issues in the watershed.
    Regional Board Perchlorate Task Force
    <bullet>  Organized through the Santa Ana Regional Water Quality 
Control Board in cooperation with EPA Region 9.
    <bullet>  Formed to investigate Potential Responsible Parties for 
perchlorate contamination and mapping within the Rialto-Colton Basins.
    Inland Empire Perchlorate Task Force
    <bullet>  Formed to negotiate a solution to the perchlorate 
problems incurred by Fontana Water Company and the West Valley Water 
District.
    Mayor's Advisory Committee of Water Contamination (Perchlorate)
    <bullet>  Formed to advise the mayor and city council on 
perchlorate contamination issues in the City of Rialto
    Mr. Chairman, the Cucamonga Valley Water District along with the 
Chino Basin Watermaster takes our respective roles in groundwater basin 
management and water supply very seriously. Perchlorate is a serious 
problem and has impacted our local groundwater resources and the local 
economy. We are looking for solutions that can be implemented now. 
Throughout the entire region there is a need to fully characterize the 
various contamination plumes in a coordinated fashion or assist 
existing entities such as the Watermaster in their ongoing efforts. We 
need to coordinate on data collection and monitoring to identify 
movement of the various contaminate plumes, contained and ultimately 
cleaned up. We need to identify water supply alternatives that are cost 
effective and reliable such as developing funding for recycled water.
    Our agency remains committed to doing all that we can to ensure 
that our groundwater supplies are protected in a cost effective manner. 
We appreciate the efforts your committee have undertaken to conduct 
this hearing and solicit information regarding this issue.
    Thank you Madam Chairwoman for your time and consideration.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. DeLoach. And of course, 
thank you Ms. Solis, because she's attacking the issue of 
perchlorate from the other side. But before I move on, I'd like 
to recognize and again thank President Mike Ortiz, standing in 
the back, who just joined us. Thank you for allowing us to use 
your facilities, sir. It's very nice--we're very much enjoying 
it. Thank you.
    And I'd also like to introduce the staff in case, after the 
meeting, you want to talk to some of the staff who really does 
most of the work. On my left is Steve Lanich who is the 
Director of Personnel for the Subcommittee, and--where are you, 
Kiel? Kiel, hiding back there, he's Minority subcommittee staff 
who is joining us, and he's listening out to any of the 
comments you may hear in the background. And also to my Chief 
of Staff Daniel Chao behind me, Amelia Wang, my District 
Director and Joe, who is my Legislative Director. And Emily, 
where are you? Oh, I'm sorry. Emily, another staff of this 
efficient subcommittee, very, very capable young people. And 
Steve has over 20-some odd years on water, so you know he knows 
the subject. I want to introduce you to them so you understand 
what we do in Washington and how we do it and why we do it with 
this personnel. All right. I'd like to move on to Penny 
Newman----
    Mr. Baca of California. Madam Chair, weren't you on campus 
here on Saturday as well with Dr. Ortiz?
    Mrs. Napolitano. Yes, so were you. That's why I say thank 
you to the President. We brought in the congressional institute 
to talk to over 200 youngsters from the local high schools and 
middle schools on some of the grant scholarships and trying to 
help them learn how to stay in school, how to go to university, 
and how to become successful leaders. So thank you, sir.
    With that, Penny Newman, Executive Director, Center For 
Community Action and Environmental Justice in Riverside, I have 
read your testimony. It's very interesting. Welcome.

   STATEMENT OF PENNY NEWMAN, EXECUTIVE DIRECTOR, CENTER FOR 
 COMMUNITY ACTION, ENVIRONMENTAL JUSTICE, RIVERSIDE, CALIFORNIA

    Ms. Newman. Thank you. It's a pleasure to appear before 
you, and I thank you for the opportunity to add our testimony 
to this very important issue.
    I'd also like to introduce two of my staff people who are 
here. That's Jan Mendez and Nina Diaz who are working our San 
Bernardino office on the perchlorate issue. Still can't hear 
me?
    Mrs. Napolitano. That's good.
    Ms. Newman. CCAEJ, as it's commonly called, is one of the 
oldest and most accomplished environmental justice 
organizations in the nation, having begun our work in 1978 as a 
small neighborhood community group focused on California's Top 
Priority Superfund Site, the Stringfellow Acid Pits.
    It's through our involvement with Stringfellow that we 
first became introduced to perchlorate. In 1999 and 2000, they 
did testing for the chemical for the first time with that site 
and discovered that overnight, our plume had expanded by more 
than five times from what we originally thought. It now went 
from Glen Avon into two more communities, Pedley and Mira Loma 
extending 6 miles to the Santa Ana River. This discovery also 
found that dozens of families had been drinking contaminated 
water with perchlorate without their knowledge. The State of 
California through the Department of Toxic Substance Control, 
moved quickly to provide bottled water and started the process 
of connecting people to another water system.
    One of the things that we found very disturbing about 
perchlorate was because it was so mobile and moved so quickly, 
that it contaminated a wide area, but that we're also beginning 
to see how it uptakes into our food chain. Crops such as sweet 
lettuce, alfalfa, and cucumbers have been found to have 
perchlorate in them. For Latino communities, who rely on 
staples such as nopales to augment their nutrition value, it 
has the same characteristics. No one is doing a study on this. 
That means that our low-income Latino communities are relying 
on this as an addition to their nutrition and a possibility of 
intake in perchlorate that way. So it's not just whether you 
live in an area that is contaminated, like Rialto or 
Stringfellow, but also the food that we're drinking--or eating.
    In 2004, CCAEJ along with the Environment California, a 
statewide research and policy organization partnered in our 
Inland Valley Perchlorate Community Relief Project to focus on 
the contamination in Rialto. We were alarmed that in high 
income, predominantly white communities like Redlands, it took 
less than a year to get cleanup and abatement ordered. Yet, in 
Rialto, working class, 65 percent Latino population, it is 
going on over ten years and still no cleanup and abatement 
order has been issued. Despite the responsibility and years of 
negotiations, neither Goodrich Corporation nor Black & Decker, 
those named by U.S. EPA as dischargers have agreed to clean up 
the mess they have created. While the companies delay, many of 
the citizens of Rialto are having to step forward to pay for 
their clean water.
    That delay continues today. In fact, instead of meeting to 
develop comprehensive cleanup plans, Goodrich and Black & 
Decker are conducting prolonged depositions in an attempt to 
harass, intimidate, and abuse agency staff and my own 
organization. The interrogations consist of aggressive yelling, 
brow-beating, verbal attacks, and threats to the point of 
bringing some people to tears in the hallway. The attacks 
continue with subpoenas for extensive document production even 
though dates for submitting evidence have been outlined and 
scheduled for the administrative hearing. Even though 
Constitutionally protected, the corporations continue to press 
for funding sources and our membership lists for our community-
based organization.
    The goal is clear. They have stated both verbally and in 
writing that if we simply withdraw as a designated party, all 
of this will stop. We've made a commitment to the residents of 
Rialto that we are going to ensure that their voice is heard in 
this area on an equal level with the polluters, the agencies, 
and the cities, and we're not going to back down.
    In 2006, it became even more clear how dangerous this 
situation was when tests that were mandated for Goodrich to 
conduct discovered an alarming spike in the levels. Between 
April of 2005 and April of 2006, the levels rose from 53 parts 
per billion to over 10,000, the highest in the State of 
California. While these delays continue, it is the community of 
Rialto that pays the price. With strong leadership and efforts 
from local officials such as Mr. Baca, there has been some 
Federal funding coming forth. But to address this problem in a 
comprehensive way and a cleanup price of over 300 million, we 
have to hold the polluters responsible. As my mother always 
told me, if you make the mess, you clean it up. If we expect 
that for responsibility in our children, we should expect no 
less for our corporations.
    Our aquifers and water sources are a precious commonwealth 
for all of us. We cannot allow them to continue to be polluted. 
It is a resource for all of us no matter what our income or 
status in the community. Our first item that this committee can 
do as individuals or as a committee is to write a letter to the 
State Water Resources Board endorsing the strong cleanup and 
abatement order that has been drafted. We've had great input 
into this, and I think it will provide a model around the 
country for the way that we should be pursuing. Thank you.
    [The prepared statement of Penny Newman follows:]

           Statement of Penny J. Newman, Executive Director, 
         Center for Community Action and Environmental Justice

    Chairwoman Napolitano, Honorable Members of the subcommittee, I 
thank you for the opportunity to address this committee on this 
important issues.
    My name is Penny Newman, Executive Director for the Center for 
Community Action and Environmental Justice. CCAEJ is one of the oldest 
and most accomplished environmental justice organizations in the nation 
having begun our work in 1978 as a small neighborhood group fighting 
for the cleanup of California's top priority Superfund site, the 
Stringfellow Acid Pits.
Perchlorate in Groundwater
    It is through our involvement with the Stringfellow site that in 
2000, we became acquainted with perchlorate when testing discovered the 
chemical in the aquifer below the site. That discovery, expanded 
overnight the contaminated plume seeping from the site by more than 5 
times. (Exhibit 1). Instead of the pollution being confined to the 
community of Glen Avon it now affected 2 more communities--Pedley and 
Mira Loma--extending it more than 6 miles to the Santa Ana River. With 
this discovery dozens of families were found to be drinking water from 
their private wells contaminated by perchlorate. The State of 
California Department of Toxic Substances Control (DTSC) moved quickly 
to provide bottled water to affected residents and began the process of 
connecting homes to another water system.
    The response by DTSC in quickly addressing the perchlorate 
contamination in Glen Avon sadly seems to be an anomaly rather than 
standard practice both by DTSC and other state agencies. For example, 
in the community of Norco residents find that contamination from the 
Wyle Labs has placed their homes and water resources at risk as well. 
Perchlorate is one of the noted contaminants along with TCE which has 
volatized through the soil and concentrated in homes--prompting, in at 
least one case, emergency action due to the high levels. (Exhibit 2). 
In the Norco case agencies have been slow to respond as staff turnover 
and even agency turnover has produced a lack of historical memory and 
repetition for residents of having to reprove and re-discuss the same 
issues over and over. Progress on this site has been frustratingly slow 
for affected residents who feel they have been put in the position of 
conducting the tasks public agencies should be doing.
    Across the county line in San Bernardino in the City of Rialto, 
perchlorate has had a major impact on the city and its residents. One 
young woman relates her story. She moved to Rialto, buying her dream 
house and sending her kids to school down the street, the town seemed 
the perfect place to raise three young children. Much to her horror, in 
March of 2003 she discovered that water from wells contaminated by 
rocket fuel from operations of Goodrich Corp and Black & Decker, is 
piped to her home.
    Upon investigating this alarming situation further, she discovered 
that despite the companies' combined yearly revenues of more than $5 
billion, the corporations have to date failed to clean up the mess they 
created more than forty years ago. As a result, she and 100,000 other 
residents in the diverse, working class community just east of here 
have had their clean water stolen from them.
    Perchlorate travels easily in water, allowing spills to rapidly 
enter water supplies, and persists for many decades underground. 
Through careless handling, use, storage and disposal of perchlorate 
over the last six decades, the military and its contractors have 
extensively polluted California's drinking water sources. State 
agencies have discovered perchlorate pollution in more than 350 
California water sources, including the Colorado River and hundreds of 
municipal wells. Perchlorate contaminates the drinking water supply of 
16 million Californians. The contamination extends into more than 10 
counties, San Bernardino, Sacramento, Los Angeles, Riverside, Ventura, 
Tulare, Orange, Santa Clara, Sonoma and San Diego (Exhibit 3).
    According to the U.S. Environmental Protection Agency, Office of 
Research and Development the vast majority of perchlorate in the United 
States is synthetic associated with use in rocket propellants, 
explosives, road flares, air bags, electronic tubes lubricating oils, 
leather tanning, fabrics, electroplating, aluminum refining, rubber 
manufacture, and the production of paints. As a consequence of their 
widespread use and water solubility, huge amounts of perchlorate have 
leached into surface and groundwater used as drinking water source.
    Southern California relies heavily on its underground aquifer 
system for a majority of its drinking water. As perchlorate continues 
to migrate into our underground aquifers, our backup water source is 
the Colorado River. In the 1950s, large amounts of perchlorate were 
made at factories owned by American Pacific and Kerr-McGee corporations 
outside Las Vegas, in an area draining into Lake Mead and the Colorado 
River. Dumping, spills and explosions left the area around these 
factories heavily contaminated. It is estimated that more than 20 
million pounds of the chemical remain in the sediments downstream from 
the factories. Wastewater from the city of Las Vegas carries the 
perchlorate downstream to Lake Mead. In 2004, 200 to 300 pounds of 
perchlorate leached into Lake Mead every day.
    With the current pace of cleanup and with natural flushing of the 
river, it is estimated that the lower Colorado River will remain 
contaminated with perchlorate for the next 50 years.
Perchlorate in Food
    The impact of perchlorate is not limited to drinking water. 
Perchlorate also concentrates in leafy vegetables like lettuce, which 
creates a concern for consumers of Imperial Valley crops irrigated with 
Colorado River water. Tests by scientists and advocacy organizations 
like the Environmental Working Group have confirmed that plants, 
especially broad-leaf varieties, concentrate perchlorate from the 
environment. Scientists have found perchlorate in plant tissues at 
levels up to 100 times higher than in nearby water sources. In 2004, 
The Food and Drug Administration released a study finding perchlorate 
in 90 percent of 128 lettuce samples and in all but three of the 104 
milk samples, with average levels ranging from six parts per billion in 
milk to 12 parts per billion in Romaine lettuce. These results raise 
the possibility that perchlorate contamination is much more widespread 
than regulators currently know, and that exposure is wide spread across 
the country.
    Perchlorate is highly mobile in water and can persist for decades 
under typical ground and surface water conditions. Research has also 
shown that perchlorate can concentrate in crops such as wheat, lettuce, 
alfalfa, and cucumbers thereby resulting in much greater exposures than 
might be predicted by water or fertilizer concentrations. Newer data 
have shown perchlorate contamination to be widespread in store-bought 
fruit, vegetables, cow's milk, beer and wine. Perchlorate has been 
found in human breast milk at levels up to 92 ppb, and was found in 
every one of 2820 urine samples the Centers for Disease Control 
recently tested for perchlorate. Nopales, a staple in the Latino 
communities, has similar characteristics of those vegetables found to 
uptake perchlorate easily such as lettuce. A concern for low income 
Latino communities that rely on the tasty succulent as a major food 
source is that perchlorate levels will be high in this crop as well.
    Perchlorate is a potent competitive inhibitor of the sodium-iodide 
symporter (NIS), interfering with the normal uptake of iodide into the 
thyroid gland, as well as normal transport of iodide across the 
placenta and into the lactating mammary gland. Iodide uptake inhibition 
can result in decreased capacity to synthesize thyroid hormones. In the 
developing fetus and infant, adequate thyroid hormones are necessary 
for normal brain development. Subtle alterations of thyroid hormone 
during pregnancy--even within the normal range--have been associated 
with decreased intellectual and learning capacity in childhood.
    In 2004, CCAEJ and Environment California, a statewide research and 
policy organization, partnered in our Inland Valley Perchlorate 
Community Relief Project and began focusing on the Rialto 
contamination. We were alarmed that in high income, predominantly white 
(72%) communities like Redlands, a Cleanup and Abatement Order (CAO) 
was issued by the Regional Water Board against the polluter in less 
than one year. Yet in Rialto a working class community that is 64.7 
percent Latino, ten years have passed since the discovery of the 
pollution. But despite their responsibility and years of negotiations, 
neither Goodrich Corp. nor Black & Decker have agreed to clean up the 
mess they have created. While the companies delay, many citizen of 
Rialto drink water that is polluted by rocket fuel. According to data 
supplied to local and state water officials, water from drinking water 
wells contaminated at up to three times the safety levels issued in 
other states is piped to homes in the city.
    That delay continues today. In fact instead of meeting to develop a 
comprehensive clean up plan, Goodrich and Black & Decker are conducting 
prolonged depositions in an attempt to harass, intimidate and abuse 
agency staff and public interest advocates. The interrogations consist 
of aggressive yelling, browbeating and verbal attacks to the point of 
bringing some people to tears in the hallway. The attacks continue with 
subpoenas for extensive document production even though dates for 
submitting evidence have been outlined in a schedule for the 
Administrative Hearing. Even though constitutionally protected the 
corporations continue to press for funding sources and membership lists 
of our community-based, non-profit organization.
    And while the delays continue, several other wells unusable due to 
contamination, in this drought-prone area brings the city to the brink 
of running out of water. While the pollution continues to move, the 
polluters continue to delay and deny responsibility. In the meantime, 
it is the residents who have been forced to pay water bill price hikes 
and surcharges to pursue the polluters for clean water. The residents 
are hit twice. First, their water supply is destroyed by the polluters 
actions and irresponsibility. Secondly, those most unable to afford 
it--the residents of Rialto--are the only ones having to pay.
    In 2006, new mandated pollution tests conducted by Goodrich 
corporation and submitted to state water officials in July reveal an 
alarming spike in contamination that threatens to send a new pulse of 
toxic perchlorate pollution into Rialto drinking water wells. Levels of 
perchlorate pollution in well PW-2, located close to the historic 
Goodrich perchlorate disposal pit spiked sharply in 2006--from an April 
2005 concentration of 53 ug/L to an April 2006 concentration of 
10,000ug/L. the highest level reported in the state.
    A potential explanation for this spike in perchlorate levels is 
that heavy rains increased the level of the water table, dissolving 
perchlorate contamination that persist in the oil around the Goodrich 
``burn pit''. Once dissolved, the perchlorate would have traveled into 
local groundwater, creating a new ``pulse'' of contamination. This new 
pulse threatens wells down gradient from well PW-2.
    While delays continue in taking aggressive action to stop the 
migration of perchlorate in the aquifer more and more water is 
destroyed and taken out of use as a common public drinking water 
source. With the strong leadership and efforts by local officials some 
federal funding has been forth coming to begin to address the problems. 
But the real answer is in making the polluters pay for the ecological 
disaster their mismanagement and irresponsibility have created. It is 
only through the polluters pay principle that enough resources will be 
available to correct the situation and save our water resources. It is 
inherently unfair to use taxpayers money to fund the cleanup created by 
the corporations' actions. As my mother always told me, ``If you make 
the mess, you clean it up.''
    Our aquifers and water resources are a precious common wealth for 
us all. All life relies upon this resource. We cannot accept 
irresponsible actions by anyone to pollute this precious resource. 
Clean drinking water should not be dependant upon one's ability to buy 
filters or bottled water. It is a resource for us all no matter ones 
income or status in the community. A first step to achieving this goal 
is joining us in endorsing our petition to the Water board for a strong 
Clean up and Abatement Order. (Exhibit 5)
    Thank you for the opportunity to address this committee regarding 
this important issue.
    [NOTE: The exhibits listed below have been retained in the 
Committee's official files.]
    <bullet>  Exhibit 1. Perchlorate Plume from Stringfellow Acid Pits
    <bullet>  Exhibit 2. Off site contamination from Wyle Labs in Norco 
California
    <bullet>  Exhibit 3. Number of Perchlorate Contaminated Wells by 
County
    <bullet>  Exhibit 4. Groundwater contamination/Perchlorate plumes 
and contaminated wells in the Inland Valleys of Riverside and San 
Bernardino.
    <bullet>  Exhibit 5. Sample letter endorsing Clean up and Abatement 
Order in Rialto.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Ms. Newman. We will move on to 
the last witness on this panel, Mr. Phil Wyels, Assistant Chief 
Counsel, State Water Resources Control Board from Sacramento. 
Welcome. Thank you for coming, sir.

 STATEMENT OF PHIL WYELS, ASSISTANT CHIEF COUNSEL, STATE WATER 
        RESOURCES CONTROL BOARD, SACRAMENTO, CALIFORNIA

    Mr. Wyels. Thank you, Madam Chair and members. As Assistant 
Chief Counsel for the California State Water Resources Control 
Board, one of my duties is to provide legal representation and 
counsel to the California Regional Water Quality Control 
Boards. The regional water boards and the State Water Board are 
in California, the primary agencies with regulatory 
responsibility over the quality of the water resources in the 
state. Among the other authorities, the water boards have the 
authority to issue cleanup and abatement orders to compel 
persons who have caused or permitted discharges of waste that 
have resulted in water pollution or contamination to 
investigate and remediate those discharges. When exercising 
that authority in situations where the discharge of waste has 
adversely affected other entities' water supplies, the water 
boards can require those persons who have discharged their 
waste to provide water--to provide replacement water supplies 
to the affected water users.
    When the water boards are exercising their authority to 
compel investigation and remediation of groundwater pollution, 
they are acting in a quasi-judicial capacity. They conduct an 
adjudicative hearing to determine whether the weight of the 
evidence supports a finding that the potential responsible 
party did, in fact, discharge the waste resulted in the 
groundwater pollution. After the Water Board determines which 
parties are responsible for the investigation or remediation, 
the Water Board continues to maintain jurisdiction to oversee 
the investigation and remediation including approving the final 
cleanup plan and setting the groundwater cleanup levels.
    On those occasions where the groundwater pollution has 
directly affected an existing water supply, the water boards do 
have the authority to require replacement water supplies. This 
can be in the form of providing well head treatment, paying 
money to the water suppliers so they can obtain additional 
water, or directly obtaining additional water for the 
suppliers. One issue of particular relevance in discussing the 
requirement of responsible parties to provide replacement water 
supplies is the necessary level of pollution in the supply 
wells before the responsible parties are required to provide 
that replacement water.
    The State Water Board issued a precedential order in 2005, 
the result of an appeal filed by another perchlorate 
manufacturer in a different part of the state. And in that 
order, the State Water Board decided that as a matter of 
policy, the regional boards should only require the responsible 
parties to provide replacement water supplies for public health 
purposes if the pollutant concentrations at the supply wells 
exceeded drinking water standards. Where drinking water 
standards have not yet been adopted as with perchlorate, the 
State Water Board directed the regional water boards to defer 
to the expertise of the Department of Health Services and 
another sister agency, the Office of Environmental Health 
Hazard Assessment to determine what levels would be safe. That 
level currently has been set at 6 parts per billion by the 
Office of Environmental Health Hazard Assessment level, and 
that is below what the regional water boards currently use. The 
Department of Health Services in California recently proposed 
to adopt a state maximum contaminant level of 6 parts per 
billion for perchlorate.
    The regional water boards do have the ability to require 
replacement water supplies if necessary to protect other uses 
of water or if necessary to prevent the acceleration of the 
groundwater plume's migration due to the operation of municipal 
supply wells. And on occasion, the regional water boards have 
found it necessary to restrict the use of water supply wells 
where the continued pumping of those wells is causing nearby 
groundwater plumes to spread. In these cases, the responsible 
parties, including notably the Department of Defense, have 
generally been very resistant to providing water supplies. As 
you might imagine, the regional water boards have typically 
found that it's much more cost effective to prevent the spread 
of pollution.
    With respect to the local perchlorate plume, the Santa Ana 
Regional Water Board has been devoting much of its staff's time 
to this very important problem over the last several years. The 
Regional Board has been working in close cooperation with the 
City of Rialto to develop the evidence to support its case 
against certain potential responsible parties. The responsible 
parties have filed numerous appeals with the State Water 
Resources Control Board in courts prior to this hearing, 
however, and the State Water Board recently decided that it 
will take over responsibility to conduct the hearing.
    That administrative hearing is scheduled to take six full 
days starting as soon as next month. At the conclusion of that 
hearing, I expect that the State Water Board will issue an 
order determining which parties are responsible for 
investigation and remediation of the major source area of 
perchlorate. The State Water Board is also being asked by the 
Regional Board to order some or all of the responsible parties 
to provide water supplies to the affected water supply users.
    I'd just like to conclude by explaining that the Regional 
Water Board is grateful for the tremendous support that the 
City of Rialto has provided by way of its Federal litigation, 
and the Regional Board also appreciates the assistance that the 
United States Environmental Protection Agency has provided. And 
we hope that they will be able to continue in that role. 
Unfortunately, my understanding is that the Department of 
Defense has been less than cooperative at the Rialto site, so 
any encouragement that the Subcommittee can provide in that 
regard would be very much appreciated.
    That concludes my testimony. Thank you for convening this 
hearing on this important topic, and thank you for letting us 
speak.
    [The prepared statement of Phil Wyels follows:]

Statement of Phil Wyels, California State Water Resources Control Board

    Thank you for the invitation to testify before the Water and Power 
Subcommittee of the House Natural Resources Committee. My name is Phil 
Wyels. I am an Assistant Chief Counsel for the California State Water 
Resources Control Board; my duties include providing legal counsel and 
representation to the nine California Regional Water Quality Control 
Boards. My testimony today will focus on two primary issues. First, I 
will describe those agencies' general approach in overseeing 
remediation of groundwater pollution, including requiring the persons 
responsible for creating the pollution to provide replacement water 
supplies to affected water users. Second, I will explain those 
agencies' roles in addressing the Rialto-area perchlorate groundwater 
contamination.
    In California, the agencies that have primary responsibility over 
the quality of the state's water resources are the State Water 
Resources Control Board and the nine California Regional Water Quality 
Control Boards, which are commonly referred to as the State Water Board 
and the Regional Water Boards. The Water Boards are comprised of 
gubernatorial appointees who oversee a professional staff that includes 
engineers, geologists, and scientists. The Water Boards have broad 
quasi-legislative and quasi-adjudicative authority to regulate all 
discharges of waste that can affect the quality of the state's 
groundwater or surface waters. This includes administering both the 
federal Clean Water Act's National Pollutant Discharge Elimination 
System permit program, as well as a state's Porter-Cologne permit 
program that regulates discharges that are beyond the scope of the 
NPDES permit program. In addition, the Water Boards have the authority 
under state law to compel persons who have caused or permitted 
discharges of waste that have resulted in water pollution or 
contamination to investigate and remediate their discharges. When 
exercising that authority in situations where the discharge of waste 
has adversely affected other entities' water supplies, the Water Boards 
can require those persons who discharged the waste to provide 
replacement water supplies to the affected water users.
    As a general rule, it is the Regional Water Boards that conduct 
most of the direct regulation of waste discharges and oversight of 
groundwater remediation, while the State Water Board hears appeals from 
parties challenging the Regional Water Boards' orders. Occasionally, 
however, the State Water Board itself will act as the finder of facts 
and issue orders in the first instance. In addition to the Water 
Boards, there are several local, state, and federal agencies that play 
varying roles in overseeing investigation and remediation of various 
types of contamination in California.
    When the Water Boards are exercising their authorities to compel 
investigation and remediation of groundwater pollution, they are acting 
in a quasi-judicial capacity. They conduct an adjudicative hearing to 
determine whether the weight of the evidence supports a finding that 
the potential responsible parties did in fact discharge the waste that 
resulted in the groundwater pollution. After the Water Board determines 
which parties are responsible for the investigation and remediation, 
the Water Board continues to maintain jurisdiction to oversee the 
investigation and remediation, including approving the final cleanup 
plan and setting final groundwater cleanup levels.
    On those occasions where the groundwater pollution has directly 
affected an existing water supply, the Water Boards have the authority 
to require the responsible parties to provide replacement water 
supplies to the affected water suppliers. This can be in the form of 
providing wellhead treatment, paying money to the water suppliers so 
that they can obtain additional water, or directly obtaining additional 
water for the suppliers. The state law that provides this authority was 
amended in 2004, and now specifies that any replacement water is 
required to be the same quality that the groundwater was prior to the 
discharge of waste. Incidentally, State Senator Nell Soto, who has been 
heavily involved in the local perchlorate groundwater pollution issues, 
sponsored that amendment to California Water Code section 13304.
    One issue of particular relevance in discussing the requirement for 
responsible parties to provide replacement water supplies is the 
necessary level of pollution in the supply wells before the responsible 
parties are required to provide replacement water. The State Water 
Board issued a precedential order in 2005 that resolved an appeal filed 
by Olin Corporation, a perchlorate discharger south of San Jose. The 
State Water Board decided that, as a matter of policy, the Regional 
Water Boards should only require the responsible parties to provide 
replacement water supplies for public health purposes if the pollutant 
concentrations at the supply wells exceed drinking water standards. 
Where drinking water standards have not yet been adopted; as with 
perchlorate, the State Water Board directed the Regional Water Boards 
to defer to the expertise of the California Office of Environmental 
Health Hazard Assessment (OEHHA), a sister state agency that conducts 
human health risk assessments. OEHHA had determined that perchlorate in 
drinking water does not pose adverse effects on human health at or 
below 6 micrograms per liter, so the State Water Board concluded that 
the dischargers should not have to provide replacement water supplies 
for human health purposes until the perchlorate at the supply wells was 
above 6 micrograms per liter. The California Department of Health 
Services recently proposed to adopt a state Maximum Contaminant Level 
of 6 micrograms per liter for perchlorate.
    The State Water Board's precedential Olin order left open the 
possibility, however, that the Regional Water Boards could require 
replacement water supplies at lower pollutant levels if necessary to 
protect other uses of water or if necessary to prevent the 
acceleration, of the groundwater plume's migration due to the operation 
of municipal water supply wells. On occasion, the Regional Water Boards 
have found it necessary to restrict the use of water supply wells where 
the continued pumping of those wells is causing nearby groundwater 
plumes to spread. In these cases, the responsible parties, notably 
including the Department of Defense, have generally been very resistant 
to providing replacement water supplies. As you might imagine, the 
Regional Water Boards have typically found that it is much more cost 
effective to prevent the spreading of the pollution.
    With respect to the local perchlorate plume, the Santa Ana Regional 
Water Board has been devoting much of its staffs' resources to this 
very important problem over the last several years. The Regional Water 
Board staff, in cooperation with the City of Rialto, has been 
collecting evidence and developing a case to determine which entities 
are responsible for the pollution, especially from a 160-acre site in 
Rialto that is believed to be one of the primary source areas.
    The original intent was for the Regional Water Board staff to 
present this information to the Regional Water Board at an adjudicatory 
hearing. The potential responsible parties filed numerous appeals with 
the State Water Board and the courts prior to the hearing, however, and 
the State Water Board decided earlier this year that it would take over 
responsibility for conducting the hearing. That hearing is scheduled to 
take six full days, starting next month. At the conclusion of the 
hearing, I expect that the State Water Board will issue an order 
determining which parties are responsible for investigation and 
remediation of that major source area. The State Water Board is also 
being asked to order some or all of those responsible parties to 
provide replacement water supplies to the affected water supply users.
    The State Water Board has named six parties to the adjudicatory 
hearing. Those parties are the Santa Ana Regional Water Board staff who 
are advocating for the adoption of an order, the City of Rialto, which 
has been providing invaluable assistance to the Regional Water Board 
staff, two local environmental justice organizations, and the potential 
responsible parties. Because this is a judge-like hearing, there is an 
ethical wall between all of the parties and the State Water Board. 
Therefore, as an attorney that represents the Regional Water Boards, I 
am not in a position to know how the State Water Board views the 
evidence that has been submitted to it to date. I do expect, however, 
based on the potential responsible parties' tactics to date, that the 
hearing will be heavily contested and that some, if not all, of the 
parties will turn to the courts to attempt to overturn any State Water 
Board order that concludes that they are responsible for the 
perchlorate pollution.
    In the meantime, the Regional Water Board is grateful for the 
tremendous support that the City of Rialto has provided by way of its 
federal litigation against a multitude of potential responsible 
parties. Through that litigation, for example, Rialto has been able to 
take literally hundreds of depositions of former employees of some of 
the potential responsible parties, arid in so doing has helped develop 
key evidence regarding historic perchlorate handling practices. The 
Regional Water Board also appreciates the assistance that the United 
States Environmental Protection Agency has provided, and hopes that it 
will be able to continue in its support role. Unfortunately, my 
understanding is that the Department of Defense has been uncooperative 
at the Rialto site, so any encouragement that the Subcommittee can 
provide in that regard would be very much appreciated by the Regional 
Water Board staff.
    Once again, thank you for the opportunity to provide this testimony 
to the Subcommittee, and I would be pleased to answer any questions you 
might have.
                                 ______
                                 
    Mrs. Napolitano. Thank you so very much, Mr. Wyels. I 
couldn't agree with you more, and that's one of the reasons 
we're having the hearings and being able to get more 
information received. I'm glad to hear that you're going to be 
having that hearing hopefully next month. And I'd love to have 
staff come in and sit in on it. Does your agency work with 
Federal EPA?
    Mr. Wyels. We do. There are actually a number of agencies 
involved in various water pollution cleanups throughout the 
state. U.S. EPA has been involved in somewhat of a support 
role. They're letting the state take the lead, which so far is 
working, slowly albeit. And yes, they have provided direct 
support on this particular case.
    Mrs. Napolitano. Oh, what about the defense department? Are 
they part--are you inviting them to be there so they can hear 
the findings and be more aware of the effect it has on the 
populace?
    Mr. Wyels. The Regional Water Board has asked the 
Department of Defense to assist in the investigation; so far my 
understanding is they have largely declined for this particular 
site. They are not one of the named responsible parties for the 
order that the State Board would be considering. That's from a 
different source area. And so yes, the hearing is open to the 
public. I couldn't tell you whether they plan to attend or not.
    Mrs. Napolitano. Thank you. Do we have a representative 
from Federal EPA here? Would you stand, sir, and state your 
name?
    Mr. Villasenor. Sure. Andre Villasenor, U.S. EPA with the 
L.A. field office.
    Mrs. Napolitano. Thank you for coming, and thank Laura for 
allowing you to come because I just called her yesterday. Thank 
you, sir. And the reason I asked them to send somebody is so 
they can listen to the testimony of the people of the water 
agencies and the state and the local agencies to get a better 
idea of what is really happening in our backyard. So thank you.
    As a witness on this panel, Mr. Wyels, Mr. Araiza of the 
West Valley District believes that state and Federal 
intervention is needed. Do you agree with the assessment? And 
if so, what Federal or state entity do you believe should take 
the lead role?
    Mr. Wyels. At this time, the State Water Board has asserted 
itself as the agency that is adjudicating the determination 
about liability and cleanup responsibility, and they are on 
track to conduct the hearing next month. So I'm hopeful, 
despite all of the delay efforts and sort of the aggressive 
defense moves, that they will proceed at the hearing.
    Mrs. Napolitano. OK. You state some of the major 
impediments are the inability of the Federal Government to own 
up to its responsibility, one, that namely the PRP's, and the 
list goes on in regard to what litigation and other things that 
are happening. What can we do? What can the Federal Government, 
in conjunction with the states and locals, do? Because the only 
ones that win are the attorneys.
    Mr. Wyels. I agree. I'm not one of those attorneys, 
unfortunately. I'm on salary. No, the answer, Madam Chair, is 
with respect to the Department of Defense, Congress can 
certainly encourage them to be much more forthright and 
forthcoming in terms of providing funds and resources to not 
only investigate, but also to take responsibility for the 
discharges for which they are responsible. We have been pleased 
with U.S. EPA's role to date to the extent that they can obtain 
additional funding to increase the level of support they 
provide. That would be wonderful.
    Mrs. Napolitano. Well, if we can get Federal EPA to sit 
with the groups in this area and begin to understand the 
severity of the local problem, whether it's Rialto or--well, 
the rest of the Inland Empire, and work with them as they did 
with the San Gabriel Valley cleanup, I think we will be in a 
better position and be able to force the PRP's to the table so 
that at least the process can get moving in being able to 
address especially those areas that are really affected. I 
have--let's see. Celeste Cantu, how has the perchlorate 
contamination affected the quality and sustainability of the 
Santa Ana Watershed?
    Ms. Cantu. Up to this moment with the treatment expenses 
that they're implementing, the supply is being maintained. It 
is getting more and more precarious, particularly as other 
factors such as precipitation change due to global warming or 
lack of reliability of imported water come into focus better, 
we realize how precarious we might actually be. But with the 
treatment that is going on at this moment and with the limit of 
6 that we have to work with at this moment, we are able to 
sustain a water supply. Should any of those factors change, 
however, it would be increasingly vulnerable and it would be 
hard to feel very secure that we would have a reliable source.
    Mrs. Napolitano. Thank you. Mr. DeLoach, and then I'll let 
my other colleagues have a go at it. How much has the State 
Water Project supplies been reduced by pumping restrictions in 
recent years? And how does this translate to water supply 
reductions in the Chino basin and the State Water Project?
    Mr. Deloach. Well, currently in the Chino basin alone area, 
we've seen no reductions. Our current--our imports are about 
37,000 acre feet a year, but we fear that that's going to be 
reduced somewhat. And for many of us that is the lion's share 
of our water supply. For us it represents over half of our 
water supply. So any reduction on it will be detrimental unless 
we can develop alternate sources. But we're planning now that 
there will be reductions within the next five to ten years.
    Mrs. Napolitano. OK. Because of the issue with the fish 
getting into the----
    Mr. DeLoach. The Delta pumps.
    Mrs. Napolitano [continuing]. Pumps. Right. There was going 
to be some changes, and we have not heard yet as to what those 
are going to be. And that should possibly affect the water 
supplies to this region.
    Mr. Deloach. It will.
    Mrs. Napolitano. And then Mr. Baca, you're up.
    Mr. Baca of California. A series of questions. I guess I'll 
start with the first one, with the council member from the City 
of Rialto, since I happen to know him.
    What action is the city taking to address water supply and 
potential public health problems arising from perchlorate 
contamination, in your opinion as a resident of the City of 
Rialto?
    Mr. Baca. We have a few things that Rialto has done. First 
of all, we shut a few of our wells to make sure that we're not, 
you know, asserting perchlorate to our residents, and we've 
also adopted a zero tolerance policy. And to define a zero 
tolerance, what it is is a policy that we will serve less than 
the technology available. So based on technology today, we're 
serving 4 parts per billion or less. And we're also in the 
process, we filed 41 lawsuits, we're participating in the state 
hearing, and pushing for a cleanup and abatement order. And the 
other thing we're doing too is we're requesting Federal funding 
and looking for an alternative water supply. One of the things 
that we push for is the Bunker Hill basin in the Inland Empire, 
we're looking at joining with other water agencies to make sure 
that we have an alternative water supply.
    But most of all, the biggest concern to me is the amount of 
bills--the amount of money that the residents are paying. So 
for example, I have a bill here, the bill here is $83.28, and 
the amount of fees that we're charging per residence is $15.63. 
That's roughly 17 percent of their bill. So those that are on 
fixed income or low or moderate income have a difficult time 
paying these bills. So that's just one of the concerns and one 
of the highlights I wanted to make sure we bring to this 
committee.
    Mr. Baca of California. Thank you very much. And I know 
that Penny Newman indicated that based on the population--and 
that's a district that I represent, the 43rd Congressional 
District. This is the poorest district of any congressional 
member in the State of California with the highest number of 
minorities. Well, not the highest number of minorities, but the 
poorest district anyway, with 42 percent Hispanic and roughly 
between 14 to 16 percent African American. Penny, what impact, 
do you know, does it really have in terms of a minority 
community, because for them it becomes very difficult in terms 
of having quality of water and then looking at their payments 
too? Could you explain the difficulty it is for many of the 
minorities? And especially the effects for many of the women 
who are now having children and they can't afford to go out and 
buy bottled water. They're relying on the water that's 
currently in that area.
    Ms. Newman. I had one mother talk to me about the position 
they're in of trying to decide whether to be able to buy school 
shoes for their children or pay their water bill. And that's a 
situation that families should not be in. And I think that we 
overlook the stress that's put on families living in that 
situation. We may have discovered the perchlorate in 1997, but 
we don't know how long it was there previous to that. So there 
were families that were probably drinking contaminated water 
throughout that whole time. So when young women are getting 
pregnant, they're concerned about what they're doing to their 
child. When they're breast feeding, they're concerned about 
what are they passing on to their child.
    And that's a quality of life issue, that is an issue that 
we should not be subjecting families to have to worry about. 
Most people in California don't have to worry about that. I 
mean, they know that their water is good or they can buy 
bottled water or another water source, get filters, whatever. 
For low income communities, that's not an option for them, so 
they have to rely on public agencies to ensure that what 
they're getting is safe.
    Mr. Baca of California. I'm going to have to squeeze one 
more question in because my time is up and Madam Chair really 
sticks to her time. This is the time she controls. The next 
question I have is for Ms. Cantu. How important a role do you 
believe imported water will play in replacing perchlorate 
contaminated water supply in the future?
    Ms. Cantu. Well, I hope it's not a very important role at 
all because it's not going to be a reliable source. Currently I 
think we import about 23 percent of our water in this 
watershed. Both of those major sources, Colorado River and the 
Delta supplies, are vulnerable. They're vulnerable for many 
different ways, so I do not think it would be prudent to rely 
on that as an important replacement source at all.
    Mr. Baca of California. OK. Thank you. One other question, 
and I'll just ask all of you, any one of you that want to 
answer, is there an end to this? Is there really a solution to 
the perchlorate problem, to really solving it, or will we 
continue to always have a perchlorate problem that will exist 
no matter what? I mean, we can look at resources and funding, 
we can look at who has the problem, but will there be an end to 
this at one point, where quality of water will be there, where 
our residents don't have to deal with it? Can anybody try to 
attempt that, or will someone?
    Ms. Newman. I can certainly jump in. I think that we have 
to, that we don't have a choice. We have a limited amount of 
groundwater available to us. As we heard, we can't rely on 
outside sources. Colorado River has perchlorate in it, we can't 
rely on it. And I think if we're going to survive as a society, 
we have to be able to provide one thing that is dependant for 
life, and that's our water. We have to be able to do that. We 
can't use those basins as storage basins when we import water 
because the perchlorate will stay in that basin unless we take 
it out. So I think this has to be a priority for us and we have 
to step forward and do a cleanup to the furthest extent 
feasible.
    Mrs. Napolitano. Thank you. Congresswoman Solis.
    Ms. Solis. Yes. I have a question for Mr. Wyels. I 
understand that you work in conjunction with many of the 
different water authorities across the state. And my question 
is more centered on what, in fact, is the water quality 
authority doing in terms of looking at the mining industry? We 
have several large industries in the San Gabriel Valley, and of 
course here in Riverside area as well. And I've often wondered 
about the lack of role in terms of water quality authority to 
help gage if there's any pollutants that are entering into our 
water tables, particularly in the San Gabriel Valley.
    Mr. Wyels. Congresswoman Solis, the Regional Water Board, 
the Santa Ana Regional Water Board has authorities beyond just 
those that we discussed earlier to require cleanup of the 
discharges they have already created. They also have brought 
authorities to regulate any discharge of waste that can affect 
water quality. And so with respect to mining, the regional 
boards have the authority to, and do in fact, regulate 
discharges associated with active mining sites and in addition 
to looking at historic mining sites for remediation. So the 
short answer is that we have plenty of authority to regulate, 
and I believe that we are actually doing a sufficient job in 
terms of current regulations that are designed to prevent 
creating new problems as we go.
    Ms. Solis. Do you think there could be more done on the 
part of the Federal Government and EPA to help and assist in 
investigation and monitoring?
    Mr. Wyels. Again, there's no question, we can use all the 
help we can get in terms of inventories, past practices in 
terms of looking at what groundwater areas have already been 
contaminated. There's no question that we don't have enough 
resources to go out and sample broad strokes of California's 
groundwater. So the answer is yes.
    Ms. Solis. So I think that's a big issue here too is the 
lack of ability on the part of agencies like yours and the 
Federal Government to release funding to do that kind of 
investigation and monitoring, because oftentimes you hear about 
it after there's actually been the contaminants that have been 
seeping into the water table.
    My next question is for Penny, Penny Newman. I mentioned 
the Environmental justice proposal that we're putting forward. 
What are your thoughts on that? Would that help communities 
like Rialto and other communities in the San Gabriel Valley or 
areas where there are large swaths of minorities under 
populations that have heavy industry?
    Ms. Newman. Now, I think you've certainly taken the lead on 
environmental justice issues, and we followed your leadership 
along the way and really applaud your efforts. I think, you 
know, the recognition that there are communities who 
disproportionately share the burden of pollution in our society 
is beginning to be recognized. And I think for communities in 
that situation, it's not just the general population, these are 
real hot spots that have multiple sources of contamination. 
It's the air, it's the groundwater, it's their homes. It is 
surrounding them, the environment. It is everything around 
them.
    And I think, you know, an effort to identify these 
communities and what the characteristics are and then set up a 
special task force that would, number one, stop any further 
facilities from coming in that may add to that pollution, kind 
of put a moratorium on that, and put together a response team, 
much like we do with natural disasters. Where the different 
agencies come in, coordinate their efforts to reduce--start 
reducing the level of pollution, not just stopping where we're 
at, but really start doing things to reduce it, and to put 
forward some efforts that would entice clean industry and start 
giving jobs to these communities to start helping them rebuild 
their communities and really put forth an effort on that in 
specific areas. And it's not hard to identify an EJ community, 
you just have to look around. They're there, it's pretty 
obvious.
    Ms. Solis. Thank you. My next question is for Mr. DeLoach. 
You mentioned fertilizers and the impact that's having in this 
particular area. Can you shed some light on that? And the cost, 
who should be held responsible for that?
    Mr. Deloach. And I think as I was speaking with staff 
earlier, I may need to find some amended comments from my 
testimony because for the longest time, I think once we 
identified that it was, in fact, cheap nitrate fertilizer 
imported from Chile, the natural assumption was that the U.S. 
Department of Agriculture or some affiliated agency helped with 
the importation. We're not sure that that is, in fact, the 
case. There seems to be some indication through the import 
taxes and tariffs that took place back in the 1920s, 1930s, and 
1940s in the large farming co-ops that there was some role of 
the Federal Government. But irrespective of whether it's 
Chilean fertilizer or a DOD related contaminant, the treatment 
and methodology is the same, and the cost is basically the 
same, extremely expensive.
    Ms. Solis. Thank you.
    Mrs. Napolitano. Ask one more question. We'll go a second 
round.
    Ms. Solis. For Ms. Cantu, how do you feel about the Federal 
Government's role in terms of the U.S. EPA holding, setting, or 
attempting to set a standard for perchlorate cleanup? Is that 
something that the Federal Government should be involved in or 
should states be allowed to continue to move ahead as 
California has? I mean, is it helpful to maybe have a clearer 
standard at the Federal level?
    Ms. Cantu. Most of the pollution that we've seen 
historically has been contained within a state, so that a state 
jurisdiction could be consistent from throughout the state. The 
Kerr-McGee historic contamination that affected myself and Mr. 
DeLoach in that we grew up drinking undiluted, unblended water 
from the Colorado River that was heavily polluted and 
perchlorate levels that nobody could even dream about now, came 
from between two states. But that's pretty rare. In fact, I 
think that's the only case. So since we find these localized, 
it makes sense to have each state set its own standards to 
reflect the wills and the values of the people in that 
community. California is moving toward setting a final 
standard, they've done a lot of work historically. I think 
that's been good work to date.
    Ms. Solis. Unfortunately, other states in the union don't 
follow suit, and that's where we have the dilemma in terms of 
trying to set some standards, and even trying to get Department 
of Defense to be responsible. They won't even come to the table 
or attend any hearings that we had in our subcommittee. And 
it's very unfortunate, but now hopefully that will change.
    Mrs. Napolitano. Thank you. We'll start a second round of 
questioning for this panel. My first question will be to Ms. 
Cantu. H.R. 813, ``Santa Ana River Water Supply Act of 2007'' 
would, among other things, authorize the lower Chino Valley--
lower Chino dairy area the contamination demonstration and 
reclamation project. To what extent could this proposed project 
upset pressures on existing water supplies from perchlorate 
contamination and other causes of supply restrictions?
    Ms. Cantu. Perchlorate is the contaminant of concern that 
we're here to discuss today, but salt is--just everyday salt is 
a major concern in this watershed as well. One of the goals for 
a sustainable community in this watershed is that we reach salt 
balance, that we're able to take out to the ocean as much salt 
as we are bringing in through importations. It is also critical 
for our sustainability. Perchlorate is one major concern that 
we're focused on, but we ought not to forget the others, and 
salt is one of those. So it's critically important.
    Mrs. Napolitano. Thank you. Mr. DeLoach, your testimony 
states that you will soon double your water recycling, and 
hopefully we'll be able to get the administration to change 
their tune because I'm working on that heavily.
    Mr. Deloach. Thank you.
    Mrs. Napolitano. What is the potential for further 
increasing water reused in the basin? And have you been 
successful in obtaining state or Federal funding for water 
reuse efforts?
    Mr. Deloach. Thank you very much. Yes, we have been in the 
Chino basin through the Inland Empire Utilities Agency, State 
Revolving Fund monies have been tapped, and other state 
sources. We're doing about 8,000 acre feet a year currently. We 
expect that number over the next five to ten years to exceed 
12,000 acre feet. We're actually in the process now where we're 
actually beginning to import--or actually recharge local 
groundwater basins that have been heavily blended with either 
state project water or surface water runoff which we're 
capturing so that we can get every available drop of water 
resource back in the ground for local water producers. It's the 
most inexpensive source water that we have, and as you know it, 
the only drought-proof source that we have.
    Mrs. Napolitano. Thank you. Let's see. Ms. Newman, Exhibit 
3 of your testimony shows a number of wells contaminated by 
perchlorate listed by county. Has the source of contamination 
been positively identified for each of the wells? And could you 
provide this committee with that information?
    Ms. Newman. I can certainly provide it. It's public record, 
it's on the DHS website. And I don't think in all of the 
situations that they've been identified, and certainly I think 
the dischargers would argue that they haven't been proven 
beyond a reasonable doubt to be the discharger, but they're 
certainly in most instances a source that you can look to just 
by looking through historic data.
    Mrs. Napolitano. Thank you. We look forward to seeing that 
piece. Or if you can give us a website, the staff can get to 
them and we'll pull them out.
    Mr. DeLoach, H.R. 122, the ``Inland Empire Regional Water 
Recycling Initiative,'' which would authorize the Inland 
Empire, Cucamonga Valley recycling project, passed the House. 
How would this legislation assist in addressing water supply 
shortages resulting from perchlorate contamination? And I would 
also ask is the state being a partner in any way?
    Mr. Deloach. We anticipate that the state will in fact be a 
partner. There is an application for additional state fund 
dollars to assist us in development of those projects. The 
project component of the bill that's related to my agency will 
produce an additional 5,000 acre feet a year of recycled water 
to areas that we just cannot reach because they both were built 
on an alluvial fan. And pumping the water up those hills is 
very costly in terms of electricity demand. The Inland Empire 
Utilities Agency piece is another component of their larger 
region-wide program. That will do close to 20,000 acre feet, I 
believe, and they're both critical pieces of the puzzle.
    Mrs. Napolitano. Good. Do you know if the fertilizer you 
referred to is still being produced and imported into the 
United States?
    Mr. Deloach. As far as being produced and actually being 
imported into the United States, no.
    Mrs. Napolitano. Excellent. Thank you. Coming right along, 
Mr. Baca, do you have questions for the second round?
    Mr. Baca of California. Thank you very much. First question 
is for Robert DeLoach. Generally what has been the cost to the 
district to address perchlorate contamination? And to what 
extent has perchlorate contamination in groundwater affected 
the operation and treatment cost and users fee for the 
district?
    Mr. Deloach. Treatment costs not only in our area but I 
mean the entire Chino basin, Congressman, the capital costs are 
somewhere in the million dollars per well to do a typical well 
head treatment. The annual O&M costs just to operate that 
system and the grind disposal or whatever's associated with 
that can be anywhere up to three or $400,000 a year. In some 
cases, I believe, as we get further east into the Rialto area, 
that is cost prohibitive just because of the types of 
contamination and the amount of contamination. In our area 
Cucamonga Valley Water District, the levels are such that we 
can actually blend the very costly state imported state project 
water and blend it down to below the state action level.
    Mr. Baca of California. What do you estimate the cost to be 
in your area?
    Mr. Deloach. I'm not sure at this moment. I'd have to get 
back to you on that.
    Mr. Baca of California. Any figure. What would it be?
    Mr. Deloach. We're probably looking at, on an annual basis, 
less than two to $3 million a year.
    Mr. Baca of California. OK. My next question, then, along 
the same lines is since we have quite a few contaminated wells 
in my city, the City of Rialto, the 22, this question would be 
for the City of Rialto, council member from Rialto. What is 
your estimate based on the cost and the cleanup for that area? 
And I know that this is a high ball figure, but this is where 
we're looking at entities that are responsible, not only to the 
Federal Government, but also the private sector that was 
involved in that has caused a lot of the contamination in the 
immediate area. What would it be for estimated costs, you know, 
if we were looking at trying to solve the problem in short 
range? And I guess we would only look at the short range 
because we don't know what the long range term would be based 
on the population because this could be ongoing. The council 
member from Rialto, Joe Baca Junior, what's your estimate of 
what that would be?
    Mr. Baca. You know, based on our attorneys' numbers, the 
total cost for the total cleanup in the City of Rialto could be 
anywhere from $100- to $300 million. But a concern is obviously 
if we keep putting on these well head treatments, it's just a 
temporary fix. I think Penny brought up a good point; unless we 
really go in there and clean the whole thing up, it's going to 
be ongoing costs. And as Robert mentioned, you know, it's about 
a million and a half per well head treatment, and anywhere from 
$300- to $500,000 per year. So it's an ongoing cost. And that's 
a concern that we're just passing these costs on to residents, 
but, you know, the estimates have been between $100- and $300 
million. Unless we really go in and clean it all up, I mean, 
the costs are just going to be ongoing.
    Mr. Baca of California. And I guess this goes for all the 
panels here, and an aggressive step for this panel and the 
other is: What we need to take, you know, from our Federal 
Government and from our committee is the kind of legislation, 
and whether it's Mrs. Solis'--Congresswoman Solis' legislation 
or other panels' legislation that basically says that we need 
to come back and really take drastic steps and look at 
solutions, not only at what we need to do now, but in terms of 
what we need to do in terms of the future to make sure that we 
have good quality of water to protect a lot of our individuals.
    The next question I would have is for, I guess, Ms. Cantu. 
What specifically could the Federal Government--it's along the 
same lines--do to support watershed protection efforts related 
to perchlorate contamination?
    Ms. Cantu. Specifically for perchlorate would be 
encouragement or requirement by the Department of Defense to 
step up and remediate and clean the contamination that they are 
responsible for. That would go far in the State of California, 
not just from this watershed, but throughout the state, to 
clean up the situation.
    Mr. Baca of California. All right. I think you know well 
that the hardest thing is for them to admit that they did it 
based on, you know, everybody's afraid of lawsuits. Once they 
admit that they've caused the problem, then there's the 
probability of lawsuits. So they never want to admit that they 
caused the problem. But at least to clean it up is very 
important.
    I know my time is just about expired, but the next question 
then I would have is for--I guess for Ms. Newman. In your 
opinion, what are the key areas for the Federal Government in 
addressing perchlorate contamination?
    Ms. Newman. I agree, the Department of Defense really needs 
to step forward, and that can only be done through, you know, 
Federal action. States don't have much power in that situation. 
But I think you can also set an example on the recognition of 
the perchlorate problem, where it is taking place, and the need 
to really move forward. And we only have one state that has set 
a standard, and that's Massachusetts at 2 parts per billion. 
That should tell the rest of the states that there is a reason 
to not have it at 6, but let's get it down.
    The evidence that is coming out is so strong. The Center 
for Disease Control study recently indicated that very small 
levels will affect human beings. We can't afford to sit back 
and wait for dead bodies and then the epidemiological studies. 
We'll have damaged populations. And so we really need to take 
an aggressive measure. And I think that many of the states are 
looking to the Federal Government to help with that and setting 
that leadership.
    Mr. Baca of California. Thank you. I know that my time is 
expired, but for the record, I'd like to state that both 
Senator Feinstein and Senator Boxer are very much concerned 
with this issue and want to take aggressive steps in trying to 
look for solutions to the problems to remedy the situation. And 
I know that they're working in conjunction with all of us 
members here in the State of California, both in the northern 
portion and the southern portion. They're looking at how we 
might remedy the situation and hopefully we can continue to 
work together.
    Mrs. Napolitano. Thank you, Congressman. One of the things 
that a lot of people, especially students in the audience, 
knows is that California--Southern California sources of water 
are from three areas; California aqueduct State Water Project 
of course, the Colorado River, and then our groundwater basins. 
And one of those goals, you are going to have horrendous impact 
for our water quality, and that's one of the reasons that the 
dam was established to indeed be able to help provide should an 
earthquake cut us off from the aqueduct and some other sources 
of water, at least we'd have some of that water.
    However, if you do not have potable water, if you don't 
recycle the water, if we don't clean up the aquifers, if we 
don't look at the perchlorate, saline and all the other 
contaminants, California's economy will drop because that 
affects where you live, the ability to deliver the water to not 
only the residents but to businesses that will provide the jobs 
and thus provide the economy. So it's a great issue, it's a big 
issue, it's a very important issue, and yes, Joe, I see your 
finger. Go ahead.
    Mr. Baca of California. Madam Chair, along the same lines, 
one of the things that we really have got to consider as we 
look at the cleanup of the perchlorate contamination and 
remediation of the water supply is global warming and the 
impact it's going to have. So that's why this becomes very 
critical right now, because as scientists and others have said, 
global warming means that we could have less water in terms of 
the future. And if we don't begin to look at cleaning this 
water, the impact it's going to have on us.
    Mrs. Napolitano. Yes, sir. And please remind the 
Administration, there is global warming.
    One of the sad facts, and I say that because I've been in 
water also for a number years, is that many of our community 
water systems, the water wells are not tied into either the 
aqueduct or to the Colorado River, and hence, cannot blend 
their water, and so they're stuck with contaminants. And we 
need to begin to look at how do we work in tandem to be able to 
help those communities develop the ability, not only to clean 
up their contaminated wells, but also to tie into other sources 
of water for the future benefit of the communities. With that, 
thank you, panel. It's been very--wait a minute. I didn't give 
you a chance, did I? I'm sorry. I keep forgetting my manners.
    Ms. Solis. Yes. A question for Penny. When you hear about 
contaminants affecting your community, do you feel that there 
are sufficient tools and information or grants that you can 
utilize to help provide that information to the community?
    Ms. Newman. No. I mean, there never is the grants for 
community-based organizations that are the most affected by 
these issues, and it's very difficult for communities to find a 
way to participate in the discussions on what the solutions 
are. And certainly the residents who are most affected know 
what the solutions are and what they should be, and they have a 
right to participate in that. As we're finding with this 
hearing that's coming up in May with the state board, we had 
applied and received authority to be a designated party in 
that. What we found is we're up against all the attorneys for 
Goodrich and Black & Decker, we don't have any attorneys.
    And so it seems very unfair that to participate in a public 
setting, that communities, and low income communities like 
ours, are hampered because they don't have access to the high-
powered attorneys. They don't have that ability to play on the 
same level. So the grants and stuff would be extremely helpful 
in gaining information, access to information, access to the 
forms in which these issues are discussed in helping to frame 
the solutions that come forward.
    Ms. Solis. I don't know if you're aware, but under the Bush 
administration, he expects to cut back on public information 
regarding sites that are--well, even chemical plants and things 
like that that may be exposing different contaminants in 
surrounding areas. And they would very much like to not have to 
publicize that. They think it's a burden on businesses. And in 
fact, they're also holding back on funding for public 
information that's made available through libraries, through 
the EPA. So I would just underscore that the public really 
needs to help send a message to this administration who 
strongly feel that those tools are being taken away that you do 
something with it. Thank you very much.
    My next question is for Mr. Wyels. And I wanted to ask you 
when will the State Department of Health Services be prepared 
to announce a final maximum of contaminant level for 
perchlorate?
    Mr. Wyels. The Department of Health Services put out a 
proposed rulemaking for public comment and concrete to close, I 
believe, in October or so 2006. So I'm expecting that they will 
be coming forward with their rule virtually any day, certainly 
within the next several months.
    Ms. Solis. So is there any reason why it's taking so long? 
It seems to be----
    Mr. Wyels. I must admit, I'm not privy to their internal 
process.
    Ms. Solis. And a follow-up question; are any financial 
assistance programs available for removing perchlorate from the 
groundwater available through state water bonds or other state 
resources?
    Mr. Wyels. The State Water Board does have some limited 
funding available for problems like perchlorate contamination. 
It's a limited amount of money. The State Water Board did, in 
fact, send several million dollars to the City of Rialto when 
the crisis first hit. I don't think the state board is in a 
position to do that again because that was fairly significant.
    Ms. Solis. So isn't there a role that the Federal 
Government can play here?
    Mr. Wyels. Absolutely.
    Ms. Solis. Perhaps provide assistance?
    Mr. Wyels. Yes.
    Ms. Solis. Or--and could you give me a sense, because 
obviously we have--we're running at deficit spending too at the 
Federal Government, but also holding responsible parties 
accountable, maybe having EPA provide more full enforcement?
    Mr. Wyels. Yes. EPA certainly is one of our main partners 
in the fight against groundwater pollution and finding 
responsible parties and having them pay for the damage they've 
caused. So I'm sure that they could use more funding, all of 
the state agencies and Federal agencies are very committed but 
very understaffed personnel trying to do this work.
    Ms. Solis. And I have one last question here. This is for 
Mr. Robert DeLoach, and it's with respect to the Metropolitan 
Water District of Southern California. I think over the past 
decade, they've added significant water supply capacity in 
anticipation of the reduction in the Colorado River supplies 
and, in response to the Delta pumping restrictions, has 
actually met their actions to help stabilize the Chino basin 
supplies.
    Mr. Deloach. Well, I think most of what you'll hear about 
Metropolitan doing will be related to the Colorado River, the 
Imperial Valley and mining the All American Canal and issues 
such as that. That's the Colorado River system. The State Water 
Project system, as the Congressman is well aware, developed the 
Diamond Valley Lake for emergency purposes only. We hear from 
time to time that there are discussions that that could be used 
for short-term deliveries to offset demands. I'm not aware that 
anything is done specifically for the Chino basin, although 
with aging infrastructure, we're seeing more and more 
opportunities for catastrophic, if you will, breakdowns in that 
system. We're going to be shut down for nine days starting next 
week as a result of a portion of the line becoming almost 
inoperable.
    So those types of things we're going to be faced with more 
and more every year, and that will greatly curtail, if not 
eliminate imported water for a short duration and period of 
time.
    Ms. Solis. Thank you.
    Mrs. Napolitano. Thank you. There's some real heavy duty 
stuff coming our way, the pumps being reduced. If we have 
drought, continuing the drought cycle that we're in, if we have 
contamination of aquifers, I mean, this whole area--and I'm 
talking Southern California, just in this area, is going to 
find themselves in a lot of water shortage problems. And just 
as a last question to Mr. Wyels, given the fact that there was 
just a water bond passed, how are we not looking at using some 
of that funding to be able to help address the issue of 
perchlorate?
    Mr. Wyels. Actually, that's not an area that I work in, so 
I couldn't give you a very direct answer to how the money's 
being used. I do know some of it's available through the 
resource agency in California and other dollars are available 
through California Environmental Protection Agency. But I 
couldn't tell you more. There may be some people at the table 
who do have some more about----
    Mrs. Napolitano. OK. We'll look forward to getting some of 
those answers from some of my colleagues. Assemblywoman Wolk 
was Chair of Parks, Water, and Wildlife and working with us, 
and we'll hopefully be able to work in tandem to help bring 
some of the funding--match funding.
    Thank you, panel. Thank you for your presentations and for 
your being so kind in sitting through the round of questions 
and for your involvement. And I'd like to now move forward to 
the second panel.
    I would like to welcome Brad Coffey, Water Treatment 
Section Manager of the Metropolitan Water District in Los 
Angeles, Anthony Araiza, General Manager-Secretary of West 
Valley Water District in Rialto, Bob Martin, General Manager, 
East Valley Water District, Highland, and Michael Whitehead, 
Board Member, San Gabriel Basin Water Quality Authority in West 
Covina. And Dr. Robert Krieger, Personal Chemical Exposure 
Program, Department of Entomology, University of California, 
Riverside will be submitting written testimony for the record. 
And welcome, panel, and we will begin this round with Mr. Brad 
Coffey, Water Treatment Section Manager of Met.

  STATEMENT OF BRAD COFFEY, WATER TREATMENT SECTION MANAGER, 
      METROPOLITAN WATER DISTRICT, LOS ANGELES, CALIFORNIA

    Mr. Coffey. Thank you. On behalf of the Metropolitan Water 
District of Southern California, I wish to thank the committee 
for the opportunity to appear before you.
    In 2006, the California Department of Health Services 
proposed a maximum contaminant level for perchlorate at 6 parts 
per billion. We expect a final maximum contaminant level this 
year. Metropolitan Water District is the nation's largest 
provider of treated drinking water. We import from the Colorado 
River and Northern California through the State Water Project. 
Metropolitan delivers on average more than one and a half 
billion gallons of water every day to its 26 customers known as 
member agencies. Those agencies, in turn, sell that water to 
more than 300 subagencies or directly to consumers. In all, 
over 18 million Southern Californians rely on Metropolitan for 
some of or all of their water supply.
    Water volumes in California are frequently expressed as 
acre feet, an agricultural term for the amount of water needed 
to cover one acre with water one foot deep. That is 326,000 
gallons. Translated to domestic use, one acre foot of water 
provides the yearly water needs for two families. Regional 
groundwater basins yield approximately 1.4 million acre feet of 
water per year, which is roughly 90 percent of the local 
supplies to Southern California. Most of this is recharged 
naturally, but about 200,000 acre feet per year of this 
groundwater is replenished through imported supplies.
    One consequence of perchlorate in local drinking water 
wells is increased demands for deliveries from Metropolitan, 
either to offset local lost production or to blend down higher 
concentrations of perchlorate. To assess these effects, 
Metropolitan conducted a reconnaissance-level survey of its 
agencies to determine the potential impact of the proposed 
perchlorate standard. The findings are as follows: 62 percent 
of Metropolitan's member agencies have detected perchlorate in 
243 drinking water wells in the region. Importantly, 42 percent 
of those agencies have detected perchlorate higher than the 
proposed maximum contaminant level of 6 parts per billion.
    Agencies have reported shutting down about five percent of 
their groundwater sources, that is 40 wells out of 
approximately 800, due to perchlorate contamination and have 
lost at least 70,000 acre feet per year of groundwater 
production. The affected agencies have also had to increase 
their purchase of imported water supplies for blending. 
Metropolitan began a perchlorate investigation in June of 1997, 
once it was detected in the Colorado River aqueduct. Extensive 
water test sampling showed that perchlorate entered the River 
at the Las Vegas wash near Henderson, and the contamination 
source was identified as Kerr-McGee, a chemical manufacturer in 
Henderson, Nevada.
    The physical and chemical nature of the perchlorate ion 
precludes the effectiveness of typical groundwater treatment 
technologies. The optimum technology depends on the perchlorate 
concentration, presence in concentration of co-contaminants, 
and other water quality parameters. Compared to the operations 
and maintenance cost of groundwater from a typical domestic 
well, which is about $125 per acre foot, perchlorate treatment 
can increase the cost five-fold. Thus, treatment options are 
available to cover groundwater supplies contaminated with 
perchlorate; however, it's difficult to predict whether 
treatment will be pursued to recover all lost production since 
local agencies will decide based largely on costs, ability to 
identify potentially responsible parties for cleanup, and 
availability of alternative supplies.
    Metropolitan responded to perchlorate within our state 
admission to provide the service area with adequate and 
reliable supplies of high quality water. I'll briefly describe 
these efforts. First, the cleanup at Henderson Nevada. Once 
perchlorate was detected in the Colorado River, Metropolitan 
worked with local state and Federal agencies to advocate for a 
rapid and complete cleanup at Henderson. Remediation began in 
1998 and will continue for decades. As a result of the cleanup, 
perchlorate entering the River has been reduced by 85 percent.
    Metropolitan also uses integrated resources planning to 
ensure adequate and reliable supplies to its service area. One 
strategy is for us to store imported water during wet years in 
groundwater basins for use during subsequent dry years. To make 
this strategy feasible in groundwater basins with perchlorate 
contamination, Metropolitan has funded treatment to ensure the 
stored groundwater can be used. Groundwater recovery projects, 
another integrated resources planned strategy, produced new 
water through treatment technologies that removed undesirable 
constituents.
    In some cases, local agencies are reluctant to make the 
capital investments necessary to recover the degraded water. In 
this program, agencies may seek financial assistance from 
Metropolitan to offset the cost to the extent that recovering 
the water has a regional benefit. In summary, perchlorate 
contamination of local groundwater basins remains a serious 
threat to local water supplies. Some agencies, particularly 
those who rely heavily on groundwater or are not within 
Metropolitan's service area, find that mitigation for 
perchlorate, though technically feasible, induces a large 
financial burden.
    The Metropolitan Water District, through its regional 
approach to water supply planning, has helped to mitigate the 
issue by advocating for rapid cleanup of the Colorado River, by 
planning for water quality uncertainties, and by funding local 
groundwater projects. While our actions detailed here have 
reduced the regional water supply affected by perchlorate, the 
traditional supplies of communities are still threatened. We're 
encouraged by the community's interest in perchlorate and 
recognize that much work remains to be done. Thank you.
    [The prepared statement of Brad Coffey follows:]

      Statement of Brad Coffey, Water Treatment Section Manager, 
           Metropolitan Water District of Southern California

    On behalf of the Metropolitan Water District of Southern California 
(Metropolitan), I wish to thank Chair Napolitano, Representative Baca, 
and Representative Solis of the Subcommittee on Water and Power for the 
opportunity to appear before you this morning. My name is Brad Coffey, 
and I serve as the Water Treatment Manager for Metropolitan.
Perchlorate Background
    Ammonium perchlorate is used as a main component in solid rocket 
propellant, and is also found in some types of munitions and fireworks. 
Ammonium perchlorate quickly dissolves and becomes highly mobile in 
groundwater. Unlike many other groundwater contaminants, perchlorate 
neither readily interacts with the soil matrix nor degrades in the 
environment. The primary human health concern related to perchlorate is 
its effects on the thyroid. Perchlorate interferes with the thyroid's 
ability to produce hormones required for normal growth and development. 
In 2006, the California Department of Health Services proposed a 
maximum contaminant level for perchlorate at 6 micrograms per liter 
(mg/L) or parts per billion (ppb), which is equal to the California 
Office of Environmental Health Hazard Assessment's public health goal. 
The public health goal is the concentration that does not pose any 
significant risk to health. A final maximum contaminant level is 
expected in 2007.
Metropolitan Background and Regional Water Supply
    Metropolitan is the nation's largest provider of treated drinking 
water. Each day during a normal year, the district moves more than 1.5 
billion gallons of water through its distribution system, delivering 
supplies to 26 member agencies. Those agencies, in turn, sell that 
water to more than 300 sub-agencies or directly to consumers. In all, 
over 18 million Southern Californians rely on Metropolitan for some or 
all of the water they use in their homes and businesses. These people 
live within Metropolitan's six-county service area, which encompasses 
5,200 square miles in Los Angeles, Orange, Riverside, San Bernardino, 
San Diego and Ventura counties.
    Metropolitan imports water from the Colorado River and Northern 
California through the State Water Project. Metropolitan's member 
agencies then deliver to their customers a combination of local 
groundwater, local surface water, recycled water, and imported water 
purchased from Metropolitan. For some, Metropolitan supplies all the 
water used within that agency's service area, while others obtain 
varying amounts of water from Metropolitan to supplement local 
supplies.
    Metropolitan typically provides between 45 and 60 percent of the 
municipal, industrial, and agricultural water used in its service area. 
The remaining water supply comes from local wells, local surface water, 
recycling, and from the city of Los Angeles' aqueduct from the eastern 
Sierra Nevada.
Perchlorate Discovery
    Metropolitan began monitoring for perchlorate in June 1997 when it 
was detected in the Colorado River Aqueduct. Extensive sampling within 
the Colorado River watershed in July and August of the same year 
indicated that the perchlorate originated in the Las Vegas Wash, and 
the most likely source was the Kerr-McGee (now TRONOX) chemical 
manufacturing site located in Henderson, Nevada.
    Perchlorate levels in Colorado River water at Lake Havasu peaked at 
9 ppb in May 1998; however, concentrations have decreased significantly 
in recent years as a result of aggressive clean-up efforts at 
Henderson, Nevada. Since October 2002, perchlorate concentrations at 
Lake Havasu have remained less than the proposed standard of 6 ppb, and 
the concentration has been consistently non-detectable (less than 2 
ppb) since June 2006.
    No detectable amount of perchlorate was ever found in the State 
Water Project system.
Effect on Local Supplies
    Water volumes in California are frequently expressed as acre-feet, 
an agricultural term for the amount of water needed to cover one acre 
with water one foot deep (326,000 gallons). Translated to domestic use, 
one acre-ft of water provides the yearly water needs for two families.
    Regional groundwater basins yield approximately 1.4 million acre-
ft/year, which accounts for 90 percent of Southern California's local 
supplies. Most of this usage recharges naturally, but approximately 
200,000 acre-ft/year are replenished through imported Colorado River 
and State Water project supplies.
    Perchlorate in local groundwater basins originates largely from 
local sources. The vast majority (approximately 90 percent) of 
locations where perchlorate has been detected in the groundwater are 
associated with the manufacturing or testing of solid rocket fuels for 
the Department of Defense and the National Aeronautics and Space 
Administration, or with the manufacture, storage, handling, or disposal 
of perchlorate. Past agricultural practices using fertilizers laden 
with naturally occurring perchlorate have also been implicated in some 
areas.
    One consequence of perchlorate in local drinking water wells is 
increased demand for deliveries from Metropolitan, either to off-set 
lost production or to blend down higher concentrations of perchlorate. 
To assess these effects, Metropolitan conducted a reconnaissance-level 
survey of its member and retail agencies to determine the potential 
impact of a perchlorate standard of 6 ppb. Sixteen (62 percent) out of 
Metropolitan's 26 member agencies and 32 (18 percent) out of 173 
retail/contracting agencies have detected perchlorate in 243 drinking 
water wells. The survey indicates that 11 (42 percent) of the member 
agencies and 27 (16 percent) of the retail/contracting agencies have 
perchlorate detections higher than 6 ppb. While two agencies detected 
perchlorate in the range of 100-300 ppb, more than 60 percent of the 
agencies detected perchlorate at less than 10 ppb.
    These agencies reported shutting down approximately five percent of 
their groundwater sources (40 wells out of 819) due to perchlorate 
contamination and lost at least 70,000 acre-ft/year of groundwater 
production. Affected agencies also had to increase their purchase of 
imported supplies for blending. In the longer term, many of these 
agencies are considering various options for removing or reducing 
perchlorate concentrations, including blending and treatment, to 
recover some or all of lost production.
Available Treatment Technologies
    The physical and chemical nature of the perchlorate ion precludes 
the effectiveness of typical groundwater treatment technologies such as 
air stripping, carbon adsorption, or ultraviolet light oxidation. 
Perchlorate treatment technologies may be classified into two main 
categories of destructive or removal technologies. The main destructive 
process is biological reduction, which can be accomplished either 
within the soil formation (in-situ) or at a pump-and-treat facility 
(ex-situ). Typical physical removal processes include ion exchange, 
membrane filtration (including reverse osmosis and nanofiltration), and 
electrodialysis. Physical removal processes all require subsequent 
disposal of removed perchlorate.
    The optimum treatment technology depends on the perchlorate 
concentration, the presence and concentration of co-contaminants, and 
other water quality parameters. For example, nitrate--which is also 
widely present in the region--influences the perchlorate treatability 
because of its similar chemical structure and its occurrence at 
concentrations thousands of times greater than perchlorate. For 
biological destruction of perchlorate contamination within the 
groundwater formation, site-specific hydrogeologic conditions such as 
depth, soil permeability, and groundwater flow velocity are also 
important.
    In general, biological destruction is less expensive than physical 
removal processes. For example, the cost of ex-situ biological 
reduction is approximately $100/acre-ft for a low-nitrate site and 
$400/acre-ft for a higher nitrate site. In contrast, ion exchange 
ranges from $150/acre-ft to greater than $500/acre-ft. Compared to the 
operations and maintenance cost of groundwater from a typical domestic 
well ($125/acre-ft), perchlorate treatment can increase the cost five-
fold.
    Thus, treatment options are available to recover groundwater 
supplies contaminated with perchlorate. However, it is impossible to 
predict whether treatment will be pursued to recover all lost 
production since local agencies will make those decisions based largely 
on cost considerations, ability to identify potentially responsible 
parties for cleanup, and the availability of alternative supplies.
Metropolitan's Response
    Metropolitan's mission to provide its service area with adequate 
and reliable supplies of high-quality water resulted in a number of 
related efforts that mitigate the impact of perchlorate contamination 
in the region. These efforts are described below.
    Henderson, Nevada, Cleanup. Once perchlorate was detected in the 
Colorado River in 1997, Metropolitan began working with the U.S. 
Environmental Protection Agency, the Nevada Department of Environmental 
Protection, and the Southern Nevada Water Authority to advocate for a 
rapid and complete cleanup of perchlorate at the Henderson, Nevada 
site. Remediation activities began in 1998 and will continue for 
decades. As a result of the cleanup, the mass loading of perchlorate 
entering the Colorado River has been reduced by 80-85 percent and 
perchlorate has not been detected in Colorado River water at 
concentrations greater than 2 ppb since June 2006. Thus, the public 
health implications are reduced and less water is required by the 
agencies for blending down local contributions of perchlorate.
    Perchlorate Action Plan. In January 2002, the U.S. Environmental 
Protection Agency released a draft risk assessment for perchlorate that 
led to the eventual public health goal and draft maximum contaminant 
level for perchlorate of 6 ppb. In June 2002, Metropolitan responded by 
initiating Perchlorate Action Plan to comprehensively address 
perchlorate. Elements of the plan included: monitoring, resource 
assessment, tracking health effects studies, tracking remediation 
efforts, modeling, legislative and regulatory strategies, and outreach 
activities.
    Groundwater Conjunctive Use. One of the strategies employed by 
Metropolitan's Integrated Resources Planning is storage of surplus 
water available during wet years in groundwater basins for use during 
water supply shortages. The target for this dry-year conjunctive use is 
300,000 acre-ft/year of water supply by 2020. To make this strategy 
feasible in a number of groundwater basins with perchlorate 
contamination, Metropolitan has funded ion exchange treatment to ensure 
that stored groundwater can be pumped and used for municipal water 
supply. Metropolitan has invested nearly $100 million in groundwater 
conjunctive use projects within its service area in partnership with 
its member agencies and groundwater basin managers
    Groundwater Recovery. Groundwater recovery projects use a variety 
of treatment technologies to remove undesirable constituents such as 
nitrates, volatile organic chemicals, perchlorate, color and salt. In 
many cases, expensive processes are required, and agencies are 
reluctant to make the capital investments necessary to recover the 
degraded water. In those cases, agencies typically seek financial 
assistance to offset costs to the extent that recovering degraded water 
has a regional benefit. Once treated, however, recovered groundwater 
may be delivered to potable water systems.
    Metropolitan currently funds recycling and groundwater recovery 
projects through the Local Resources Program. The Local Resources 
Program is a performance-based incentive program instrumental in 
helping the region implement local resource targets. Metropolitan has 
invested over $121 million and partnered with member agencies on dozens 
of recycling groundwater recovery projects.
Summary
    Perchlorate contamination of local groundwater basins remains a 
serious threat to local water supplies. Some agencies, particularly 
those who rely heavily on groundwater or are not within Metropolitan's 
service area, find that mitigation for perchlorate--though technically 
feasible--induces a large financial burden. The Metropolitan Water 
District, through its regional approach to water supply planning has 
helped to mitigate the perchlorate issue by advocating for rapid 
cleanup of the Colorado River, planning for water quality 
uncertainties, and funding local groundwater recovery projects. Though 
much work remains to be done, the supply impacts from perchlorate 
contamination have been planned for or addressed to minimize the threat 
to the region's overall supply.
                                 ______
                                 
    Mrs. Napolitano. Thank you, Mr. Coffey.
    Next we have Anthony Araiza, Manager-Secretary of the West 
Valley Water District in Rialto.

 STATEMENT OF ANTHONY W. ARAIZA, GENERAL MANAGER, WEST VALLEY 
               WATER DISTRICT, RIALTO, CALIFORNIA

    Mr. Araiza. Thank you, Madam Chair, members of the 
committee. I'm here today to discuss a groundwater pollution 
crisis that is threatening public health, environment, water 
supplies, and general economic growth of a significant segment 
of the Inland Empire. West Valley is one of four water 
purveyors in the affected region. The other three water 
purveyors include Fontana Water Company and the cities of 
Rialto and Colton. Fontana Water Company is regulated by the 
California Public Utilities--regulated by the Public Utility 
Commission, and Rialto and Colton are governed by city 
charters. West Valley is an independent special district that 
has an elected board of directors.
    The pollution which is polluting the groundwater aquifers 
on which West Valley and other area water providers rely 
presents an imminent and substantial endangerment to health and 
the environment. Due to the crisis, the citizens of the 
affected area are paying for enormous costs associated with the 
investigation and cleanup of pollution. Most of these citizens 
are hardworking, blue-collar families that should not have to 
do this, and do not have the ability to pay for such expensive 
investigation and cleanup. Unfortunately, as I describe later 
in my testimony, neither the Federal Government or the state 
regulatory agencies responsible for investigating and directing 
cleanup of this pollution crisis have taken any action which 
may resolve this decade-old problem.
    I have personally been involved in responding to the 
contamination since we first learned of it. Regrettably, as is 
evident from the lack of progress in this last decade, the 
regulatory agencies charged with responsibility for overseeing 
the crisis including the U.S. EPA have been absent and have 
simply failed to bring a solution to the problem. Part of this 
reason for the ineffective response may be a lack of creating 
new strategies to deal with a complex issue involved in my 
area, which includes over 60 years of operations of dozens of 
responsible parties covering a fairly wide geographic area.
    Modern times require new ways of approaching serious 
problems. However, instead of smart and creative problem 
solving, I have witnessed firsthand bureaucratic and legal 
roadblocks to finding a solution. West Valley's assessment is 
that this matter needs the immediate and close attention of the 
Federal Government, and specifically the U.S. EPA, to bring 
about the changes to the investigation process so that the 
rational, reasonable solution is identified, pursued, and 
achieved very soon. I base this assessment on my personal 
experience with the California regulatory agencies currently 
involved and my knowledge of what U.S. EPA has been able to 
accomplish in other areas where groundwater supplies have been 
severely polluted.
    The perchlorate pollution has forced West Valley and other 
impacted water agencies to shut down or restrict the use of 
over 22 groundwater production wells in the area representing 
approximately 52 percent of the region's water supply. It is 
also West Valley's assessment that more groundwater production 
wells may be shut down in the near future as pollution 
continues to spread unchecked. The West Valley has purchased 
and is currently operating several perchlorate treatment 
systems. These systems include ion-exchange systems and 
biological remediation systems. The perchlorate treatment 
technologies act to strip perchlorate from drinking water 
before it is served to the customers.
    The costs associated with the perchlorate pollution and the 
related treatment technology are staggering. West Valley 
estimated costs to purchase and operate and maintain 
perchlorate treatment technologies over a ten-year period is 
approximately $35 million. This does not include investigation 
and administrative costs. The combined costs to the four 
impacted water purveyors to investigate and conduct a cleanup 
of the pollution will be in the hundreds of millions of 
dollars, which only increases by order of magnitude if the 
pollution continues unchecked. Due to these significant costs, 
it is imperative that the oversight of the investigation of the 
pollution be strong and efficient. Unfortunately, as I will 
explain further, that has not been the case in our area.
    There is not a doubt that this is a complex problem; 
however, in my opinion, the crisis is being exacerbated by a 
cumbersome bureaucratic process. Currently, the agency directly 
responsible for overseeing the investigation of the pollution 
is the Santa Ana Regional Water Quality Control Board. At one 
time, the U.S. EPA was assisting as a backup to the Regional 
Board, but in the last few years the U.S. EPA, and the many 
enforcement tools granted to it by Congress, has been 
completely absent from the picture. During the course of the 
investigation, the regional board's effectiveness has been 
limited due to a small staff and limited resources.
    Most important, through no fault of its own, the Regional 
Board structure is not suited for such a serious and complex 
enforcement case, which is managed in public hearings by a 
nine-member civilian board who naturally are often influenced 
by the local politics of their area. I have more in my 
statement, but I see my time is up. But----
    Mrs. Napolitano. Just wrap it up.
    Mr. Araiza. Basically we feel that the U.S. EPA needs to 
step in and be a more forceful tool that can be utilized in the 
cleanup of this area. We feel that the Regional Board has been 
hampered, they've been stopped by the polluters in court time 
and time again. It's costing the citizens of our local area 
millions and millions of dollars to fight these polluters, and 
the tools that U.S. EPA has need to be utilized to bring these 
people to the table.
    [The prepared statement of Anthony W. Araiza follows:]

           Statement of Anthony W. Araiza, General Manager, 
                       West Valley Water District

Introduction
    My name is Anthony Araiza and I am the General Manager and 
Secretary of the West Valley Water District. I am here today to discuss 
a groundwater pollution crisis that is threatening the public health, 
environment, water supplies and general economic growth of a 
significant segment of the Inland Empire.
    West Valley is located in the County of San Bernardino 
approximately 54 miles east of Los Angeles. West Valley is a public 
agency formed on January 8, 1952 and established under Division 12 of 
the California Water Code. Since its inception, West Valley has been 
engaged in financing, constructing, operating, maintaining and 
furnishing water service to its customers. For Fiscal Year 2005-2006, 
West Valley's service area had a population of 62,400. West Valley is 
governed by a five-member Board of Directors that is elected at large 
from the registered voters living within the water district's 
boundaries.
    West Valley is one of four water purveyors in the affected region. 
The other three water purveyors include the Fontana Water Company and 
the Cities of Rialto and Colton. Fontana Water is regulated by the 
California Public Utilities Commission and Rialto and Colton are 
governed by their city charters.
    By way of background, I have worked for West Valley for 44 years 
and have 25 years of experience in agency administration. I am directly 
responsible for overseeing the operation and maintenance of West 
Valley's drinking water supply wells. I am also responsible for 
directing all investigations and responses to incidents of chemical 
releases or pollution that impact West Valley's drinking water 
supplies, including the current perchlorate pollution problem.
    The perchlorate pollution, which is polluting the groundwater 
aquifers on which West Valley and other area water providers rely, 
presents an imminent and substantial endangerment to health and the 
environment.
    Due to this crisis, the citizens of the affected area are paying 
for the enormous costs associated with the investigation and cleanup of 
the pollution. Most of these citizens are hardworking blue-collar 
families that should not have to, and do not have the ability to pay 
for such expensive investigations and cleanup. Unfortunately, as I 
describe later in my testimony, neither the Federal nor the State 
regulatory agencies responsible for investigating and directing cleanup 
of this pollution crisis have taken any action which will resolve this 
decade old problem.
    I have been personally involved in responding to the contamination 
since we first learned of the contamination. Regrettably, as is evident 
from the lack of progress in the last decade, the regulatory agencies 
charged with responsibility for overseeing this crisis, including the 
USEPA, have been absent or have simply failed to bring about a solution 
to the problem.
    Part of the reason for this ineffective agency response may be the 
lack of creative new strategies to deal with the complex issues 
involved in my area, which includes over 60 years of operations by 
dozens of responsible parties covering a fairly wide geographic area.
    Modern times require new ways of approaching serious problems. 
However, instead of smart and creative problem solving, I have 
witnessed firsthand bureaucratic and legal roadblocks to finding a 
solution. West Valley's assessment is that this matter needs the 
immediate and close attention of the federal government, and 
specifically the USEPA, to bring about changes to the investigation 
process so that a rational, reasonable solution is identified, pursued 
and achieved, very soon. I base this assessment on my personal 
experience with the California regulatory agencies currently involved 
and my knowledge of what the USEPA has been able to accomplish in other 
areas where groundwater supplies have been severely polluted.
Extent of Pollution, Cost for Cleanup and Treatment Activities
    The perchlorate pollution has forced West Valley and the other 
impacted water agencies to shut down or restrict the use of twenty-two 
(22) groundwater production wells in the area, representing 
approximately 52% of the region's water supply. It is also West 
Valley's assessment that more groundwater production wells may need to 
be shut down in the near future as the pollution continues to spread 
unchecked.
    West Valley has purchased and is currently operating several 
perchlorate treatment systems. These systems include ion-exchange 
treatment systems and bioremediation systems. The perchlorate treatment 
technologies act to strip perchlorate from drinking water before it is 
served to customers.
    The costs associated with the perchlorate pollution and related 
treatment technologies are staggering. West Valley's estimated cost to 
purchase, operate and maintain perchlorate treatment technologies over 
a ten year period is approximately 35 million dollars. This number does 
not include investigation and administration costs. The combined costs 
to the four impacted water purveyors to investigate and conduct a 
cleanup of the pollution will be in the hundreds of millions of 
dollars, which only increases by orders of magnitude if the pollution 
continues unchecked.
    Due to these significant costs, it is imperative that the oversight 
of the investigation of the pollution be strong and efficient. 
Unfortunately, as I will explain further, that has not been the case in 
our area.
Regulatory Oversight
    There is no doubt that this is a complex problem. However, in my 
opinion, the crisis is being exacerbated by a cumbersome bureaucratic 
process. Currently, the agency directly responsible for overseeing the 
investigation of the pollution is the Santa Ana Regional Water Quality 
Control Board. At one time, the USEPA was assisting as a back up to the 
Regional Board, but in the last few years, USEPA (and the many 
enforcement tools granted to it by Congress) has been completely absent 
from the picture.
    During the course of its investigation, the Regional Board's 
effectiveness has been limited due to its small staff and limited 
resources. Most important, through no fault of its own, the Regional 
Board structure is not suited for such a serious and complex 
enforcement case, which is managed in public hearings, by nine civilian 
board members, who naturally are often influenced by the local politics 
of their area.
    The Regional Board's process is subject to challenge at multiple 
levels, whether the Regional Board acts or fails to act. Imagine the 
U.S. Attorney's Office or a local District Attorney with such an 
unwieldy, awkward and restrained ability to act.
    To be accurate, the Regional Board has issued some investigation 
orders and other directives for information. However, an objective 
review will show that for the entire time it has been investigating 
this pollution problem--at least seven years--the Regional Board has 
not pursued a comprehensive regional strategy that takes into account 
the 60 years of contamination from multiple sources where these sources 
are impacting drinking water wells miles apart.
    Instead, the Regional Board is looking at individual sources of 
contamination on a case-by-case basis. This approach leads to multiple 
distractions described below and, in my view, is not adequate and is a 
lot of motion with little tangible action. This should be self evident 
since after over so many years, the regional perchlorate contaminant 
plumes have not been assessed, nor is the extent of the contamination 
known.
    Also, I have witnessed the Regional Board's efforts being 
constantly undermined by responsible parties that are taking advantage 
of the process by challenging every step the board takes. These legal 
proceedings are causing significant delays in assessing the scope of 
the problem, all the while the pollution continues to spread. It is 
estimated that the combined legal costs to date for all parties is over 
50 million dollars.
    On top of this, just last month, the Regional Board yielded control 
of a portion of the investigation to the State Water Resources Control 
Board. In fact, the Assistant Executive Officer for the Regional Board 
told our technical consultant that Board Staff is so overwhelmed with 
the many legal proceedings involving one portion of the problem that 
until the State Water Board hearing is complete, he will take no action 
on any of the other perchlorate-related investigation activities 
currently before the Regional Board.
    My blunt assessment is that this case has reached the point where 
serious help and intervention is needed to review the situation and 
consider options to help get this under control and restore the 
public's confidence in the State's oversight and regulatory role over 
water supplies. Pressure on USEPA to re-engage and exercise their 
jurisdiction would be a good first step.
    No state agency has the enforcement capabilities or know-how to get 
the job done the way USEPA handles complex cleanup jobs. Equally 
important is the fact that USEPA is the only agency that can coordinate 
impacts on multiple regions, which this case ultimately will have. 
USEPA also should have an interest in protecting the federal funds that 
are being provided to this region. Without such help, nothing will 
change and hundreds of thousands of local citizens will continue to 
suffer the consequences of a stalled, time consuming and expensive 
effort currently underway.
Potential Regulatory Solutions
    West Valley believes there is a regulatory solution. Due to the 
complex nature of the problem, it appears timely and prudent for the 
USEPA to reengage substantially in the investigation. The USEPA has 
experience handling large, complex pollution cases such as this that 
involve and affect many entities and persons.
    More precisely, the USEPA handles many large complex cases 
throughout Southern California, including serious groundwater 
contamination problems in San Bernardino, Baldwin Park, Burbank, South 
El Monte and the San Gabriel Valley operable units. To date, these 
large complex USEPA-led groundwater investigations have been very 
successful. It is frustrating and somewhat disturbing that this 
pollution crisis has not received the same level of involvement from 
USEPA even though the people impacted by the pollution in the Inland 
Empire are of limited economic means and less political means to help 
protect their interests.
    In this case, if USEPA had a greater role in the investigation, if 
not a lead agency status, it could engage all responsible parties in a 
manner apparently not available to the Regional Board. The Regional 
Board, which, as you know, is a political body, can only act when it 
meets and it must act at regularly scheduled meetings which requires 
compliance with the California Brown Act and usually involves other 
cumbersome procedures. This process naturally makes the investigation 
very slow moving and it is hard for the Regional Board to take decisive 
action and react to changes in circumstances.
    As I have explained in my testimony today, the parties involved in 
this case have witnessed several responsible parties using 
administrative procedures to delay resolution while continuing to push 
off indefinitely their own liability. If the USEPA were more heavily 
involved or simply put in charge, it would not need to wait for 
regularly scheduled hearings or follow time consuming administrative 
procedures which doe not get to the substance of the problem, let alone 
a solution.
    To be very clear, I believe the USEPA, with the assistance of state 
regulatory agencies, could begin immediate talks with all parties about 
how to identify the scope of and deal with the problem. Such 
flexibility will dramatically decrease the time and costs associated 
with investigating the pollution and lead to solutions in a greatly 
reduced time frame.
    In sum, the current lead agency regulators must continue the 
investigation with the resources available and consider additional 
enforcement tools which are available. Most importantly, the USEPA must 
step forward and take over the matter, or, at least, become involved in 
supervising the characterization of the contamination and its ultimate 
cleanup before it is too late and the contamination spreads to dozens 
more wells and impacts thousands more lives.
Conclusion
    In conclusion, the perchlorate pollution in the Inland Empire is a 
water pollution crisis. There is urgent need for the USEPA to step in 
and develop and manage a regulatory approach that is not subject to 
constant legal challenge and also looks at the regional problem as a 
whole.
    Thank you for the opportunity to appear before you today and I am 
available to answer any questions.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir. I appreciate your 
testimony.
    Mr. Bob Martin, General Manager, East Valley Water District 
in Highland.

  STATEMENT OF BOB MARTIN, GENERAL MANAGER, EAST VALLEY WATER 
                 DISTRICT, HIGHLAND. CALIFORNIA

    Mr. Martin. Thank you. Madam Chairwoman, members of the 
Subcommittee. I want to thank you for holding this field 
hearing this morning. The timing of this hearing is significant 
because all of us began hearing about the perchlorate problem 
in our drinking water supply almost ten years ago. It was 
around Memorial Day of 1997. During these ensuing years, we 
have all struggled with this issue, first because there was no 
proven way to remove perchlorate from our drinking water 
supplies, and then we're dealing with the enormous cost now 
associated with constructing and operating perchlorate removal 
facilities.
    My district was involved in much of the preliminary 
research involving treatment technologies and it has sponsored 
four national conferences over the past seven years where we 
have brought stakeholders from local state and Federal sectors 
together to better understand this challenge. I might add that 
we're also going to be sponsoring a conference next year to 
continue this effort. As the State of California prepares to 
issue a final MCL for perchlorate, I hope that the Congress, 
under the leadership of your subcommittee, can move forward 
with new local and Federal partnerships that will help us to 
address the issue of how to treat and remove perchlorate from 
our drinking water supply without overly burdening our 
customers with water bills they cannot pay.
    All of us at the witness table face the challenge of 
removing perchlorate from our drinking water supplies. But the 
nature of this challenge does and can differ from each 
location. In the East Valley Water District, our needs are met 
primarily by groundwater from the Bunker Hill groundwater 
basin, from which we draw about 80 percent of our water supply. 
The remaining 20 percent comes from the Santa Ana River which 
originates in the San Bernardino mountains.
    In approximately 2001, a series of our well tests confirmed 
that East Valley Water District did indeed have perchlorate in 
our drinking water supply, and we tested positive in eight of 
our 21 wells. I did have a contact level of perchlorate at 
levels ranging anywhere from 4 parts per billion up to 16 parts 
per billion. Based upon our investigations, though, we can find 
no indication that our service area has been the location of a 
defense-related facility or of a private sector facility. Based 
upon research conducted by our Regional Water Quality Control 
Board, that's the Santa Ana region, we have concluded that our 
perchlorate problem can be traced back to the fertilizer that 
was earlier mentioned that was brought in from South America 
during the early part of the 20th century. It was used on 
orange groves and crops that are now part of our service area.
    Since these deliveries were made generations ago and land 
ownership has changed, often many times, we see little hope in 
securing funding help from principal responsible parties. This 
means that the customers of my district will have to bear the 
cost of building and operating complex perchlorate treatment 
systems. When we found perchlorate in our drinking water 
supply, the next question to answer was whether the U.S. EPA or 
the State of California might respond by setting a standard for 
perchlorate and what that standard might be. East Valley has 
closely participated in the Federal and state dialogue with 
regard to this issue over the past several years since many 
millions of dollars of capital costs will be depended upon what 
that standard will say.
    When it became apparent that the State of California would 
proceed with an MCL, my board began committing itself to 
financing, design, and construction of treatment facilities 
that would allow us to meet this pending MCL. But I must tell 
you that removing perchlorate from our drinking water supply is 
going to represent the single most costly project the agency 
has ever undertaken. We estimate that the design and 
construction of the necessary treatment facilities will require 
us to spend an initial $50- to $60 million with many years of 
additional operation and maintenance costs to follow.
    Many of our customers are on fixed or limited incomes, and 
considering the improbability of identifying the PRP, the 
result will be these customers will have to bear the full costs 
of treatment. This initial capital outlay alone could add $15 
to $20 per month to a typical customer's water bill. This, 
indeed, will be a very heavy burden for many of the people that 
we serve and may be expected to only increase over the years 
because of the high O&M costs associated with perchlorate.
    It is our hope in East Valley that we can work with this 
committee, our local water agency colleagues, and our 
congressional delegation to expand on the work that you've 
already done and create a perchlorate cleanup partnership which 
will allow us to cooperate together and assure the safety of 
our drinking water supply. We at East Valley cannot trace our 
perchlorate contamination to the activities of the Federal 
Government or other contractors, but we have the same 
responsibility to serve safe water to our customers and to do 
so under arrangements that they can afford.
    We believe that when a drinking water supply or--we believe 
that a local and Federal cleanup partnership would be of great 
benefit to people we serve, and I urge you to continue to 
pursue authorizations and appropriations that would make such a 
partnership a reality.
    Thank you.
    [The prepared statement of Bob Martin follows:]

          Statement of Robert Martin, P.E., General Manager, 
                       East Valley Water District

    Madam Chairwoman, Congressman Baca, Congresswoman Solis, and 
Members of the Water and Power Subcommittee, I am Robert Martin, 
General Manager of the East Valley Water District in San Bernardino. 
Thank you for holding this field hearing today. I know that I am joined 
by all of my water colleagues at the witness table and all of those in 
the Inland Empire in expressing our deep appreciation for the interest 
and the leadership that this Subcommittee has shown with regard to the 
challenges we all face in securing the water resources needed for the 
future of our region and throughout the West. The timing of this 
hearing is significant because all of us began hearing about 
perchlorate in our drinking water supply almost ten years ago, around 
Memorial Day of 1997. During these ensuing years, we have all struggled 
with this issue, first because there was no proven way to remove 
perchlorate from drinking water, and then with the enormous costs 
associated with constructing and operating perchlorate removal 
facilities. The East Valley Water District has sponsored four national 
conferences over the past seven years bringing stakeholders from the 
local, state, and federal sectors together to better understand the 
nature of this challenge. As the State of California prepares to issue 
a final MCL for perchlorate, I hope that the Congress, under the 
leadership of your Subcommittee, can move forward with new local/
federal partnerships that will help us to address the issue of how to 
treat and remove perchlorate from our drinking water without overly 
burdening our customers with water bills which they cannot afford to 
pay.
    All of us at the witness table face the challenge of removing 
perchlorate from our drinking water supplies. But the nature of this 
challenge can differ with each location. The problems that my agency 
faces with perchlorate may be traced back to the changing pattern of 
land use in our service area over the past hundred years. When the East 
Valley Water District was founded in 1954, much of our nearly 33 square 
mile service area in the eastern part of the San Bernardino Valley were 
orange groves. Over the years, with the creation of the City of 
Highland and the rapid urbanization of our region, we have grown to 
where we serve the water and wastewater needs of approximately 70,000 
customers. This number continues to grow as housing tracts replace most 
of the remaining orange groves in the easternmost portion of our 
service area. Our needs are met by groundwater from the Bunker Hill 
Basin from which we draw about 80% of our water supply with the 
remaining 20% coming from surface water that originates in the San 
Bernardino Mountains.
    Both our groundwater and our surface water supply have always been 
considered to be of high quality. We have watched as our colleague 
agencies in the region have wrestled with perchlorate contamination 
that has been traced to a number of sources, frequently associated with 
defense, or defense contractor facilities or even private sector 
facilities such as fireworks manufacturers. Then, in 2001, a series of 
well tests confirmed that East Valley Water District had perchlorate in 
8 of our 21 wells at levels ranging from 4 parts per billion (ppb) to 
16 parts per billion (ppb). Based upon our investigations, we can find 
no indication that our service area has been the location for a defense 
related facility or of a private sector facility. Based upon research 
conducted by our regional water quality control board (Santa Ana 
Region), we have concluded that our perchlorate problem can be traced 
back to fertilizer brought in from South America in the early 20th 
century and used on orange groves that are now part of our service 
area. Since these deliveries were made generations ago and land 
ownership has changed, often many times, there is little hope of our 
securing funding help from principal responsible parties. This means 
that the customers of the East Valley Water District will have to bear 
the cost of building and operating complex perchlorate treatment 
systems.
    When we found perchlorate in our drinking water supply, the next 
question to answer was whether the USEPA and the State of California 
might respond by setting an MCL for perchlorate and what that MCL might 
be. East Valley has closely participated in the federal and the state 
dialogue with regard to this issue over the past several years since 
many millions of dollars of capital costs at our utility depended upon 
the standards set by our Federal and State regulators. When it became 
apparent that the State of California would proceed with an MCL, and 
when we received guidance with regard to what this might be, my Board 
began committing itself to financing, design, and construction of the 
treatment facilities that would allow us to meet the California 
perchlorate MCL. Our East Valley mission statement calls on us ``to 
provide our customers with a safe and reliable water supply that is 
delivered at a fair and cost effective price'' and we are fully 
committed to meeting that high standard.
    But I must tell you that removing perchlorate from our drinking 
water supply represents the most costly single action that my agency 
has ever undertaken. We estimate that design and construction of the 
necessary treatment facilities will require us to spend an initial $50-
60 million with many years of additional Operations and Maintenance 
(O&M) costs to follow. Many of our customers are on fixed or limited 
incomes. Considering the improbability of our identifying a PRP, the 
result will be that these customers will have to bear the full cost of 
treatment. This initial capital outlay alone could add $15-$20 per 
month to a typical customer's water bill. This will be a very heavy 
burden for many of the people that we serve and this burden may be 
expected to increase over the years because of the high O&M costs 
associated with Perchlorate treatment.
    We have followed with interest and deep appreciation the efforts of 
Congressman Baca and Senator Feinstein to secure passage of the 
California Perchlorate Contamination Remediation Act in the 109th 
Congress. We also deeply appreciate the leadership of you, Chairwoman 
Napolitano and the Water and Power Subcommittee with regard to this 
issue. You have all helped to give voice to the fact that our region, 
our State, and our nation cannot prosper without the assurance of an 
adequate, safe, and affordable water supply. In the past, these sorts 
of major challenges have been met through the creation of local/federal 
partnerships. It is our hope at East Valley that we can work with this 
Committee, our local water agency colleagues, and our Congressional 
delegation to expand on the work that you have already done and create 
a perchlorate cleanup partnership which will allow us to cooperate 
together and assure the safety of our drinking water supply. We at East 
Valley cannot trace our perchlorate contamination to the activities of 
the federal government, federal contractors, or entities completely in 
the private sector. But we have the same responsibility to serve safe 
drinking water to our customers and to do so under arrangements that 
they can afford. We believe that when a drinking water supply is 
secured that the entire nation benefits. A local/federal cleanup 
partnership would be of great benefit to the people we serve and we 
urge you to continue to pursue authorizations and appropriations that 
would make such a partnership a reality.
                                 ______
                                 
    Mrs. Napolitano. Thank you, sir. I appreciate your 
testimony.
    Mr. Michael Whitehead, Board Member, San Gabriel Basin 
Water Quality Authority, West Covina. Thank you for being here, 
sir.

STATEMENT OF MICHAEL WHITEHEAD, BOARD MEMBER, SAN GABRIEL BASIN 
        WATER QUALITY AUTHORITY, WEST COVINA, CALIFORNIA

    Mr. Whitehead. Thank you, Madam Chairman, members of the 
committee. I've submitted fairly detailed prepared testimony 
and remarks with a good deal of factual information, and if it 
is acceptable to you, I'll submit on that. But I would like to 
add a few observations about that, and in particular with 
respect to the San Gabriel Valley where I spent the last 30 
years of my life managing water systems and water supplies.
    Mrs. Napolitano. We'll accept that for the record.
    Mr. Whitehead. Thank you. I spent 30 years of my life 
dealing with water supplies in the San Gabriel Valley, and the 
good news in the San Gabriel Valley is that we have this vast 
underground aquifer which supplies and is capable of supplying 
over a million people that live and work in the San Gabriel 
Valley from local groundwater supplies--a local, abundant, 
renewable, sustainable water supply. That's the good news. The 
bad news is that much of it is polluted, polluted so much, in 
fact, that the U.S. EPA named it a Federal Superfund site years 
ago and set about, I think, observantly or affirmatively doing 
something about that. But even so, that took a long time. And 
the state legislature formed the San Gabriel Basin Water 
Quality Authority specifically for the purpose of addressing 
groundwater contamination in the Valley.
    And we've gotten a good start on that. We've had your 
support and the support of the entire San Gabriel Valley 
delegation. Also Mr. Baca has been very influential in 
supporting our efforts in getting the Federal Government to 
step up and take responsibility for this long and unfortunate 
legacy of Cold War Era defense-related discharges into the 
aquifer that's contaminated this rich, abundant, local, 
renewable supply. It has bedeviled us. The perchlorate problem, 
as my colleagues have mentioned, is extraordinarily difficult 
to deal with, very expensive to deal with. It is, in my 
estimation, extraordinarily unfortunate that our public 
officials have failed to take a stand on what the drinking 
water standard ought to be.
    This contaminant has been known to be out there for more 
than ten years, and as a manager in the water supply industry, 
it is imperative that we have standards, that we have standards 
that we can design water systems to comply with. And quite 
frankly, the lack of a standard has left us with our hand out 
to the Department of Defense, which routinely brushes it aside 
saying, ``A little bit of perchlorate never hurt anybody.'' But 
the fact of the matter is perchlorate represents a clear and 
present public health and safety crisis and has to be 
addressed. And with your support, support you've given the San 
Gabriel Basin Groundwater Restoration Fund and our efforts to 
increase the authorization there, we are extraordinarily 
grateful for your leadership and support on that.
    I'd like to yield whatever time I have remaining. My 
colleagues from the Authority have a very brief video clip that 
was broadcast on public television recently that describes a 
near catastrophic problem with perchlorate in the City of 
Monterey Park that was aided immensely by the funding that was 
provided through your efforts.
    [The prepared statement of Michael Whitehead follows:]

        Statement of Michael L. Whitehead, Director of the San 
                 Gabriel Basin Water Quality Authority

    Good morning, Madam Chairwoman, Committee members, and staff. My 
name is Michael Whitehead and I am a member of the Board of Directors 
of the San Gabriel Basin Water Quality Authority. Let me express my 
appreciation to Congresswoman Grace F. Napolitano, Congressman David 
Dreier, Congresswoman Hilda Solis, Congressman Adam Schiff, 
Congresswoman Lucille Roybal-Allard, and Congressman Gary Miller for 
their unwavering support and efforts in helping to restore the San 
Gabriel Groundwater Basin.
    The San Gabriel Basin underlies 167 square miles of the San Gabriel 
Valley. The San Gabriel Basin holds hundreds of thousands of acre-feet 
of local, renewable, public drinking water supplies. In fact, the San 
Gabriel Basin provides a reliable, local drinking water supply for the 
more than one million people who reside and work in the San Gabriel 
Valley.
    Beginning in the early 1980s, industrial contaminants have been 
discovered in the groundwater in the San Gabriel Basin aquifer. Those 
contaminants are the unfortunate legacy of unregulated discharges from 
defense-related industries during the cold-war era of the 1950s, 1960s, 
and 1970s. Contaminants such as Perchlorate, Volatile Organic 
Compounds, and other industrial chemicals in the groundwater led to the 
closure of many dozens of drinking water wells in the San Gabriel 
Valley. The resulting crisis led to the United States Environmental 
Protection Agency placing the San Gabriel groundwater basin on the 
EPA's National Priorities List. In other words, the Basin became one of 
the nation's largest superfund sites. But that allowed the EPA to take 
necessary investigatory and enforcement actions to identify the 
potentially responsible parties and to develop information needed to 
formulate groundwater cleanup plans. Though the EPA's actions have been 
extraordinarily helpful, the EPA did not undertake the job of cleaning 
up the Basin itself, and it has been in no position to provide funding 
to local agencies for that purpose.
    To satisfy the need for a locally-based entity to provide 
leadership and unified planning, the California State Legislature in 
1993 created the San Gabriel Basin Water Quality Authority to plan, 
coordinate, and accelerate the San Gabriel Basin groundwater cleanup 
efforts. Since its inception, the Water Quality Authority has developed 
and funded projects that have removed over 20 tons of contaminants and 
treated over 312,000 acre-feet of groundwater in the San Gabriel Basin.
    The Water Quality Authority has been aided by two federal 
programs--the San Gabriel Basin Restoration Fund (``Restoration Fund'') 
and the Title XVI program. These two programs have been a catalyst in 
the success of our remediation efforts. Both programs have enabled us 
to continue the collaborative approach of merging groundwater cleanup 
with restoring public drinking water supplies. It has allowed us to 
leverage federal dollars and local funding to bring all parties, 
including the parties potentially responsible for the contamination, to 
the table and work in a manner that addresses multiple issues at the 
same time.
    Through the leadership of Congresswoman Napolitano, Congressman 
David Dreier, and the members of the San Gabriel Valley Congressional 
Delegation, Congress created the Restoration Fund in December of 2000. 
The Restoration Fund is providing $75 million in federal matching 
funding for groundwater restoration projects in the San Gabriel Basin 
and $10 million for projects near the Whittier Narrows in the Central 
Basin. The Restoration Fund has provided urgently needed funding for 
local groundwater remediation efforts to assure reliable, safe drinking 
water supplies for our community. Congresswoman Napolitano, together 
with Congressman Dreier and their colleagues moved decisively to 
establish the Restoration Fund as a means of expediting the remediation 
of the very valuable local groundwater supplies.
    The Restoration Fund has provided an incentive for the Responsible 
Parties in the San Gabriel Basin to participate in the cleanup and 
reach funding agreements with the Water Quality Authority and the 
affected local water suppliers. The funding has also allowed the Water 
Quality Authority and the affected water suppliers to fund projects 
even before Responsible Parties could be identified or when Responsible 
Parties are no longer viable, cannot be located, or are recalcitrant. 
Without this additional federal funding, the likelihood for additional 
well closures would be great, leaving only the option of turning to 
costly and already overburdened imported water supplies.
    In light of the remarkable success of the Restoration Fund and its 
profound impact on the local cleanup efforts, Congressman David Dreier 
and his colleagues in the San Gabriel Valley Congressional Delegation 
have introduced H.R. 123. H.R. 123 would increase the ceiling on the 
Restoration Fund by $50 million for a total authorization of $135 
million. This additional funding would allow us to continue the 
progress we've made and allow us to avoid enormously costly litigation 
that only serves to delay the cleanup of local drinking water supplies.
    Similarly, the Title XVI program has provided the San Gabriel Basin 
with the ability to provide much needed wellhead treatment, stem the 
flow of contaminants, stabilize water rates, and most importantly 
deliver safe and reliable drinking water to the residents of the San 
Gabriel Valley.
    In 2004, Congresswoman Napolitano and her colleagues in the San 
Gabriel Valley Congressional Delegation introduced and passed H.R. 1284 
which increased the ceiling on the San Gabriel Basin Demonstration 
Project by $6.5 million. This increase resulted in a total 
authorization of $44.5 million for local cleanup efforts. The 
additional funding has allowed the Water Quality Authority to maintain 
the crucial momentum toward implementing groundwater cleanup we've seen 
in the San Gabriel Basin.
    In the time period since the Restoration Fund and Title XVI program 
were made available to the Water Quality Authority, thirty-four 
projects have been allocated funding. Twenty projects have been built 
and another eight are currently under construction with completion 
expected by the end of summer.
    For example, with the completion of four major groundwater cleanup 
projects developed and implemented through the Water Quality Authority 
with the cooperation of local water suppliers, participating 
Responsible Parties, and the U.S. EPA, we will be removing perchlorate 
and other toxic chemicals from groundwater at the rate of 24,000 
gallons per minute on a 24/7 year-round basis. These projects will 
continue to provide safe drinking water to residents and businesses in 
Baldwin Park, La Puente, West Covina, the City of Industry, and 
surrounding areas for decades to come without burdening the public with 
higher water bills.
    Without the funding for the treatment facilities, local water 
suppliers would have been forced to shut down more water wells due to 
rapidly migrating contamination. The well closures would have forced 
local water suppliers to become reliant on imported water, which would 
come mainly from the Colorado River. And as you know, California's 
allotment from the Colorado River water is being cut back. This would 
have severely impaired our ability to provide water for the residents 
and businesses in the San Gabriel Valley.
    Water from wells in the San Gabriel Valley is relatively 
inexpensive to pump and supply to homes and businesses. The current 
price for an acre-foot of treated, ready-to-drink Colorado River water 
in the high-demand summer period is approaching $500. The typical cost 
to pump, treat, and deliver an acre-foot of local San Gabriel Basin 
groundwater is $65 to $250 depending on the levels and types of 
contamination being treated.
    It is vital that we restore the San Gabriel Basin aquifer which as 
I mentioned is an essential, local, renewable water supply. Once we are 
able to remediate the contamination it is our belief that the San 
Gabriel Valley will be able to use the groundwater aquifer to meet 
most, if not all, of our local water needs. Removing harmful 
contaminants from our communities' groundwater supply will allow local 
water suppliers to better meet the needs of local residents for safe 
drinking water at affordable rates and makes certain that the 
groundwater basin is able to meet the water supply needs of future 
generations.
    The federal assistance provided by the Restoration Fund and the 
Title XVI program have allowed us to carry out our mission of 
facilitating groundwater cleanup and providing a clean, reliable 
drinking water supplies for the more than one million residents of the 
San Gabriel Valley.
    Thank you for allowing me to testify on the successes of the San 
Gabriel Basin Water Quality Authority and the important on-going 
progress of the cleanup of the San Gabriel Basin today.
                                 ______
                                 
    Mrs. Napolitano. Dim the lights, please.
    [Video Presentation.]
    Mrs. Napolitano. Thank you. It's so true. The migration 
does happen in most instances whether we want to admit it or 
not, which then brings to mind that we, as a society, not only 
the water agencies, the local municipal governments, but also 
the general populace needs to begin to look at water 
conservation. And the agency needs to look at water storage and 
water recycling to continue to be able to provide that source 
of water.
    With that, I will start off the questioning with Mr. 
Coffey. And one of the things that struck me in your testimony 
was the cleanup of the Henderson, Nevada contamination. How was 
it accomplished so efficiently? Who paid for it? And what 
happened to the perchlorate in Lake Meade? I mean, it didn't 
just evaporate. And did it go downstream to the irrigators and 
finally to Imperial and then into the tap waters of Southern 
California of which we are beneficiaries? And can you describe 
in more detail how the NC-2 cleanup actually works?
    Mr. Coffey. Yes, Congresswoman. In 1997 when the detection 
level for perchlorate was reduced, we detected perchlorate in 
the Colorado River aqueduct. We began an extensive evaluation 
of the watershed and identified the Las Vegas wash, which is 
the main drainage area from Las Vegas, as having extremely high 
concentrations of perchlorate. It wasn't long before we 
identified groundwater flows in the Las Vegas wash region which 
contained that perchlorate.
    The agency with regulatory oversight there was Nevada's 
Department of Environmental Protection. Nevada Department of 
Environmental Protection working with the polluters, Kerr-McGee 
and American Pacific Corporation, and with the oversight of the 
U.S. Environmental Protection Agency, began a series of cleanup 
orders where Kerr-McGee installed various control measures to 
control the main source of the plume. There are two main plumes 
in the Henderson area, one which was caused by Kerr-McGee which 
was rapidly moving into the Las Vegas wash, and one which was 
entering the groundwater and not moving as rapidly toward the 
wash, that was the American Pacific plume.
    There's been three or four treatment phases which were 
installed, initially a pump-and-treat system was installed 
which reduced by about 500 pounds per day the amount of 
perchlorate entering the wash. That resin was then hauled off 
to a hazardous waste incinerator in Utah and the perchlorate 
was destroyed. Also, an impermeable boundary, a slurry wall was 
installed in the area of highest concentration to block the 
groundwater flow such that the groundwater could be pumped from 
the area of highest concentration and treated by ion-exchange. 
Subsequently, a treatment plant, a pump-and-treat system using 
biological destruction of perchlorate was designed and built 
and has been accomplishing all of the perchlorate destruction. 
In that case, the perchlorate is biologically reduced back to 
chloride, and then that water can be discharged back to the Las 
Vegas wash.
    That whole system took approximately six years to get to 
its completion, although fairly rapid steps were taken to 
reduce the loading. At its maximum, we estimate about a 
thousand pounds per day of perchlorate were entering the 
Colorado River system. That perchlorate was disbursing 
throughout Lake Mead and all of the downstream areas of the 
Colorado River. In general, about 100 pounds of perchlorate 
resulted in about 1 part per billion of perchlorate in the 
Colorado River. So at its maximum of about a thousand pounds 
per day of discharge into the wash, that would have 
historically resulted in no greater than about 10 parts per 
billion of perchlorate in the River.
    We've seen a dramatic decline in our monitoring results of 
perchlorate from the Las Vegas wash. Entering the wash now are 
approximately 50 pounds per day of perchlorate which is 
entering the Colorado River, and we have not detected 
perchlorate at our intake at Lake Havasu at concentrations 
above 2 parts per billion since May of 2006.
    Mrs. Napolitano. Thank you. Did Kerr-McGee pay adequate 
reimbursement or--besides putting in their treatment plant?
    Mr. Coffey. Kerr-McGee followed all of the directives by 
the Nevada Department of Environmental Protection. They since 
had a lawsuit against the Navy because the Navy directed the 
operation at that chemical manufacturing facility for some 
time. Last year they reached a settlement with the Navy where 
the Navy would pay a portion of their cleanup costs to date, 
and then the Navy would pay a portion of the ongoing cleanup 
costs. To date, about 2200 tons of perchlorate have been 
removed from the environment in Henderson and destroyed, and we 
expect that cleanup to remain for decades, but they reached an 
agreement with the Federal Government on shared costs for that 
cleanup.
    Mrs. Napolitano. So they are sharing the costs.
    Mr. Coffey. They are now sharing the costs.
    Mrs. Napolitano. Well, that's good for the Navy. Let's see 
if the other agencies will come across with similar 
arrangements. Thank you. I'll pass on to Mr. Baca.
    Mr. Baca of California. Thank you, Madam Chair. You know, 
it's very alarming to me that all of you, you know, stated that 
the consumer will ultimately have to bear the costs if we don't 
treat this right now. And it's for those of us that are 
politicians, we have the responsibility toward our consumers, 
and we want to make sure that the cost isn't on them, because 
who's responsible? Both the Federal and private sector that's 
created the problem. And yet, you know, it's very alarming that 
if we look at the perchlorate and the problems, that could 
escalate. And one of the things is that our consumers really 
are not totally aware of the gravity of what could impact them 
now and in the future.
    And then especially as we look at our area in Southern 
California with the San Andreas Fault and the possibility of an 
earthquake in the immediate area and what impact it could have 
to its well, and that's something that we should take into 
consideration when we look at the need for funding and 
additional funding in the immediate area. So my question, I 
guess, would be to all of you, and I'm going to ask a general 
question, has perchlorate contamination affected your ability 
to provide safe and reliable supply of drinking water to your 
consumer, which is question number one, and have you 
experienced or do you anticipate any water supply shortage as a 
result of the presence of perchlorate? Any one of you can 
attempt to answer this.
    Mr. Araiza. It has affected our abilities simply because 
we've had to shut down several wells. But we have also 
installed treatments.
    Mr. Baca of California. Can you mention the numbers that 
have been shut down?
    Mr. Araiza. In our area--my statement says 22, but in 
reality I know of at least 24 because I just shut two more 
wells down that were not part of my statement then. In fact, I 
am working as hard as I possibly can--or my agency is, I 
shouldn't say ``we'' because I work for an agency. The agency 
is working to install a treatment system as we speak so it will 
be online for the summer. Our groundwater is our life blood, of 
course. I do have a small package treatment plant that I treat 
a little bit of the water out of Lytle Creek wash and a small 
amount of State Water Project water. But 80 percent of my water 
comes out of the ground. And when one of my basins is 
affected--and that is the Rialto basin and the Chino basin, I 
pump them both. And in fact, the north Riverside basin that I 
pump out of also, all three of them have perchlorate in them.
    And so it is a major concern of my agency to not pass that 
on to our rate payers. We have been very successful in getting 
funding from, a little bit from the Federal Government, some 
from the State of California, and a little bit from one of the 
PRP's, if you can believe that. They stepped up originally, but 
they've backed away now and decided to spend their money on 
attorneys. But it has--it did help us put on our first two 
treatment systems which were ion-exchange. They were very 
expensive to operate, as you've heard. And the new treatment 
system I'm putting on is going to be the ion-exchange also, but 
it does have a major effect on it.
    Mr. Baca of California. Can any--Michael?
    Mr. Whitehead. Yes, Congressman, in answer to your 
question, it is a very definite impact on our ability to supply 
reliable water supplies to our customers. It's imperative that 
we have access to our local water supplies. In the San Gabriel, 
for example, and the Baldwin Park La Puente area where we were 
severely affected by perchlorate contamination, as well as 
contaminants of other sorts, we lost 14,000-15,000 gallons per 
minute of water production capacity because of perchlorate in 
1997-1998, and since that time period. I used the word 
catastrophic earlier. We were fortunate to be able to get by 
and do water conservation practices. Don't tell me how we did 
it, we were fortunate not to have a major disaster or a major 
wild fire in the area that would require that water.
    The good news, though, is that through the efforts of the 
Groundwater Restoration Fund, the San Gabriel Basin Restoration 
Fund, which you've all supported and we thank you for that, and 
the efforts of the San Gabriel Basin Water Quality Authority, 
we've been able to design, construct, and now are operating 
plants in the Baldwin Park, La Puente, and City of Industry 
area now where we're treating 24,000 gallons of water per 
minute removing perchlorate, removing all of the VOCs, rocket 
fuel, you name it, from that water and treating that down to 
non-detectable levels.
    And the funding for that has come--the city money was 
provided by the restoration, though the restoration fund did 
not pay for all of that. It provided the seed money that 
allowed us to bring the polluters to the table and negotiate 
settlements with them whereby they're paying 100 percent of the 
capital costs of those facilities. Capital costs spent to date, 
$100 million. It's going to cost hundreds of millions of 
dollars to operate those facilities for the years to come. And 
at least in that small part of the San Gabriel basin where we 
got our start, 100 percent of that cost was borne by the 
polluters and outside funding, again with some matching funds 
from the Federal Government to pay for all of that capital 
cost. And the polluters are paying going-forward costs which is 
approaching $10 million a year to operate those five plants 
that we have in Baldwin Park.
    That's only the beginning. You saw the story of Monterey 
Park where we had to move in there. San Gabriel Valley is 167 
square miles, and so we have a vast problem. It's a Federal 
Superfund cleanup site. So we have a lot more to do. But to 
answer your question, it has had a profoundly adverse effect on 
our ability to provide safe reliable water. And we've been 
working, I'll say relentlessly to reverse that situation. With 
your help we've been successful.
    Mr. Baca of California. I know that my time is up.
    Mrs. Napolitano. No. Go ahead.
    Mr. Baca of California. My question that I asked earlier--
or the statement that I made earlier, but I want to ask it in 
reference to a question. If, in fact, we had an earthquake, are 
we totally prepared to provide good quality water now based on 
the problem that we have on perchlorate and to deal with it? Is 
there any one of your agencies now prepared to deal with that? 
And do we have a plan in place if, in fact, we had a major 
earthquake that hit us right now and we had to supply water? I 
hope we don't, but thank God.
    Mr. Araiza. I'll try that. We believe we are as prepared as 
we can be. We have taken major steps to prepare for that 
inevitable problem that probably will get some areas of 
Southern California. We have equipped our wells as best we can 
with emergency backup. Most of all of our wells, 99.9 percent 
of them are electrically operated, so you have to be able to--
if you lose your power, you'd have to be able to patch standby 
generation to run those wells. My agency has been buying 
standby generators, and it seems like a great expense to have 
stuff sitting there, but you have to be able to do that. We've 
hardened our reservoirs, most all of us in the water industry 
are doing that to be able to maintain the amount of water we 
have in storage.
    Mr. Baca of California. But if it goes into our soil----
    Mr. Araiza. If it shakes and it does shake bad enough, it 
will affect some of our wells. Some will be affected because it 
will--a lot of them are older constructed wells that when they 
start shaking, rattling, and rolling, they'll start coming 
apart. There's no doubt about that. But we think that we will 
be able to get by. I'm not saying it won't be an emergency, 
but----
    Mr. Baca of California. Because we know what happened with 
the San Fernando one. We had a seven point something earthquake 
in that immediate area, and the impact it's going to have 
before we actually do the cleanup in the immediate area, is 
that there are still going to be children that are going to be 
born. And during that period of time, we know the impact it's 
had on infants and the fetus of a woman, too, as well. So I'm 
just curious. Anybody else can answer.
    Mr. Coffey. From a regional perspective, we are also 
concerned about the potential for a large earthquake. As the 
three main import water sources, Colorado River aqueduct, State 
Water Project system, and the Los Angeles Department of Water 
and Power Act are all crossed by the San Andreas Fault. Our 
procedure is to keep a six-month emergency supply of water 
within the basin that, if all three of those water supplies 
were severed, that within the basin there's a six-month supply 
of water assuming significant conservation during that period. 
And so we believe that we are able to manage that earthquake 
risk from a water supply perspective.
    Also, I would just add that it's likely that any of the 
perchlorate treatment systems that have been installed recently 
have been installed with the most recent knowledge of 
earthquake tie downs and geotechnical investigations, and 
those--that new equipment is likely more ruggedized for an 
earthquake than perhaps an older infrastructure.
    Mrs. Napolitano. OK. Thank you. And one of the things that 
you're talking about is the contamination, has any testing been 
done in the water in the dam to make sure that that's OK?
    Mr. Coffey. ``The water in the dam,'' are you speaking 
about Diamond Valley Lake?
    Mrs. Napolitano. Yes.
    Mr. Coffey. Yes. We monthly test the water source of 
Diamond Valley Lake, and it is non-detectable for perchlorate 
at 2 parts per billion.
    Mrs. Napolitano. Good, because if anything should happen, 
as the Congressman was alluding to, that will be our source of 
water. And one of the things that the Congressman was talking 
about is the effect on infants and other children, and I'm 
wondering if anybody had done any investigation over the effect 
on the learning--because it does affect learning--ADD, 
Attention Deficit Disorder. That could be one of the 
conceivable outcomes of the perchlorate on our youngsters, and 
that's something we need to look at. And I want to ask the 
Congress to possibly request some studies along that line on 
the health effects on infants as they grow older, what else are 
they going to be prone to.
    I would like to thank the Federal EPA because, Mr. 
Whitehead, as you well know, they've been bringing the PRP's, 
the potential responsible parties to the table. And that's in 
great part thanks to their continued effort to putting pressure 
on them. And the credit goes to Congressman Drier who ran line 
42 and got us all involved, not to say that we weren't already, 
but the fact that they were able--my predecessor was able to 
place them on the Superfund list during the Pat Schroeder days 
when she was on the Superfund committee. And that has started 
the ball rolling. But had it not been for people recognizing 
the future effects it would have on this whole area, right now 
San Gabriel Valley would be in deep trouble.
    So thank you for all the work, and we thank the EPA for 
their participation. And we agree, there are no standards that 
have been set for the perchlorate, partly because the special 
interest and the business pressures. And then of course, Mr. 
Araiza, I read with great interest your testimony, that the 
parties involved in the litigation spent over $50 million.
    Mr. Araiza. Yes, that's my understanding, that the PRP's 
and some of the cities and even the state have spent tremendous 
amounts of monies on their litigation. And it's just almost 
unfathomable how much.
    Mrs. Napolitano. Well, how much--if that money had been put 
to good use, I think the problem would not be as severe as it 
is now.
    Mr. Araiza. It might have helped a lot. You're absolutely 
right.
    Mrs. Napolitano. Then there are a couple of other questions 
to Mr. Whitehead. Do you see the role for the Department of 
Interior, specifically the Bureau of Reclamation with their 
project on recycling? Of course the Administration is beginning 
to change their tune but not fast enough. And the U.S. 
Geological Survey, who is doing a study on the groundwater 
quality and contamination on contaminants, how--what, do you 
see all of it coming together with the local water agencies?
    Mr. Whitehead. Well, the Bureau of Reclamation and 
Department of Interior has been central to the administration 
of the San Gabriel Basin Restoration Fund. They have been an 
excellent partner in that endeavor, certainly at the operation 
level. It's regrettable that the Administration has not given 
the support to the highest echelons of the Bureau to continue 
our funding and be as enthusiastic as the local----
    Mrs. Napolitano. We'll get into that.
    Mr. Whitehead. But to answer your question, the Bureau of 
Reclamation has been central to this. And apart from the 
current fiscal year difficulties in getting funding and the 
problem with the budget and so forth, they have been tireless 
in their efforts and working very cooperatively. So I would 
recommend that they continue in that role and they be 
strengthened in that role, and that the restoration Fund be 
reauthorized as proposed in H.R. 123, which was introduced in 
this session, to extend the authorization by an additional $15 
million. I think that would be immensely helpful, and of course 
the Bureau will be involved in that.
    As far as the U.S. Geological Survey, I think that's the 
right terminology, activities, they have been doing a great 
deal of geophysical work in the basin identifying the carrying 
capacity in terms of storage capacity. And the part that was 
just published in this morning's San Gabriel Tribune, they 
reported their findings of a very interesting study that shows 
that recharge of the basin because of the record rainfall in 
past years has allowed us to reenforce our local water 
supplies. Certainly not the be all and end all of water supply 
problems, but it adds a margin of safety so that we don't have 
to be reliant on questionably reliable outside imported water 
supplies. Again, without belaboring the point, our access to 
that local groundwater is dependant on our ability to treat it, 
to remove the perchlorate and other contaminants.
    Mrs. Napolitano. Thank you for that. And again, returning 
to your statement about the Administration's unwillingness to 
continue to accept water recycling as a tool to be able to get 
additional water treated and put back into the aquifers or into 
the wells, it's been a running battle with the Administration 
to get them to understand that it is a necessity. They maintain 
that the law was only put in, and it's by mandate, 
Congressional mandate that they help the communities with the 
recycle water projects. They maintain that it was only for 
studies for pilot projects, and I maintain that that's not so, 
that they were mandated to continue the work. And as you well 
know, the Water 2025 Administration Plan does not do water 
recycling, and we have been battling with them.
    The Water 2025 has not been funded by Congress and not been 
authorized by Congress, and yet they're putting $11 million 
into that, which I'm hoping that one way or another we'll be 
able to take those out and put them into water recycling funds. 
So that's the current battle on that. And I'm hoping that we'll 
be able to get the support we need to be able to do that. The 
communities need that assistance. As you well know, it has been 
of help. And I think we need to continue providing that seed 
money for communities that need it.
    To Mr. Araiza, how do you dispose of the perchlorate after 
it's been removed from the well by ion-exchange?
    Mr. Araiza. The system that we use is a--it's a removal 
system where we take the particulates and actually take them 
away and burn them and then put new filter media in. So it's 
actually removed and new media's brought in. They take the old 
media away and they destroy it.
    Mrs. Napolitano. By burning it?
    Mr. Araiza. By burning it, yes. They burn the little resins 
up with the perchlorate in it, and they bring new resin in and 
replace it. We are looking at some regenerable resins and we, 
hopefully, are going to be working with an arm of the 
Department of Defense, the DSTCP in installing a new system 
this summer that they have been testing that possibly we will 
be able to have a regenerable resin. But I'm not sure how soon 
that's going to come. We're hoping for it by this summer, but 
hope doesn't work a lot of times. You just have to go out and 
do it yourself.
    Mrs. Napolitano. Well, is there any research that any of 
you know that can provide a better way of being able to handle 
it?
    Mr. Araiza. Well, bio-remediation works great as far as 
letting--and I apologize, letting the bugs eat up the 
perchlorate. They seem to like it. But you can't take the water 
that has been produced by that and put it directly back into 
your water system. You have to retreat it again, so that brings 
the cost up. It's very inexpensive originally to use the bio-
remediation, but to re-treat it to use in a system is very 
expensive. It brings the cost back up. So it's just as cost 
effective to use the ion-exchange at that point.
    Mrs. Napolitano. There has been some other methodology 
touted in the east coast membrane technology. Are you aware of 
it, or have you heard about it? Have they used it?
    Mr. Araiza. Yes. The problem with membrane, and someone 
will correct me if I'm wrong, it's very costly because it takes 
a lot of energy to push it through the membranes. So you have 
to force the water through the membranes by pumping it at very 
high velocity, and that raises the cost up. RO systems, which 
are basically a membrane system that take everything out of the 
water, have been around and they're using it in the Chino basin 
to take the salts out. It gets very expensive. That's even more 
expensive water than the ion-exchange systems.
    Mrs. Napolitano. Well, when I look at water cost for the 
farming community in Northern California and the couple of 
hundred they pay versus what we pay versus what Arizona is 
paying for the water, I think we're going to end up somewhere 
in the middle on that.
    Mr. Coffey, on the issue of fertilizer, is it still in the 
soil? And how long will it continue to contaminate groundwater? 
Or do you know if it does? How long will it be to physically 
remove the contaminated soil? Would that eventually be another 
option?
    Mr. Coffey. Well, the ammonium perchlorate in fertilizer is 
similar in chemical structure to nitrate. And we find--often we 
find co-occurring nitrate contamination with perchlorate 
contamination. And that co-occurrence is often the result of 
our agricultural legacy. One of the difficulties is that 
because of their similar chemical structure--but nitrate occurs 
at concentrations thousands of times greater, the 
concentrations of nitrate are what drives the real treatment 
costs for perchlorate. That perchlorate will remain in the 
groundwater basin unless it is mitigated in some way either 
through--within the ground treatment or through pump-and-
treatment system, and its legacy would remain just as the 
legacy of agricultural use of fertilizers and nitrates.
    Mrs. Napolitano. So you don't see any future ability for 
the rainwater to glean out the earth, so to speak, before it 
gets into the aquifer?
    Mr. Coffey. Well, certainly the basins are used and the 
groundwater flows through the basins, but in terms of that 
massive perchlorate which was applied to agricultural lands, 
that massive perchlorate will remain or will travel a 
downgradient in the hydrogeologic case. So it will only be by 
eventual flushing or removal of the perchlorate.
    Mrs. Napolitano. Well, it can only do so much filtering, 
can't it?
    Mr. Coffey. Right. But the biological reductions really do 
not occur without additional carbon sources without a 
treatment. It's very rare that the conditions exist naturally 
for any kind of biological reduction.
    Mr. Baca of California. Thank you, Madam Chair. My question 
is for Mr. Martin. We have heard today that a cease and desist 
order was issued one year after the discovery of perchlorate in 
the East Valley Redlands area. Can you help us understand why 
after ten years we cannot get a similar order in the low income 
of Rialto?
    Mr. Martin. I wish I could. We really haven't been involved 
too much with the proceedings with Rialto and West Valley. 
Probably better question for Butch here. I'd have to ask you, 
Butch.
    Mr. Araiza. And I don't know that I have an answer to that 
question, Congressman Baca. I think my testimony, of course, is 
very----
    Mr. Baca of California. We're not as influenced as 
Redlands, but yet, why can't we get them----
    Mr. Araiza. You know, and when they were trying to solve 
the Redlands problem, I personally thought it was taking way 
too long to do that. And it's the process that we go through 
with the regional boards. They are a bureaucratic arm of the 
State of California that answers to an appointed board, and 
most of those people are people from our local communities that 
are influenced by other people in the community and it's a hard 
process to deal with. That's why I am so----
    Mr. Baca of California. Are you saying that because it's 
influenced--because Redlands is, you know, high economic area 
versus low economic area, we have different Congressmen in that 
area versus someone in the different area? I mean, that's 
basically what you're stating in one sense in terms of why it 
was addressed in one year and it's taken us ten years in 
another area.
    Mr. Araiza. And I----
    Mr. Baca of California. There's different standards, and 
yet, the problem that existed in that area----
    Mr. Araiza. Was addressed.
    Mr. Baca of California. Yes.
    Mr. Araiza. And they finally forced Lockheed to the table, 
and I think it was through the arm-twisting of probably their 
Congressman in that area. And it is a very affluent area, and 
it probably helped the fact that it was a very affluent area 
that they had a lot of people that pushed at that. It doesn't--
it probably makes sense that that is the case.
    Mr. Baca of California. And we should be hearing 
everybody's voices regardless of whether they have influence or 
not, whether you come from a poor disadvantaged area, and 
that's what we're basically saying here.
    Mr. Araiza. Absolutely. I agree a hundred percent.
    Mr. Baca of California. I want to get back to a question 
that the Congresswoman asked earlier, when she was talking 
about one of the things that we currently lack standards in 
reference to the parts per billion. And I know in California we 
set the standard at 6 parts per billion, and yet the U.S. 
Environmental Protection Agency has not set an overall 
standard, and yet the State of Massachusetts has set a standard 
of 2 parts per billion. And I know that if we set a zero 
tolerance, do you think that that could actually be met by all 
of us? And would that be the safest level? Because if we set 
either a 2 or a 6, have the studies determined if those are 
safe, or if zero tolerance would be the safest that we should 
go with at this point? Anyone can attempt to answer.
    Mr. Whitehead. Mr. Baca, I'm not a public health expert and 
I can't--I wish I could tell you----
    Mr. Baca of California. But you guys are impacted.
    Mr. Whitehead. But we have a direct impact, as you say, on 
public health because we deliver the water for public 
consumption by adults and children and the entire population. 
So please understand that we have a deep and abiding interest 
in attempting public health and safety. I can tell you this, 
that because there is no standard--we talked about the 
California standard of being 6 parts per billion. That's not a 
standard, that's a non-enforceable level that's called a public 
notification level. It's not a binding enforceable level. What 
we need are standards. I can tell you that in the absence----
    Mr. Baca of California. You're saying Federal standards, 
right?
    Mr. Whitehead. of Federal standards.
    Mr. Baca of California. I mean, we need to be clear on 
that, because I think that for the public, sometimes we look at 
what the state comes up with, and they assume that that's the 
standard. And we need to clarify that and say that there is no 
Federal guidelines right now.
    Mr. Whitehead. There is no Federal standard. The law of the 
State of California is that the standard that will apply will 
be the U.S. EPA established standard or the state standard if 
it's more stringent. We have neither.
    Mrs. Napolitano. Can you state why it hasn't been set?
    Mr. Whitehead. I wish I knew. We were on the verge of 
having a U.S. EPA adopted standard set five years ago. And now 
I can't tell you why they dodged that issue and handed it off 
to the National Academy of Sciences to come up with something 
else. I don't know the answer to that. I can tell you this.
    Mr. Baca of California. But let me say if we did set a 
standard, do you think then--I mean, this is just going through 
my mind right now. If we did set a national standard, then 
automatically that probably every city, then, would probably 
save X amount of dollars in filing fees and attorney's fees 
because they're fighting all of this right now. So that would 
be dollars that could be reinvested in terms of cleanup water 
versus the fees that they're fighting right now. I mean, 
basically we're spending a lot of money on attorney's fees to 
fight this issue. I don't know.
    Mr. Whitehead. That's the lesson we learned in the San 
Gabriel Valley. And thank God we learned that lesson. We didn't 
spend the $50 million on attorney's fees and have a scorched 
earth litigation policy that Ms. Newman described. What we did 
is we led those polluters to the table. If Ms. Solis was here, 
she would probably say we forced them to the table with her 
help and your help and the help of the other elected officials 
and agencies. But in the absence of a standard, we set our own 
standard over there. And that standard was the lowest level 
achievable by the use of best available technology, which we 
know is below 1. And that's what we're treating at 24,000 
gallons a minute that I mentioned earlier, to below 1.
    It's not good enough to treat it to 6, talking about 
establishing a standard. That's nothing more than a license for 
the polluters to boot up to 6 parts per billion. That's 
nonsense. What we need is a supportable health-based standard 
that we can design and operate our facilities to. That's what 
the water industry needs. We need standards. And it's beyond 
comprehension that we haven't been able to address this issue. 
So in that regard, I can tell you right now that the water 
quality authority supports Ms. Solis' bill. We need to set a 
timetable, we need to get that done, we need standards so we 
can design these systems to protect public health.
    Mr. Araiza. Yes, let me add in, I agree a hundred percent. 
The U.S. EPA needs to have a standard set, a national standard 
set. California's a privacy state, by that, the health 
department sets their--they look after their own MCLs they set 
on water. And if the U.S. EPA set it at 6, I would imagine--I 
wouldn't be a bit surprised if California tried to one-up them 
and go to 4, which would be fine. As Mr. Whitehead said, we are 
using the best technology we can right now to take the 
perchlorate out. That does take it down below 4, probably 
around 2 or 1 part per billion.
    I have publicly assured my constituents and my agency that 
we are not serving any perchlorate in my agency, and my board 
has backed me a hundred percent on that. And we are spending 
some of our public's money, though, to make sure we're 
continuing to do that because we have not been able to get 
funding from either the PRP's or from other areas. But to that 
end, we will continue to do that. My board has agreed that we 
need to do that. But we do need a Federal standard, absolutely.
    Mr. Baca of California. Thank you. I guess my next question 
would be have the reduction in state water supplies resulted in 
increased reliance on groundwater as a result of the municipal 
water supplies? Anyone can answer this.
    Mr. Araiza. In our area, and that's one of the major 
problems we have is in Fontana, Rialto, Colton areas, we don't 
have a good supply of state project water. We do have what is 
available, but we have not gone to the extent to build the 
massive treatment plants. Mr. Whitehead is currently underway 
in Fontana building a large surface water treatment plant to 
treat state project water. I have expanded my surface water 
treatment plant to be able to hopefully double its capacity. 
Presently it's at about ten million gallons a day, and I'm 
hoping to take it to 20 by next year and be able to accommodate 
more state project water.
    If that water was cut off, yes, it would make us dependant. 
We'd have to depend on our groundwater. Even with the project, 
the surface water treatment plants, basically we are supposed 
to have 100 percent backup for those plants through our 
groundwater sources, especially for short periods of time.
    Mr. Baca of California. Anyone else want to answer?
    Mr. Coffey. Metropolitan provides 45 to 60 percent of the 
water supplies to the region, and that's comprised of water 
from the Colorado River and water by contract through the State 
Water Project system. By contract, we have approximately two 
million acre feet per year of water supplies through the State 
Water Project, and currently with the result of this year's 
hydrology, 60 percent of that supply is available to us. That 
means that approximately 1.2 million acre feet per year this 
year of water can be imported into the region.
    Now, there are threats to the pumping banks, as you're 
aware, and we're awaiting a number of court actions on that. 
But even within some of those actions, that would reduce the 
available supplies this year by maybe 75 percent to--or about 
half of that, so about 600,000 acre feet per year. And in 
essence, Metropolitan, through its integrated resources plan, 
has identified a number of strategies in terms of groundwater 
storage, storage off the aqueduct, partners with agriculture to 
make our water supplies much more robust and less likely to be 
threatened by any one problem, such as a drought in one of the 
watersheds or our local groundwater contamination. These are 
very serious at the local level, but on a regional level, 
Metropolitan has invested in a diverse portfolio of water 
resources such that any threat to one source would not be a 
major problem for the region.
    Mr. Baca of California. But Brad, reliability on the 
Colorado River could impact us because we rely on it right now 
quite a lot. But because of the growth in the population of 
both Colorado and Arizona could impact the future demands of 
water to the State of California based on the projections, as 
California right now has 37 million people and we could go up 
to 48 million people by the year 2030. So the reliance on the 
Colorado River is that we have to look at other resources too 
as well. Is that true?
    Mr. Coffey. That is correct. And certainly recycling and 
groundwater resources and conservation are all important 
aspects of that. Fortunately California does have the rights to 
4.4 million acre feet of the Colorado, and that has been--that 
has been heard throughout the courts over the past decades. But 
you're right, sources of water are also conjunctive use of 
groundwater basins storing water in wet years in the 
groundwater basin for withdrawal in dry years. And in 
groundwater conjunctive use and groundwater recovery and local 
resources programs, Metropolitan has invested several hundred 
million dollars in the past two decades to make the water 
systems much more robust for regional supply.
    Mrs. Napolitano. May I step in and say that thanks to the 
Metropolitan Water chairman, former chair Phil Pace, who asked 
me to check out Moab, which is another issue that we have not 
even touched upon, and it's the ten and a half--or they say 12 
million tons of spent uranium 750 feet from Colorado. That 
could conceivably go in and wash uranium and contaminate not 
only our drinking water from Colorado, which is a third of our 
water, but also something like 20-some-odd million people, the 
ecology, the tourism, and, I mean, untold areas. Well, thanks 
to the Met, we were able to get the Department of Energy, then 
Bill Richardson, to pass legislation with the support of the 
Clinton Administration to put into statute that we need to 
address that issue.
    And in the last few years, the Governors finally got it and 
started asking the Administration for support in addressing it 
not only through the NAS--NSA, I can't remember the acronyms--
to be able to look at the best way of addressing it. They 
capped it with $5 million left by the company Atlas that went 
bankrupt and that was not even enough to put a cap on it. It 
was red clay that just blew out all over. But also the PRP is 
not being held accountable. And because it was used for Cold 
War defense systems, the Federal Government has had to step in. 
And unfortunately they're not moving fast enough; however, 
there is a process of getting a contractor to either sludge it, 
move it, or get it recycled. And it will take anywhere between 
20 and 30 years and possibly up to a billion dollars to move.
    Mr. Coffey. Correct.
    Mrs. Napolitano. So understand, the issues also affected, 
that's a third of our drinking water from the Colorado River 
for Southern California.
    On another issue, Mr. Whitehead, in the mid-80s, I was 
lucky enough to meet a representative of two water districts 
for the City of Norwalk for which then I was mayor, and found 
out that there was a contamination traveling down toward our 20 
communities in the lower area that needed to be addressed. And 
at that time, we asked for a geological study to determine the 
aquifer that was contaminated and would no longer provide 
potable water to my district given non-treatment. And so once 
that geological study was done, it was presented to the cities 
surrounding Norwalk, and they took action to band together, put 
money together, and then go to the Federal EPA to ask for 
assistance to be able to deal with contamination.
    And I remember going to many meetings at the local level 
where there was an issue about, ``Well, do we treat it above 
ground? Do we treat it below ground? Do we use the 
technology?'' And years went by before they actually were able 
to begin the actual treatment. So let that be a lesson. You 
need to be able to come together and decide what--not how to 
treat it, but to treat it as soon as possible. And that's why I 
have a little interest in water. I have a few years of 
background in this.
    And I must ask all of you to go back and educate your 
elected officials, not only your local, your state, and your 
Federal, your county officials of how important water is, 
because let me tell you, not many people understand it, not 
many people know the effect, not only on health, but also on 
the economic vitality of the region. And so I would ask that 
the public also get involved and that they raise their voices 
to all of their elected officials and that they raise their 
voices, not only to their elected officials, but to the 
Administration because you're the ones who are affected, your 
families, your peers, your coworkers. And this is not an issue 
that is going to go away. And we need to impress upon the 
Federal Government that they need to form a coalition and a 
partnership with all agencies, state, county, Federal, and 
health agencies to be able to ensure that we take a look at 
what is happening, because they didn't find perchlorate in the 
San Gabriel basin until, what, two years ago?
    Mr. Whitehead. 1997. And that's after 20 years of problems 
with VOCs.
    Mrs. Napolitano. So understand, it's something that is 
there, and we need to continue to inform and educate.
    Now, going to--there's some reports, I don't know if 
there's copies back there, but there's a website that you can 
get them. The Sierra Congressional Resource here provided that 
on perchlorate, and there is also draft report summaries, and 
the Santa Ana watershed was kind enough to get us some copies. 
Those are exceedingly important. I suggested that whoever's 
interested in water and following it into the next generation, 
that they look at it.
    With that, I conclude the Subcommittee's oversight hearing 
on sustainable water supplies for the West, part one, 
protecting our groundwater resources. And I thank the panel for 
your testimony and your time, and I hope it was well spent. And 
under the Committee Rule 4H, additional material for the record 
should be submitted by members or witnesses, for that matter, 
members of the audience, within 30 days after the hearing. They 
can send them to my office or to Mr. Baca's office, and we'll 
get them into the record. I would appreciate cooperation of the 
witnesses in responding promptly to any questions submitted to 
you in writing. And with that, I adjourn the hearing. Thank you 
very much. God bless.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by The Honorable Grace 
Vargas, Mayor, City of Rialto, California, follows:]
                             City of Rialto
                               california
April 9, 2007

The Honorable Grace F. Napolitano
Subcommittee on Water and Power
1522 Longworth House Office Building
Washington, D.C. 20515

Dear Madam Chairman:

    The City of Rialto respectfully requests the opportunity to testify 
before the Natural Resources Subcommittee on Water and Power's field 
hearing in California on April 10, 2007, The City of Rialto is most 
interested in offering insight into how it has been meeting the 
challenge of providing clean and safe water to its residents while 
dealing with one of the most contaminated perchlorate sites in the 
State if not the country.
    The City of Rialto provides water service to almost 50,000 people, 
as well as schools, hospitals, parks, and businesses. The City relies 
on groundwater which is pumped primarily from the Rialto-Colton Basin. 
The Rialto-Colton Basin is the most important water resource for the 
City of Rialto.
    Seven of Rialto's thirteen wells have been removed from service for 
some period due to detections of perchlorate from just over 4 to 110 
parts per billion (ppb). The shutdowns have reduced Rialto's production 
capacity by nearly 48 percent. The perchlorate plume affecting the 
City's wells is believed to be more than 6 miles long and approximately 
1 mile wide, although the full extent of the plume is not known. 
Perchlorate concentrations as high as 10,000 ppb have been found in 
groundwater. The Rialto-Colton Basin is also impacted by volatile 
organic compounds, including trichloroethylene (TCE) at concentrations 
up to 730 ppb. The perchlorate and TCE contamination, coupled with the 
ongoing drought conditions in Southern California, has severely reduced 
the availability of water to the City.
    The source of much of the perchlorate contamination impacting 
drinking water wells is a site located over the northern portion of the 
Rialto-Colton Basin in the City of Rialto where the Army, defense 
contractors, and fireworks manufacturers have utilized or manufactured 
the chemical in their operations for over 60 years. It has been shown 
that many of these operators have discharged perchlorate onto the 
ground thus allowing for its eventual contamination of the underlying 
groundwater aquifer. The City is pursuing a multi-pronged strategy to 
deal with this critical threat to its water supply.
    Rialto stands ready to offer testimony and answer any questions the 
Subcommittee may have about how our City has dealt with the threat of 
perchlorate groundwater contamination. Please do not hesitate to 
contact me or Henry Garcia, City Manager, a[ (909) 820-2689 or Robert 
Owen. Rialto's City Attorney, at (909) 890-9027,

Sincerely,

Mayor Grace Vargas

cc: The Honorable Joe Baca

                                 <all>

</pre></body></html>
